<html>
<title> - HOUSING FINANCE REFORM--MAINTAINING ACCESS FOR SMALL LENDERS</title>
<body><pre>[Senate Hearing 115-109]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 115-109


      HOUSING FINANCE REFORM_MAINTAINING ACCESS FOR SMALL LENDERS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

   EXAMINING THE ROLES THAT SMALL LENDERS PLAY IN THE MORTGAGE MARKET

                               __________

                             JULY 20, 2017

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                 Available at: http: //www.fdsys.gov/



                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-428 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




















            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                      MIKE CRAPO, Idaho, Chairman

RICHARD C. SHELBY, Alabama           SHERROD BROWN, Ohio
BOB CORKER, Tennessee                JACK REED, Rhode Island
PATRICK J. TOOMEY, Pennsylvania      ROBERT MENENDEZ, New Jersey
DEAN HELLER, Nevada                  JON TESTER, Montana
TIM SCOTT, South Carolina            MARK R. WARNER, Virginia
BEN SASSE, Nebraska                  ELIZABETH WARREN, Massachusetts
TOM COTTON, Arkansas                 HEIDI HEITKAMP, North Dakota
MIKE ROUNDS, South Dakota            JOE DONNELLY, Indiana
DAVID PERDUE, Georgia                BRIAN SCHATZ, Hawaii
THOM TILLIS, North Carolina          CHRIS VAN HOLLEN, Maryland
JOHN KENNEDY, Louisiana              CATHERINE CORTEZ MASTO, Nevada

                     Gregg Richard, Staff Director

                 Mark Powden, Democratic Staff Director

                      Elad Roisman, Chief Counsel

                      Travis Hill, Senior Counsel

                Graham Steele, Democratic Chief Counsel

            Laura Swanson, Democratic Deputy Staff Director

            Erin Barry, Democratic Professional Staff Member

             Megan Cheney, Democratic Legislative Assistant

                       Dawn Ratliff, Chief Clerk

                     Cameron Ricker, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)





























                            C O N T E N T S

                              ----------                              

                        THURSDAY, JULY 20, 2017

                                                                   Page

Opening statement of Chairman Crapo..............................     1

Opening statements, comments, or prepared statements of:
    Senator Brown................................................     2

                               WITNESSES

Brenda Hughes, Senior Vice President and Director of Mortgage and 
  Retail Lending, First Federal Savings Bank of Twin Falls, 
  Idaho, on behalf of the American Bankers Association...........     4
    Prepared statement...........................................    30
    Responses to written questions of:
        Senator Cotton...........................................    77
Tim Mislansky, Senior Vice President and Chief Lending Officer, 
  Wright-Patt Credit Union, and President, myCUmortgage, LLC, on 
  behalf of the Credit Union National Association................     5
    Prepared statement...........................................    34
Jack E. Hopkins, President and Chief Executive Officer, CorTrust 
  Bank, N.A., Mitchell, South Dakota, on behalf of the 
  Independent Community Bankers of America.......................     7
    Prepared statement...........................................    44
    Responses to written questions of:
        Senator Cotton...........................................    77
Chuck Purvis, President and Chief Executive Officer, Coastal 
  Federal Credit Union, Raleigh, North Carolina, on behalf of the 
  National Association of Federally Insured Credit Unions........     9
    Prepared statement...........................................    47
    Responses to written questions of:
        Senator Cotton...........................................    78
Wes Hunt, President and Chief Executive Officer, Homestar 
  Financial Corporation, Gainesville, Georgia, on behalf of the 
  Community Mortgage Lenders of America..........................    10
    Prepared statement...........................................    58
William Giambrone, President and Chief Executive Officer, 
  Platinum Home Mortgage, Rolling Meadows, Illinois, and 
  President, Community Home Lenders Association..................    12
    Prepared statement...........................................    66

              Additional Material Supplied for the Record

Letter submitted by Capital Markets Cooperative..................    80
Letter submitted by The Mortgage Collaborative...................    83
Statement submitted by the Mortgage Bankers Association..........    85
Joint letter submitted by consumer and housing industry groups...    93
Letter submitted by the Mortgage Bankers Association.............    95
Joint letter submitted by Senator Scott..........................    97
Joint letter submitted by small and mid-sized trade associations.    98

                                 (iii)

 
      HOUSING FINANCE REFORM--MAINTAINING ACCESS FOR SMALL LENDERS

                              ----------                              


                        THURSDAY, JULY 20, 2017

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:04 a.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Mike Crapo, Chairman of the 
Committee, presiding.

            OPENING STATEMENT OF CHAIRMAN MIKE CRAPO

    Chairman Crapo. This hearing will come to order.
    Today the Committee will continue its series of hearings on 
housing finance reform. In May, Treasury Secretary Mnuchin and 
FHFA Director Watt both appeared before the Committee and gave 
their perspectives on the state of housing finance and the 
housing finance reform prospects.
    In June, we held a hearing on the principles of housing 
finance systems featuring three witnesses, each with a deep 
background in housing finance. Today we will hear from a range 
of small lenders, representing community banks, credit unions, 
and non-depositories.
    Small lenders play a critical role in the mortgage market. 
This is especially true in rural States like Idaho, as well as 
other communities across the country. Small lenders are often 
fixtures in their communities who extend credit based on local 
knowledge and expertise.
    As we contemplate how to reform the housing system, we must 
understand how small lenders access the secondary market and 
ensure that such access is preserved in the new system.
    Today small lenders often sell mortgage loans to Fannie Mae 
and Freddie Mac through the cash window at each enterprise, 
which allows lenders to exchange individual loans for cash. 
Among the benefits of the cash window is that it allows small 
lenders to access the secondary market without selling loans to 
competitors.
    I look forward to hearing from our witnesses today 
regarding what a reformed system must include to ensure small 
lenders can access the secondary market.
    In past hearings on housing, I have discussed housing 
finance reform principles that I believe share bipartisan 
support. We need to preserve the to-be-announced market and an 
affordable, accessible 30-year fixed-rate mortgage.
    We must have multiple levels of taxpayer protection 
standing in front of any Government guarantee, including 
downpayments, loan-level insurance, and, very importantly, 
substantial, robust, loss-absorbing private capital.
    The transition to a new system must be orderly and 
deliberate, and it should utilize existing market 
infrastructure where possible. These are foundational 
principles that are consistent with many of the reform plans 
that have been proposed in recent years.
    Fannie Mae and Freddie Mac have been in conservatorship for 
close to 9 years. While some have grown accustomed to the 
current system, the status quo is not sustainable. A mortgage 
market dominated by two huge Government-sponsored companies in 
conservatorship is not a long-term solution and is not in the 
best interest of consumers, taxpayers, lenders, investors, or 
the broader economy.
    The GSEs are currently earning profits, but taxpayers could 
again be on the hook for billions of dollars when the housing 
market experiences its next downturn. Reform is urgently 
needed.
    I look forward to working with other Members of this 
Committee and the witnesses today, as well as the groups they 
represent, as we develop a long-term solution for our housing 
finance system.
    Senator Brown.

               STATEMENT OF SENATOR SHERROD BROWN

    Senator Brown. Thank you, Chairman Crapo. Thank you for 
holding this hearing. I would like to first welcome all of our 
witnesses, including a lender from Ohio.
    Tim Mislansky is the senior vice president/chief lending 
officer at Wright-Patt Credit Union. He lives in West Chester, 
Ohio. The credit union is located outside of Dayton in 
Beavercreek. It serves the Dayton area and communities between 
Cincinnati and Columbus like Xenia.
    His credit union is the largest lender on this panel, with 
$3.5 billion in assets. There is some irony in that always at 
our Committee hearings, and I appreciate Ms. Hughes being here 
as a constituent of Chairman Crapo. I also find it interesting 
that the ABA is almost never represented by the people that 
stop by my office as the CEO of one of the largest banks in 
America did yesterday. It is always represented by a community 
bank. I appreciate that. I appreciate your being here, but I 
also always find that a bit interesting.
    Tim knows how small lenders serve smaller cities and 
suburban markets. His expertise is a valuable addition to our 
housing finance reform process. I thank him for that.
    As we have heard repeatedly in this Committee, small 
lenders are often the only lenders willing to go the extra mile 
to underwrite mortgages in areas that are too often left behind 
by Washington and by Wall Street--in cities' urban core and in 
rural communities. Community lenders know their customers and 
the needs and challenges of the cities and the towns they 
serve.
    During the Committee's last effort, 3 years ago, I guess, 
on housing finance reform, S. 1217 included a small lender 
mutual, but the system created in the bill simply did not 
include enough protections to prevent large lenders from 
controlling the secondary market. Without firewalls between the 
primary and secondary markets, we lose a layer of 
accountability for underwriting; we create loopholes that 
permit concentration of risk.
    We saw during the housing crisis how consolidation of 
primary market and secondary market operations within a single 
entity can hurt borrowers and hurt entire communities.
    The Financial Crisis Inquiry Commission found that in 2008, 
private label loans had a delinquency rate of over 28 percent 
compared to a delinquency rate of just 6 percent for GSE loans. 
That discrepancy is pretty alarming and illuminating. States 
like Ohio and Nevada are still feeling the impact of those 
predatory private loans.
    In the same way that the GSEs are prohibited from 
originating mortgages, originators and their parent companies 
should be prohibited from any ownership of guarantors.
    Proposals for reform range from a complete overhaul of the 
mortgage market to narrow, surgical changes. Looking at what 
current and future homeowners and lenders stand to lose in 
reform is as important as the desire to change the system.
    Looking out for Americans who are trying to buy homes and 
stay in homes and build better lives for their families has to 
be by far the number one priority of this Committee and of this 
legislation.
    I look forward to hearing from our witnesses about how the 
housing finance system could be improved and should be improved 
to better serve small lenders and their customers, as well as 
what should be preserved and protected.
    While we are discussing the importance of community 
lenders, we should also include the important work of housing 
counselors, CDFIs, and community organizations.
    Their work helped families achieve stable home ownership 
before the crisis and helped families keep their homes during 
the crisis. The importance of pre- and post-purchase housing 
counseling cannot be ignored during this legislative process.
    As we continue to debate the role of the GSEs, private 
capital, and large financial institutions in providing access 
to affordable mortgages, we cannot and should not create a 
system that allows the GSEs or new players to use a business 
model that serves only the largest lenders, the highest income 
borrowers, or the well-off pockets of our country. I think you 
all recognize that. We need a model that allows all Americans, 
in every corner of the country, to become homeowners and to 
remain homeowners.
    If the Government is going to have a role backing the 
housing market--and I believe we should--then that market must 
work for everyone, everywhere, not just those with the most 
lobbyists in this town and not just those with the deepest 
pockets.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you, Senator Brown.
    Now we will turn to the oral testimony. First, we will 
receive testimony from Ms. Brenda Hughes, senior vice president 
and director of mortgage and retail lending at First Federal 
Savings Bank of Twin Falls, Idaho, on behalf of the American 
Bankers Association. And thanks, Brenda, for bringing some of 
Idaho's common sense here to Washington.
    Ms. Hughes. Good morning.
    Chairman Crapo. Next we will hear from Mr. Tim Mislansky, 
senior vice president and chief lending officer of Wright-Patt 
Credit Union, and president of myCUmortage, on behalf of the 
Credit Union National Association.
    Then we will hear from Mr. Jack E. Hopkins, president and 
CEO of CorTrust Bank, on behalf of the Independent Community 
Bankers of America.
    Following Mr. Hopkins, we will hear from Mr. Charles M. 
Purvis, president and CEO of Coastal Federal Credit Union, on 
behalf of the National Association of federally Insured Credit 
Unions.
    Then we will hear from Mr. Wes Hunt, president of Homestar 
Financial Corporation, on behalf of the Community Mortgage 
Lenders of America.
    And, finally, we will hear from Mr. Bill Giambrone, 
president and CEO of Platinum Home Mortgage, on behalf of the 
Community Home Lenders Association.
    Each witness is recognized for 5 minutes of oral remarks, 
and, Ms. Hughes, you may proceed.

STATEMENT OF BRENDA HUGHES, SENIOR VICE PRESIDENT AND DIRECTOR 
 OF MORTGAGE AND RETAIL LENDING, FIRST FEDERAL SAVINGS BANK OF 
     TWIN FALLS, IDAHO, ON BEHALF OF THE AMERICAN BANKERS 
                          ASSOCIATION

    Ms. Hughes. Good morning. Thank you.
    Chairman Crapo, Ranking Member Brown, my name is Brenda 
Hughes. I serve as senior vice president and director of 
mortgage and retail lending for First Federal Savings Bank of 
Twin Falls, Idaho. We are a $607 million asset savings 
association founded in 1915. I appreciate the opportunity to be 
here to present ABA's views on GSE reform and community bank 
access.
    This issue is a critical one for our country. Americans 
have relied on access to long-term fixed-rate mortgages for 70 
years. Fannie Mae and Freddie Mac have facilitated access to 
this product by providing access to the capital markets for 
private market lenders. The GSEs have been in conservatorship 
for nearly 9 years. We should not delay reform any longer.
    Absent aggregation and securitization, access to long-term, 
lower-rate funding would be far more difficult to come by for 
most primary lenders. The Government guarantee provided to 
mortgage-backed securities guaranteed by the GSEs makes them 
attractive to capital markets ensuring liquidity. As we 
consider reform, these elements must be preserved and remain 
available to support all primary market participants regardless 
of size or location.
    First Federal relies on this access and actively delivers 
loans directly to Freddie Mac, retaining servicing on these 
loans. We currently service approximately 5,000 loans. Like so 
many banks, both large and small, access to the secondary 
market through the federally guaranteed secondary market 
enterprises is essential to our ability to meet the mortgage 
needs of our customers.
    ABA has worked with bankers from all institutions of all 
sizes and from all parts of the country to develop shared 
principles which should guide reform of the GSEs. From my 
testimony today, I would like to highlight a few key 
principles. More detail on these principles can be found in my 
written testimony.
    We believe that the following principles should form the 
basis for legislative reform efforts:
    First, the GSEs must be strictly confined to a secondary 
market role, providing stability and liquidity to the primary 
mortgage market for low- and moderate-income borrowers. They 
must be strongly regulated, thoroughly examined, and subject to 
immediate corrective action for regulatory violations.
    In return for their GSE status and the associated benefits, 
entities must agree to support all segments of the primary 
market and all economic environments and provide equitable 
access to all primary market lenders. This includes 
preservation of the to-be-announced market and both servicing 
retained and sold options.
    Mortgage-backed securities issued by the GSEs should carry 
an explicit guarantee from the Federal Government. These 
guarantees should be fully paid for through the guarantee fees 
equitably assessed. The GSEs must be capitalized appropriately. 
Strong capital must be tied to sound underwriting practices to 
ensure that it is representative of the risk of these 
institutions.
    Credit risk transfers required by FHFA should be continued 
and expanded. The vital role played by the Federal Home Loan 
Banks, not to be confused with the roles of Fannie Mae and 
Freddie Mac, is working today and must not be impaired.
    Congress has an essential role in providing the certainty 
necessary to ensure long-term stability of the housing finance 
system. Without legislative reform, past abuses may be 
repeated.
    Some will argue that this can be accomplished by a 
regulation, and FHFA has done an admirable job in recent years 
ensuring the equitable treatment and addressing other past 
abuses. However, regulators and regulatory approaches can 
change over time. While a strong regulator must be part of the 
reform, so, too, must be clearer statutory guidance.
    Reform need not be radical or extreme, but targeted and 
surgical. Legislation need not create an entirely new secondary 
market structure. In fact, guided by these key principles, we 
believe that relatively tailored legislation that takes a 
surgical approach to making necessary alterations to the 
current system is both desirable and achievable.
    These legislative reforms are critical. Just as the Federal 
debt market provides the bellwether that makes all private debt 
markets more efficient and liquid, an explicit, fully priced, 
fully paid for Federal guarantee for a targeted portion of the 
mortgage market will be a catalyst for broader market growth 
and development. Congress should not defer action any longer. 
Nine years of conservatorship is more than enough.
    Thank you for the opportunity to share our views with the 
Committee. I am happy to answer any questions you might have.
    Chairman Crapo. Thank you, Ms. Hughes.
    Mr. Mislansky.

  STATEMENT OF TIM MISLANSKY, SENIOR VICE PRESIDENT AND CHIEF 
   LENDING OFFICER, WRIGHT-PATT CREDIT UNION, AND PRESIDENT, 
   MYCUMORTGAGE, LLC, ON BEHALF OF THE CREDIT UNION NATIONAL 
                          ASSOCIATION

    Mr. Mislansky. Good morning, Chairman Crapo, Ranking Member 
Brown, Members of the Committee. Thank you for the opportunity 
to testify today. My name is Tim Mislansky, and I am the chief 
lending officer for Wright-Patt Credit Union in Beavercreek, 
Ohio, as well as the president of our credit union service 
organization, myCUmortgage. I am also the Chair of the Credit 
Union National Association's Housing Subcommittee, on whose 
behalf I testify today.
    Wright-Patt Credit Union has approximately $3.6 billion in 
assets and proudly serves over 330,000 members. We operate 
primarily in Dayton and Columbus and have the unique 
perspective of serving the urban core and the suburbs of those 
cities, as well as the surrounding rural areas. Last year, we 
helped over 4,600 families with $600 million in first mortgages 
and an additional 1,300 families with second mortgages. Our 
CUSO, myCUmortgage, provides a variety of mortgage services to 
nearly 200 credit unions, which range in asset size from $6 
million up to $1 billion and are located across 25 States. Last 
year, we facilitated nearly 9,000 mortgages for $1.2 billion, 
making us one of the largest aggregators of credit union 
mortgage loans in the country.
    As member-owned, not-for-profit financial cooperatives, 
many credit unions offer mortgages, and we represent an 
increasingly significant source of mortgage credit nationally. 
In 2016, credit unions originated over $140 billion in first 
mortgages, or 8 percent of the total market. It is clear that 
consumers are choosing locally owned and operated credit unions 
more and more to be their mortgage lenders. And as Congress 
considers housing finance reform, it is critical that credit 
unions have equitable access to a functioning, well-regulated 
secondary market and a system that will accommodate member 
demand for long-term fixed-rate mortgage products. Credit 
unions have been largely portfolio lenders, but with 
historically low interest rates and growing market share, we 
have found it increasingly important to sell long-term fixed-
rate mortgages. Without a functioning secondary market, many 
credit unions would severely limit mortgage lending.
    Servicing loans is also very important to credit unions for 
a number of reasons. Again, as member-owned cooperatives, we 
are driven by a desire to provide high-quality member service, 
and many credit unions are reluctant to sell the core function 
of servicing to others. This is especially important so that 
credit unions have the ability to make modifications to loans 
to keep borrowers in homes when they experience financial 
difficulties.
    Because of the strength of this servicing relationship as 
well as the member-focused underwriting, the credit quality of 
credit union first mortgages held up remarkably well during the 
financial crisis, especially compared to that of other lenders, 
where net charge-off rates were as much as four times higher.
    As we have testified in the past, CUNA supports the 
creation of an efficient, effective, and fair secondary market. 
To that end, CUNA supports housing finance reform proposals 
that are consistent with the following principles:
    First, there must be a completely neutral third party 
independent of any mortgage-originating institution to ensure 
that no participant enjoys an unfair advantage and undue 
influence in the secondary market.
    Second, the secondary market must be open to lenders of all 
sizes on an equitable basis, with access and pricing 
independent of lender volume.
    Next, the entities providing secondary market services must 
be subject to appropriate regulatory and supervisory oversight.
    The new system must be durable to ensure mortgage loans 
will continue to be made to qualified borrowers even in 
troubled economic times. This will require some kind of 
explicit catastrophic Federal guarantee funded by appropriate 
fees with significant private capital in a first-loss position. 
Any new housing finance system should emphasize consumer 
education and counseling to ensure that borrowers are able to 
remain in their homes.
    The housing finance system must provide for predictable, 
affordable payments to qualified borrowers, including the 30-
year fixed-rate mortgage. And conforming loan limits should be 
reasonable and take into consideration local real estate prices 
in higher-cost areas.
    Credit unions should have the option to retain or sell the 
right to service their member mortgage loans, regardless of 
whether that loan is held in portfolio or sold in the secondary 
market.
    And, finally, the transition from the current system must 
be orderly to prevent significant disruption to the housing 
market which would harm homeowners, potential homebuyers, the 
credit unions who we serve, and the Nation's housing market as 
a whole.
    Thank you again for the opportunity to testify, and I look 
forward to your questions.
    Chairman Crapo. Thank you, Mr. Mislansky.
    Mr. Hopkins.

  STATEMENT OF JACK E. HOPKINS, PRESIDENT AND CHIEF EXECUTIVE 
OFFICER, CORTRUST BANK, N.A., MITCHELL, SOUTH DAKOTA, ON BEHALF 
        OF THE INDEPENDENT COMMUNITY BANKERS OF AMERICA

    Mr. Hopkins. Chairman Crapo, Ranking Member Brown, Members 
of the Committee, I am Jack Hopkins, president and CEO of 
CorTrust Bank, a $780 million asset bank in Mitchell, South 
Dakota. As a third-generation community banker, I am pleased to 
be here today on behalf of ICBA and nearly 5,000 community 
banks. ICBA strongly supports GSE reform, but it is critical to 
borrowers and the broader economy that the details of reform 
are done right.
    Community bank mortgage lending is vital to the strength 
and breadth of America's housing market. Community banks 
represent approximately 20 percent of the mortgage market, but, 
more importantly, our mortgage lending is often concentrated in 
rural areas and small towns, which are not effectively served 
by large banks. For many rural and small-town borrowers, a 
community bank loan is the only option for buying a home.
    CorTrust Bank was founded in 1930 and serves 19 communities 
in South Dakota and Minnesota, from Sioux Falls to rural 
communities. Today I would like to talk about my bank's 
mortgage lending and the importance of secondary market access.
    CorTrust Bank has about a $590 million portfolio consisting 
of approximately 5,500 loans. About two-thirds of our mortgages 
are held by Fannie Mae and a smaller number are held by Freddie 
Mac and by the South Dakota Housing Development Authority. The 
secondary market allows me to meet customer demand for fixed-
rate mortgages without retaining the interest rate risk these 
loans carry. As a small bank, it is not feasible for me to use 
derivatives to manage the interest rate risk. Selling into the 
secondary market frees up my balance sheet to serve customers 
who prefer adjustable rate mortgage loans, as well as small 
business and agricultural loans, which play a vital role in our 
community.
    ICBA's approach to GSE reform is simple: Use what is in 
place today and working well and focus reform on aspects of the 
current system that are not working or that put taxpayers at 
risk. ICBA has developed a comprehensive set of secondary 
market reform principles.
    First, the GSEs must be allowed to rebuild their capital 
buffers. Though Fannie Mae and Freddie Mac have returned to 
profitability, the quarterly sweep of their earnings to the 
Treasury has seriously depleted their capital buffers. Absent a 
change in policy, they are on track to fully exhaust their 
capita by year end. A draw from the Treasury could trigger a 
market disruption. This self-inflicted crisis can and must be 
avoided. While Congress debates reform, the FHFA should protect 
taxpayers from another bailout. ICBA urges FHFA to follow HERA 
and require both GSEs to develop and implement a capital 
restoration plan.
    Second, community banks must have equal and direct access. 
We must have the ability to sell loans individually for cash 
under the same terms and pricing available to larger lenders.
    Third, there can be no appropriation of customer data for 
cross-selling of financial products. We must be able to 
preserve our customer relationships after transferring loans.
    Fourth, originators must have the option to retain 
servicing rights at a reasonable cost. Servicing is a critical 
aspect of the relationship lending business model vital to 
community banks.
    Finally, an explicit Government guarantee on GSE-MBS is 
needed. For the market to remain deep and liquid, Government 
catastrophic loss protection must be explicit and paid for 
through GSE guarantee fees priced at market rates. This 
guarantee is needed to provide credit assurances to investors 
and will sustain robust liquidity even during periods of market 
stress. Without these principles, we could see further 
consolidation of the mortgage market.
    Any version of reform that effectively transfers the 
assets, infrastructure, or functions of the GSEs to a small 
number of mega firms could devastate the housing market in 
thousands of small communities and put our financial system at 
risk of another collapse.
    The current system works very well today for lenders of all 
sizes and charters. I urge lawmakers to use caution when 
evaluating major structural changes to the GSEs or their 
elimination. We must not disrupt this very liquid market.
    To conclude, ICBA supports housing finance reform so long 
as it is crafted to maintain access for small lenders, as 
stated in the title of this hearing, not merely on paper but in 
the real world.
    Thank you again for holding this hearing and for the 
opportunity to testify.
    Chairman Crapo. Thank you, Mr. Hopkins.
    Mr. Purvis.

   STATEMENT OF CHUCK PURVIS, PRESIDENT AND CHIEF EXECUTIVE 
OFFICER, COASTAL FEDERAL CREDIT UNION, RALEIGH, NORTH CAROLINA, 
  ON BEHALF OF THE NATIONAL ASSOCIATION OF FEDERALLY INSURED 
                         CREDIT UNIONS

    Mr. Purvis. Good morning, Chairman Crapo, Ranking Member 
Brown, my Senator from North Carolina, Senator Tillis, and 
Members of the Committee. My name is Chuck Purvis, and I am 
testifying today on behalf of NAFCU. I currently serve as the 
president and CEO of Coastal Federal Credit Union in Raleigh, 
North Carolina. I thank you for the opportunity to appear 
before you today to talk about the important issue of housing 
finance reform.
    At Coastal, we have been offering mortgage loans for 40 
years. Until 2008, Coastal held most of our mortgages in 
portfolio. As demand grew and long-term interest rates fell, we 
began to work with Fannie Mae to sell many of our loans into 
the secondary market. Without the GSEs, our capacity to lend in 
our communities would be outstripped by demand. Our ability to 
sell loans ensures liquidity, mitigates our long-term interest 
rate risk, reduces concentration risk, and keeps rates 
competitive. If not for access to the GSEs, our capacity to 
meet local demand would be greatly diminished. Consumers would 
suffer from higher rates and fees, more stringent credit 
requirements, and overall fewer options. A viable secondary 
market is vital to our success as a community lender.
    As a credit union CEO, every day I go to work focused on 
our members and how Coastal can help put more money in their 
pockets. For many, home ownership is what they aspire to, and 
Coastal is with them every step of the way.
    NAFCU welcomes the thoughtful and practical approach the 
Committee is taking on housing finance reform. We have been 
active in the housing reform debate and do not believe any 
proposals discussed in previous Congresses adequately protect 
the needs of community-based lenders.
    NAFCU believes there are certain housing finance reform 
principles that are important to credit unions and should be 
considered in any reform effort. I outline these in detail in 
my written testimony, and I would like to highlight a few of 
the key points here today.
    Of utmost importance, NAFCU believes that a healthy, 
sustainable, and viable secondary mortgage market for credit 
unions must be maintained. To achieve this, credit unions must 
have guaranteed access to the secondary mortgage market. We 
believe that efforts to fund any new system must be done in a 
way as to limit the cost to smaller lenders and not be a 
barrier to access.
    NAFCU wants to stress that it is critical that large 
institutions not be given control of the market. Their market 
dominance would have negative consequences for smaller lenders. 
Congress must ensure that does not happen in a reformed system.
    We believe that any new system must recognize the high 
quality of credit union loans with a fair pricing structure. 
Because credit unions originate a relatively low number of 
loans compared to others in the marketplace, we do not support 
a pricing structure based on loan volume, institution asset 
size, or any other issue that will disadvantage our member 
owners. As such, credit unions should have access to pricing 
that is focused on quality, not quantity.
    NAFCU believes that there should be a continued role for 
the U.S. Government to issue an explicit guarantee on the 
payment of principal and interest on mortgage-backed 
securities. The explicit guarantee will provide certainty to 
the market, especially for investors who will need to be 
enticed to invest in mortgage-backed securities and facilitate 
the flow of liquidity through the market. We do not think that 
the GSEs should be fully privatized at this time.
    A transition to a new system should also be as seamless as 
possible. Credit unions should have uninterrupted access to the 
GSEs or their successors and the secondary mortgage market as a 
whole, in particular through the cash window and small pool 
options.
    Our partnership with Fannie Mae is critical to Coastal's 
mortgage lending function. Our use of Fannie Mae's Desktop 
Underwriter on all mortgage loans that we originate ensures 
conformity and consistency across our portfolio, whether we 
sell the loan or not. Access to such technology must be 
preserved in any reforms.
    Finally, any new housing finance system must ensure credit 
unions can retain servicing rights to loans they make to their 
members. Our members turn to us for lower rates and fees and 
because they want to work with an organization they trust and 
know will provide them with high-quality service. At Coastal, 
we retain servicing rights on all of our loans. This was 
especially beneficial during the financial crisis as it allowed 
us to work with members on their loan to keep them in their 
home.
    In conclusion, credit unions exist to provide provident 
credit to their members. It is vital that credit unions 
continue to have legislatively guaranteed access to the 
secondary market and fair pricing based on the quality of their 
loans.
    Thank you for the opportunity to provide our input on this 
important issue, and I welcome any questions that you may have.
    Chairman Crapo. Thank you, Mr. Purvis.
    Mr. Hunt.

 STATEMENT OF WES HUNT, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
HOMESTAR FINANCIAL CORPORATION, GAINESVILLE, GEORGIA, ON BEHALF 
          OF THE COMMUNITY MORTGAGE LENDERS OF AMERICA

    Mr. Hunt. I want to first thank Chairman Crapo, Ranking 
Member Brown, and the Committee for the opportunity to testify, 
and a special thank you to my Senator, Senator Perdue of 
Georgia. I am the owner of Homestar Financial. We are 
headquartered in Gainesville, Georgia, and have been in 
business since 2002. We are the State's largest originator of 
FHA purchase and rural housing loans, a major provider of VA 
loans for our veterans and active servicemembers, and a Ginnie 
Mae issuer. We also sell directly to Fannie and Freddie. We 
survived the downturn by originating well-documented loans and 
underwriting them carefully.
    I am here for CMLA, which represents both community banks 
and mortgage bankers, like my own company. CMLA was formed to 
give small lenders a voice in a trade group that does not 
include large banks.
    CMLA is also part of the Main Street GSE Coalition, a 
policy group made up of small mortgage lenders, home builders, 
civil rights groups, and consumer groups. The coalition 
recently issued a set of Common Principles for GSE reform.
    Addressing the topic today, we know why the GSEs went into 
conservatorship. The HERA legislation in 2008 cured many of the 
prior GSE defects, and the Qualified Mortgage Rule addressed 
risk from lax standards and recklessly designed products. I 
address these issues in more detail in my written testimony.
    What remains to be done is to make the level guarantee fee 
permanent, as it expires in 2021, and apply this same principle 
to up-front risk sharing. We need a permanent Federal backstop 
on Fannie and Freddie, and the regulator must set strong 
capital. When Fannie and Freddie reach these capital standards, 
they should be released from conservatorship. But a fix must 
match the problem needing repair and not create new ones.
    Small lenders fear that a large, untested, complex housing 
finance reform plan will do two things that will be a detriment 
to the housing market:
    Number one, create marketplace uncertainty that raises cost 
for homebuyers, small lenders, and constricts mortgage lending;
    Number two, wittingly or unwittingly gives greater market 
pricing power to Wall Street and large banks at the expense of 
those of us on Main Street.
    GSEs should be regulated closely, as they are now, but 
capitalized properly, as they currently are not. We agree with 
the prudential regulator that capital is needed now, and we all 
have a common interest in ensuring that the housing and banking 
bailouts of 2008 do not occur again.
    Part of the past problem with the recklessly designed 
products--excuse me. Part of the past problem with the GSEs was 
too little capital. Today they have even less than what they 
had in 2008. This makes no sense on Main Street.
    Well-capitalized GSEs will be able to balance underwriting 
standards and mortgage risk and fulfill affordable housing 
obligations. Well-capitalized GSEs that treat all lenders 
equally in terms of fees and up-front risk sharing will avoid 
concentrations of risk and ensure a flow of affordable mortgage 
money to the families we serve in the Southeast and my fellow 
CMLA members serve throughout the country.
    Economic growth remains slow in the U.S., and housing and 
housing construction has certainly underperformed. We need to 
move forward, especially as the largest ever population group, 
the echo boomers, are now of age to purchase their own homes. 
In the history of the country, we have never seen a giant new 
generation like this. Home ownership is already at a half-
century low. For a supply of affordable mortgage money for this 
generation, we need a safe secondary market independent from 
the reach of the biggest banks.
    I am also a member of the MBA, a great organization, but on 
this crucial topic of GSE reform, I am aligned with CMLA and 
other members of this panel. Main Street lenders did not cause 
the downturn. We are committed to the continued origination of 
quality loans while diligently working to help individuals and 
families realize the dream of home ownership. Please consider 
the steps I have outlined in my testimony to make this 
possible.
    Thank you.
    Chairman Crapo. Thank you, Mr. Hunt.
    Mr. Giambrone.

 STATEMENT OF WILLIAM GIAMBRONE, PRESIDENT AND CHIEF EXECUTIVE 
OFFICER, PLATINUM HOME MORTGAGE, ROLLING MEADOWS, ILLINOIS, AND 
         PRESIDENT, COMMUNITY HOME LENDERS ASSOCIATION

    Mr. Giambrone. Chairman Crapo, Ranking Member Brown, and 
Members of the Committee, it is a privilege and honor to 
testify before you today. I am Bill Giambrone, president of 
Platinum Home Mortgage Corporation, based in Rolling Meadows, 
Illinois. I appear before you today as President of the 
Community Home Lenders Association (CHLA). CHLA is a group of 
small and mid-sized independent mortgage bankers, also known as 
``IMBs'', committed to advocating for affordable, accessible 
single-family mortgages for families in communities where we 
lend. None of our members are taxpayer-backed depository 
institutions.
    I am here to explain from our perspective why it is 
important for the Committee to design a GSE reform bill in ways 
that ensure full and equitable small lender access to the 
secondary market.
    Since the 2008 housing crisis, we have seen large banks 
significantly retreat from mortgage lending. We have provided 
data in my testimony to show that IMBs have filled the access 
to the mortgage credit void that banks left.
    While consumers complained about lack of responsiveness 
from mega servicers, IMBs provided personalized service to 
distressed borrowers in our local communities. So what should 
we do next?
    CHLA worked with affordable housing and other small lender 
groups to develop the GSE reform principles as part of the Main 
Street GSE Coalition. We appreciate that you entered that 
document in the record at the last hearing.
    My written testimony also includes CHLA's detailed GSE 
reform plan, a plan that identifies significant taxpayer 
reforms that have already taken place, and encourages FHFA to 
continue them. In addition, FHFA should take two important 
steps which we encourage Congress to support.
    First, FHFA should allow Fannie and Freddie to retain a 
modest capital buffer. We believe $10 billion each is the 
appropriate level. This would address what FHFA Director Watt 
called their ``greatest risk,'' their lack of capital.
    Second, FHFA should develop and release a capital 
restoration plan detailing how Fannie and Freddie could best 
recapitalize and exit conservatorship. Congress would only 
benefit from having such a plan or road map.
    The CHLA plan also includes details on how congressional 
GSE reform should be done. The overriding objective is to 
ensure broad access to mortgage credit for all qualified 
borrowers nationwide while protecting taxpayers. We know that 
the well-qualified mortgage borrowers in large urban areas will 
be served. The question is whether families living in rural or 
other less populated areas will have real access to mortgage 
credit and whether low- to moderate-income borrowers will be 
served. Small lender access is critical to achieving this goal.
    My testimony lists four recommendations for preserving 
small lender access to the secondary market:
    First, preservation and recapitalization of Fannie and 
Freddie using a utility model. This is necessary so the GSEs 
can continue their role of facilitating a secondary market for 
small lenders.
    Second, no new charters should be authorized to carry out 
functions that Fannie Mae and Freddie Mac presently carry out. 
The likely impact of authorizing new charters would be to grow 
the Government, increase risk of taxpayer bailout by creating 
more new ``too big to fail'' entities, increased regulatory 
risk because regulators may not be able to keep up with the 
complexities of the numerous competing entities, and 
undermining the utility model concept.
    FDIC Vice Chairman Thomas Hoenig recently noted that the 
four largest banks have grown from 14 percent of total industry 
assets in 1992 to 42 percent today, and that they ``dominate 
the industry and increasingly dominate our economy.'' We do not 
want this to happen to the mortgage industry. We believe it 
will happen if charters are granted to big banks or other ``too 
big to fail'' entities like investment banks or insurance 
companies.
    Opening the door to new charters also raises longstanding 
concerns about vertical integration. There is no way to ensure 
that new charters will not be influenced or controlled by the 
``too big to fail'' institutions, even with only a small 
ownership interest in the new entity.
    Third, all risk sharing should be done as back-end risk 
sharing. Up-front risk sharing could create significant risks 
for small lender access and could result in practices such as 
volume discounts or vertically integrated investment banks 
dealing exclusively with their bank lending affiliate. The 
objectives of risk sharing can be fully accomplished by 
exclusively doing it by back-end risk sharing.
    Finally, pricing, underwriting, and variance parity. 
Previous legislative language had language requiring GSE 
parity. We agree with this. We also believe equitable treatment 
for small lenders should extend to other areas, such as 
underwriting variances, reps and warrants, and any proxy for 
price advantages.
    I appreciate the opportunity to speak before you today, and 
I look forward to questions. Thank you.
    Chairman Crapo. Thank you, Mr. Giambrone.
    I will begin the questioning. As I mentioned in my opening 
statement, there are a number of principles of housing finance 
reform that I believe share bipartisan support, and I would 
like to just go through--there are about five or six I want to 
read through here. These are general principles, and I expect 
that there is broad agreement on them. So what I am going to do 
is just read these principles and ask you if there are any of 
you who have any concern or would want to make any 
clarifications about the principles that I read. And if not, 
that is fine. I have got other questions I want to go on to.
    The first principle is we need to preserve the 30-year 
fixed-rate mortgage and the TBA market.
    Second, we need multiple levels of taxpayer protections, 
including strong, robust, loss-absorbing private capital at any 
guarantors that sit in front of the Government guarantee.
    Third, private capital rather than taxpayers should bear 
noncatastrophic credit risk.
    Fourth, we must have an orderly transition that utilizes 
existing market structure, where possible, and minimizes market 
disruptions.
    Fifth, the current conservatorships are unsustainable, and 
Congress must find a long-term solution.
    And then, finally, we need a level playing field to ensure 
that small lenders can access the secondary market equitably.
    I realize those are broad statements, but is there anybody 
who wants to issue some clarification on those? Are those 
principles acceptable to each of you? All right. I am taking 
that as a yes.
    Mr. Purvis. Yes.
    Chairman Crapo. All right. Thank you.
    Mr. Mislansky. Senator?
    Chairman Crapo. Yes, Mr. Mislansky.
    Mr. Mislansky. I believe you may have said--and so I would 
ask you if you would clarify that--the private capital should 
take the catastrophic losses. Is that accurate? I think it was 
third principle you were at.
    Chairman Crapo. Yes, it should bear the noncatastrophic 
credit risk.
    Mr. Mislansky. The noncatastrophic. Thank you. So I would 
agree with that.
    Chairman Crapo. All right. Then let me go directly to you, 
Ms. Hughes. In your opening testimony, you stated that you 
reject the approach of recapitalizing the GSEs and releasing 
them back into the private market with limited changes. Can you 
explain a little more about that and why you feel it is 
critical that Congress pass GSE reform?
    Ms. Hughes. In the current such with them under Government 
conservatorship, they have--we have essentially stymied 
innovation and lending. Community banks, we rely upon the 
secondary market. We rely upon that path to serve our customer 
base and deliver those loans to the market. And under the 
current structure, neither of the GSEs--speaking of Freddie and 
Fannie--are operating in a path to grow and improve the 
mortgage market base. And so bringing them back to a position 
where they can continue to operate and function as a partner in 
the industry would be vital.
    Chairman Crapo. All right. Thank you very much.
    And, Mr. Mislansky, you mentioned in your opening testimony 
that your credit union makes mortgage loans to consumers and 
also owns a firm that serves as an aggregator of mortgage 
loans. Can you describe those two channels of accessing the 
secondary market for small institutions? And then what are some 
of the factors that a lender considers in deciding how to 
access the secondary market?
    Mr. Mislansky. Certainly. So the credit union has what I 
would refer to as a typical retail production. We have loan 
officers on staff who meet with members, take their 
applications, help them through the process, educate them, and 
ultimately help them get to the closing table so that they can 
become a homeowner or save money with a refinance.
    The subsidiary that the credit union owns, myCUmortgage, we 
refer to it as an ``aggregator,'' and what we do is we provide 
back-office services to credit unions. I mentioned, for 
example, in my written testimony that we have one $30 million 
institution that is a customer or credit union client of ours, 
TopMark Federal Credit Union, which is in Lima, Ohio. Again, 
they are a $30 million institution, so certainly by any 
standards they would be considered small. They originate $15 to 
$16 million most years in mortgages. That is a lot of 
originations for an institution that small. And what we do with 
them is, again, we help them process and we help them 
underwrite, help them close, and then we buy their production. 
They do not have the capacity to sell those loans direct--or to 
hold those loans on their balance sheet or to even maybe go 
direct to Fannie Mae or to Freddie Mac.
    So while they need small lender access to the secondary 
market, they have chosen the manner of going through an 
aggregator such as us and leveraging the expertise that we 
bring to the table to help them be able to achieve the same 
concept of going direct to a Fannie Mae or a Freddie Mac.
    Chairman Crapo. All right. Thank you.
    Senator Brown.
    Senator Brown. Interesting, thank you. I was not aware of 
that.
    I will start with Mr. Mislansky, and then I have a question 
for everybody. With Wright-Patt's footprint across several 
types of communities, help us understand how access to the 
secondary market helps you serve communities or borrowers that 
are typically ignored by the larger national lenders.
    Mr. Mislansky. So there are multiple ways that occurs. One 
of the ones that I believe is unique to us in our market, we 
serve the core of Dayton. We have several branches, what we 
call ``member centers,'' in inner-city Dayton or in the near-
inner city. And in those communities, the home values are 
relatively low. You can buy a home in certain markets in Dayton 
for $40,000 or $50,000. That might be surprising to those 
people in the District where, you know, you would need half a 
million dollars to buy a home, or upwards. But we make loans 
without any loan limits on the downside, and what I mean by 
that is we do not have a minimum loan amount. So if you are a 
member of our credit union and you want to buy a $40,000 home, 
we will still make a loan to you, where many lenders will have 
larger limits--or minimums in place, and they use those 
minimums--those minimums prevent urban areas from in some ways 
revitalizing.
    So what the secondary market----
    Senator Brown. And I assume rural areas in, say, northern 
Miami County or places that the homes are not quite as 
inexpensive as inside of Dayton----
    Mr. Mislansky. Correct.
    Senator Brown. ----but pretty inexpensive by national 
standards.
    Mr. Mislansky. By national standards, yes. Those rural 
homes, $60,000, $70,000, $80,000 homes. And what we do to help 
manage the credit risk, to help manage the interest rate risk, 
and to help manage the liquidity risk is we sell those loans in 
the secondary market to either Fannie Mae or we are also a 
Ginnie Mae issuer.
    Senator Brown. OK. Helpful. Thank you.
    Let me ask a question of--I will put two questions out 
that, Ms. Hughes, if you would start and just go down the line. 
GSEs in the past used volume discounts to attract business from 
lenders such as Countrywide and Wells Fargo, with large 
origination volumes, as you know. The two questions are this, 
and I will just work down the group. Is equitable pricing for 
small lenders an essential part of the system? And does 
inequitable pricing impact mortgage access for your customers?
    Ms. Hughes. Yes to both. In the past, it was a competitive 
disadvantage for us to have pricing against the larger 
institutions. You had more favorable pricing than we could 
obtain. And equitable pricing across the board is vital to 
continued success.
    Senator Brown. OK. Thank you.
    Mr. Mislansky.
    Mr. Mislansky. Senator, again, I would agree that the 
answer is yes to both. And while the competitive issues are 
certainly there, I think the other issues to take into account 
are when volume pricing is provided to, whether it is a lender 
or to any type of entity, what you are trying to do is to 
gather more volume, and if the entity can earn more revenue 
because they are sending in more volume, does that create an 
opportunity for unintended consequences such as you take short 
cuts on making the loans? And maybe the credit quality is not 
as strong, or maybe the underwriting is not as strong. And I 
think that is some of what we saw during the financial crisis 
when lenders that no longer exist today, such as a Countrywide 
or a Washington Mutual were receiving volume discounts, but the 
quality of their paper was not there.
    Senator Brown. Thank you.
    Mr. Hopkins.
    Mr. Hopkins. It definitely put us at a competitive 
disadvantage, but I think many times we found that the rates 
were fairly similar, so it was really just a transfer of 
profits to the large institutions from the GSEs. And so I felt 
that they were pocketing the money at the expensive of the 
borrowers.
    Senator Brown. OK. Thank you. Good comments.
    Mr. Purvis.
    Mr. Purvis. We think it is important for the mortgage 
market in the U.S. to have local community-based lenders, 
regardless of whether it is a credit union, a community bank, a 
community lender or otherwise. And the only way that will 
happen is if the pricing is equitable irrespective of size and 
production volumes of the sellers.
    Senator Brown. OK. Mr. Hunt.
    Mr. Hunt. We certainly believe that pricing equality is 
important and must be maintained, and it certainly would be a 
barrier to entry even for a new lender if they come in with a 
disadvantage to pricing. It is going to be even more difficult 
for them to grow their business. So when you put an advantage 
out there to a larger lender who already has a foothold in a 
marketplace and you have a new competitor or new lender coming 
in, an emerging lender that is growing, such as an independent 
banker, as my company is, you put that new company at a further 
disadvantage so you are going to further disadvantage the 
consumers. There is going to be less access because you are not 
going to have new lenders coming into the marketplaces easily.
    Senator Brown. Thank you.
    Mr. Giambrone.
    Mr. Giambrone. The short answer would be yes to both. I 
would expand upon it saying that many times they do pass it on 
in terms of a competitive disadvantage and other times they do 
pocket the difference. I think the big difference comes from 
the consumer wanting us many times to retain the loan, and if 
we are at a price disadvantage, we are unable to do that.
    For example, last year, when a large entity had some issues 
with cross-selling, we had many of our customers ask us not to 
sell their loans to aggregators. And if the pricing is 
disadvantaged, we would not have that opportunity. So those 
folks would be forced into that scenario. So that was a big 
variable.
    And the other one, just to add to it, would be this is also 
what I mentioned in my testimony, risk sharing, that is another 
way that it could be--if it is up-front risk sharing, not back-
end, it could be manipulated in the form of price advantages up 
front.
    Senator Brown. Thank you.
    Chairman Crapo. Thank you.
    Senator Tillis.
    Senator Tillis. Thank you, Mr. Chair. Welcome to everybody. 
A special welcome to a constituent and hopefully a voter.
    [Laughter.]
    Senator Tillis. Down in North Carolina.
    Mr. Purvis, I want to welcome you. I want to ask you a 
question. I thank you for your time this morning. I want to 
talk specifically about what things this body should consider 
with respect to affordable housing in the context of GSE 
reform. And in the time allowed, I would like for you to talk a 
little bit about what we discussed with the work that you are 
doing with Habitat for Humanity over in the Raleigh area.
    Mr. Purvis. Sure. Thank you. We need to try to expand 
housing and home ownership opportunities to as broad a sector 
of the population as we can, and we certainly agree with that 
goal.
    A couple of things we are doing in our market, we have had 
a 100-percent first-time homebuyer program since the late 
1990s, and that has been very successful, delinquencies and 
losses very low. We work very closely in providing home 
financial education at the front end of the process. And so 
today we find new individuals and couples who are struggling to 
save money for a downpayment because of student loan debt, and 
so we are able to meet their desire for home ownership through 
that program.
    Then on the low-income front, we established a partnership 
with Habitat Wade County about 18 months ago to provide $6 
million in 2-percent mortgages which does two things: it will 
lead to the construction of 60 affordable homes, and then put 
60 low-income families into those homes. So we are trying to do 
what we can in the local community to expand access to both 
home ownership and affordable mortgages to the low-income 
community.
    Senator Tillis. What do we need to be--and this would be to 
anybody who would like to add to it. What should we be 
particularly sensitive to that would, within the context of the 
reform discussions we are having, that would either be 
particularly helpful or harmful to some of the things you are 
already doing?
    Mr. Purvis. I will answer that. The operational 
relationship between us and Fannie Mae to the securities market 
works very well today. It has taken decades to build. It is 
very efficient. Let us make sure that we do not break that or 
lose that in our efforts to reform the system. Otherwise, it 
will be disruptive to the market.
    Senator Tillis. Yes, sir?
    Mr. Mislansky. Senator, I think the other thing that is 
sometimes missed with the discussion about Fannie and Freddie 
is the standardization that the GSEs brought to the mortgage 
market, the uniform residential loan application. All of us as 
lenders use that same application. All of us either use Desktop 
Underwriter, as Mr. Purvis mentioned, or Freddie Mac's 
competing product. There are standardizations about the 
documents that are needed to close a loan--to record a loan and 
to close a loan. All of those aspects are important to creating 
a commodity product in the United States that goes into 
mortgage-backed securities.
    And so as changes are considered with the secondary market, 
I think it is important that the standardization and the assets 
that--the people side and the technology side that Fannie and 
Freddie have built are considered and how to be maintained.
    Senator Tillis. Just one question in my time remaining, and 
I have got a lot that we will probably submit for the record so 
that we can get more feedback. But I would like the market-
based rationale for an explicit Government guarantee. I think 
there was at least in one of your testimonies you think that 
that is very important. So for those who may differ, give me 
the market-based rationale for that explicit Government 
guarantee.
    Mr. Hopkins. The market-based guarantee, the explicit 
guarantee is obviously going to help keep the rates low for the 
homeowner on a going-forward basis because----
    Senator Tillis. The Government guarantee.
    Mr. Hopkins. The Government guarantee standing behind the 
MBS securities, because without that guarantee the rates would 
be higher to the consumers. You know, we are talking about 
being the final line of defense as really that catastrophic 
type of insurance in the guarantee from the Government.
    Senator Tillis. So the overall return is the rationale--or 
the overall return and market activity is the rationale for the 
Government guarantee.
    Mr. Hopkins. Keeping it affordable, I think it is part of 
the affordability that you are looking for, for particularly 
first-time buyers to get into the market.
    Senator Tillis. OK. Thank you.
    Mr. Chair, I yield back my 12 seconds.
    Chairman Crapo. Thank you, Senator Tillis.
    Senator Menendez.
    Senator Menendez. Well, thank you, Mr. Chairman. I am 
running between hearings here. Thank you all for your 
testimony. I am pleased to see the Committee highlighting the 
importance of access for small lenders, and I think you all 
represent community-oriented institutions working to increase 
affordable options for homeowners and borrowers in cities 
around the country.
    In reading each of your statements, a common theme emerges 
in favor of targeted precise reforms over wholesale 
restructuring of the system. I think that is a fair statement 
to make. And one important benefit of the current system is 
that it allows community banks and lenders to sell their loans 
to the GSEs through the cash window but retain the servicing 
rights to the loans, and in doing so preserve the relationship 
with the borrower.
    So why is it important for borrowers that lenders have the 
ability to retain their servicing rights? And I hope that up to 
anyone who wants to speak to it.
    Mr. Giambrone. Senator Menendez, a great question, and I 
think in my testimony, what I had mentioned earlier, many times 
the customers want the local lender. It is a matter of service, 
right? If they see us in the store or at the ball field and 
there is a little bit of a difference if we are unable to. So, 
for example, when there was big pricing disparity, most of our 
loans would be sold released, and at this point we are able to 
retain more because the pricing differential is not as wide as 
it was. So a big factor is simply just the consumers like it 
when it is a local lender servicing their loan.
    Senator Menendez. Anyone else? Mr. Hopkins.
    Mr. Hopkins. Senator, from my perspective, we do servicing 
of mortgage loans, and it allows us to keep our customers from 
being cross-marketed by some of the larger firms. If we were to 
sell to some of the other firms, we might have had accounts 
opening that they were not aware of, et cetera. And we look at 
it--they can walk into any one of our branches and ask any one 
of our people a question, and they can pull it up in front of 
them. We have the local service in all of our local branches. 
So rather than calling a 1-800 number--I call it ``1-800-who-
cares''--we are there for them. We are there at the individual 
branches.
    Senator Menendez. Thank you.
    Mr. Purvis.
    Mr. Purvis. Most of our mortgage borrowers have a lot of 
other account relationships with us. They have their checking 
account here. They have a savings account. They have an IRA. 
They have a car loan. They have a credit card. And so they can 
contact us with servicing issues, questions across the entire 
relationship with us. It would be very difficult to have to 
say, ``I am sorry. I cannot answer your servicing question on 
your mortgage because someone else is servicing it.'' So for 
us, it is about being responsible for the entire relationship 
we have with that member.
    Senator Menendez. Those are fine answers.
    Let me ask you, and maybe just one or two of you could 
answer in the time I have, what challenges would your 
institutions face in assisting borrowers that fall behind on 
their mortgage, for example, if various new guarantors or 
entities establish disparate loan servicing standards. Mr. 
Hopkins.
    Mr. Hopkins. We do servicing for, as I said, Fannie and 
Freddie and our South Dakota Housing Development Authority, and 
they do have different requirements for what we can and cannot 
do with the borrowers. For instance, South Dakota Housing is a 
little more restrictive than Fannie Mae is with their programs 
and being able to work with them. So just creating the 
complexity of a lot of different servicers, it gets to be 
difficult for our staff to keep ahead of it.
    Senator Menendez. Let me ask a question of all of you, and 
if you can give me a simple yes or no answer, I would 
appreciate it. Would you agree that--and I want to follow up on 
the Ranking Member's questions. Would you agree that 
competitive pricing for loan sales with a securities option is 
necessary for small lenders to continue accessing the system? 
Yes or no.
    Ms. Hughes. Yes.
    Mr. Mislansky. Yes.
    Mr. Hopkins. Yes.
    Mr. Purvis. Yes.
    Mr. Hunt. Yes.
    Mr. Giambrone. Yes.
    Senator Menendez. That is good. We do not get that type of 
unanimity around here.
    [Laughter.]
    Senator Menendez. Would you agree that, in order to 
facilitate this competitive pricing, we need a guarantor or 
entity that can pool costs across the market and that has a 
duty to serve all lenders? Yes or not.
    Ms. Hughes. Yes.
    Mr. Mislansky. Yes.
    Mr. Hopkins. Yes.
    Mr. Purvis. Yes.
    Mr. Hunt. Yes.
    Mr. Giambrone. Yes, but not more than two.
    Senator Menendez. Would you be concerned about the 
workability and accessibility of a system in which so much of 
the credit risk has been transferred on the front end that 
there is inadequate revenue remaining to pool costs and serve a 
wide range of lenders? Yes or no.
    Ms. Hughes. Yes.
    Mr. Mislansky. Yes.
    Mr. Hopkins. Yes.
    Mr. Purvis. Yes.
    Mr. Hunt. Yes.
    Mr. Giambrone. Yes.
    Senator Menendez. I am going stop at three for three, so 
thank you, Mr. Chairman.
    [Laughter.]
    Chairman Crapo. You were on a roll.
    Senator Scott.
    Senator Scott. Thank you, Mr. Chairman. Thank you to the 
panel for being here this morning and answering a lot of 
questions.
    From my perspective, home ownership is such a big part of 
the American dream, and when you think through the net worth of 
the average American, what we come to conclude is that your 
equity in your home accounts for a significant portion of your 
net worth. That means that those folks who have been trapped 
out of home ownership have a significantly smaller net worth, 
minority communities to speak specifically. And in many ways, 
volume discounts by the GSEs could work against access to home 
ownership, particularly when so many small banks and credit 
unions spend a lot of time investing in their members, to 
understand and appreciate the unique lives of those members. It 
is an intimate relationship. I served on a credit union board 
for about 7 years, and so I have great affinity for our credit 
unions.
    My question is: How do credit unions and community banks 
get squeezed out under volume discounts? For the panel.
    Ms. Hughes. Again, it comes back to a pricing disadvantage, 
and if you have those larger pricing, the larger institutions 
can either undercut you, they can make more profits, it gives 
them the opportunity to go out and do more targeted marketing. 
And the inability for us to compete in that space makes us a 
little uncompetitive.
    Senator Scott. Thank you.
    Anybody else?
    Mr. Mislansky. Senator, I might try to answer the question 
a slightly different way, not in terms of price advantage and 
what the GSEs would allow in terms of they pay more to one 
lender than another, but there was a practice that used to be 
in existence where variances were given under the master 
service contracts. And what that would mean is that Fannie or 
Freddie would have their standard set of rules by which they 
would buy a loan. But they may negotiate a special variance 
with another lender to either do something or not do something.
    So in my market, one of the lenders had negotiated a 
variance where they did not require title insurance on loans 
that were sold to Freddie Mac, I believe it was. And so what 
happened is that that lender was able to have a substantial 
price advantage in the marketplace by--if a member compared a 
Wright-Patt loan versus this institution, they saved quite a 
bit of money. And title insurance, granted, does protect the 
lender. It created that sort of advantage.
    So it is not just how much they will pay for the loan. I 
think it also includes the rules that you can sell loans by.
    Senator Scott. Anybody else?
    [No response.]
    Senator Scott. On the flip side, I am focused on 
encouraging sustainable home ownership over simple 
homebuyership. One way to do so is the FHFA updating the 
accepted credit scoring models at the GSEs. If a family pays 
their utility bills or their phone bills on time for a decade, 
it ought to count toward their ability to have a home. I will 
go to Mr. Purvis. Why is it important that the model be 
updated? And who benefits from the capture of this new data?
    Mr. Purvis. So the FICO models used by Fannie and Freddie 
are decades old. They have certainly been updated over time, 
but they are still based on essentially a loan repayment 
history and then an ``I gotcha'' because you had a delinquency 
or collections item or so forth.
    There are new data sources that capture payment history on 
cell phone bills, utilities, rent, et cetera, that are not 
being used in the determination of creditworthiness by the 
GSEs, and we think it is very important for them to begin 
updating their credit models to take advantage of those other 
sources, which we think will widen the net of folks who become 
eligible for conforming mortgages through the GSEs.
    Senator Scott. Thank you, sir.
    Mr. Hopkins. We do use some of the other scoring models for 
our credit card part of our program, and they do work well. 
However, I would say that if we are going to on the mortgage 
side, we do need some time to make sure we can validate the 
data.
    Senator Scott. Absolutely.
    Mr. Hopkins. Because that will be key to making it work 
properly.
    Ms. Hughes. Mr. Scott, we actually manually underwrite 
loans, consistently deliver these loans to the market. So for 
those borrowers that have alternative credit sources, we 
already do that. That path already exists. Adding more credit 
scoring models to the market would require some data 
validation, so some time periods it adds cost. It adds cost to 
the borrowers. And if you have lenders who already have that 
ability, we can already deliver those loans to Freddie Mac and 
Fannie Mae. We can deliver them and insure them under FHA/VA. 
The path already exists.
    The issue comes into play that pricing is usually different 
if you have a manual underwrite. So if the pricing were 
equitable, the systems are already in place. The systems that 
are in place work for the lenders who are willing to do the 
work for the borrowers.
    Senator Scott. Thank you very much. Ranking Member.
    Senator Brown [presiding]. Senator Warren.
    Senator Warren. Thank you, Mr. Chairman. I want to thank 
you all for being here.
    We cannot have a thriving mortgage market if small lenders 
do not have access and the big guys do. You know, it would 
produce a competitive imbalance that will drive smaller guys 
out of the market, and it was one of my primary concerns the 
last time we were considering housing finance reform. So I am 
very glad we are on this topic now. I think it is critically 
important.
    But even if we agree that small lenders and big lenders 
should have equal access to the secondary market, it leaves an 
important question, and that is, what do we have to do to 
provide that equal access to the secondary market? And, Ms. 
Hughes, you addressed some of this in your written testimony, 
so I want to follow up on this.
    As Senator Brown and Senator Scott both noted, one of the 
major issues about access for smaller lenders is volume 
discounts when the GSEs would give bigger lenders a better 
price on a bunch of loans than a small lender would get for a 
single loan. So how would you propose that Congress fix that 
problem, Ms. Hughes?
    Ms. Hughes. Well, I think by simply removing the volume 
discounts. In addition to paying up for bigger--you know, 
bigger blocs of loans with larger institutions, historically 
they would also pay up for low- to moderate-income loans.
    Senator Warren. So, basically, you are just saying let us 
bar any secondary market entities from offering a volume 
discount.
    Ms. Hughes. From offering volume discounts, yes.
    Senator Warren. And that would help level the playing 
field.
    Ms. Hughes. Yes, correct.
    Senator Warren. Now, another issue that you all have raised 
is one, as I read it, of customer service, and you write that 
it is not just pricing but that GSEs--other policies were 
geared toward higher-volume lenders, and the GSEs showed little 
interest in working with smaller, low-volume banks. So how 
would you propose to solve that problem?
    Ms. Hughes. I also think that the GSEs need to give all 
partners in the industry the same level of service.
    Senator Warren. Yeah, but you want changes in the law. So I 
take it what you are saying is you want Congress to mandate 
that any secondary market entity treat all lenders equally.
    Ms. Hughes. Correct.
    Senator Warren. OK, good. And then a final issue is whether 
larger lenders can operate in both primary and secondary 
markets, that is, whether or not they can both originate 
mortgages and be involved in purchasing and securitizing 
mortgages. And I think, Mr. Giambrone, your organization has 
raised concerns about this issue. So how would you propose that 
Congress address it?
    Mr. Giambrone. Well, that is a great question, and I think 
in my testimony I explained that the main way to address it is 
to leave the entities the way they are today, make it a utility 
model, and I think there is a consensus on a utility model, 
where it is regulated what they are allowed to charge that is 
equal for all.
    Senator Warren. But I take it on the vertical integration 
point what you are really saying is that Congress should 
prohibit any vertical integration, that is, you have got to be 
in one space or the other but you do not get to be in both 
spaces in terms of origination.
    Mr. Giambrone. Correct. That is what we are saying, and I 
think the proposals that are on the fringe--I guess it is 
opening Pandora's Box, so to speak, if they can own a little 
percentage, but not a lot.
    Senator Warren. OK.
    Mr. Giambrone. And then you have a control issue, and it 
may not look like vertical integration but, in fact, it is.
    Senator Warren. But I get your point, and that is, your 
ideal would be just prohibit people from--or entities from 
operating in the primary and secondary market simultaneously.
    Mr. Giambrone. Correct.
    Senator Warren. Good. So I want to thank you all for your 
testimony. I support ensuring equal access to the secondary 
market for small lenders, and I think it is critical that we 
get the details right on what it is going to take to make that 
happen.
    But I also want to highlight that ensuring equal access for 
smaller lenders involves Government intervention on pricing, on 
customer service, and on the types of entities that can compete 
in the marketplace. And many of my Republican colleagues 
support equal access for smaller lenders, and they seem 
perfectly happy to sign off on Government intervention to help 
small lenders. But then they turn around and oppose any form of 
Government intervention to help lower-income or minority 
borrowers. And I do not think you can have it both ways.
    We need thoughtful Government intervention to make sure 
that the mortgage market works for both small lenders and for 
creditworthy low-income borrowers. So I want to see us working 
in both spaces at the same time. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Crapo [presiding]. Thank you, Senator Warren.
    Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman. I think a lot of 
discussion, and good discussion, and actually good consensus 
around this lane. But it is like everything else in Washington. 
We can sit here and yes, yes, yes, yes, yes, yes, yes, yes, 
yes, and then nothing happens. So we need to remain committed 
to actually taking that consensus and figuring out how we can 
build legislation and how we can bring certainty to small 
lenders.
    And as you can imagine, North Dakota is a place where small 
lenders have thrived for many, many years, and, unfortunately, 
for many of my small community banks, they are basically priced 
out of the mortgage market by excess compliance costs, which is 
another whole issue beyond access to the secondary market.
    So we are going to continue to have these conversations, 
but I want to--I do not want to recover--I do not want to plow 
over the same area--we say that in North Dakota, ``plow''--plow 
over the same area that has been already tilled, but I do want 
to talk a little bit about duty to serve. In today's market, 
many lenders are facing challenges extending mortgage credit in 
some of the more rural areas of our State. We can talk about 
appraisals, and anyone who wants to weigh in on that, please 
do. Both Fannie and Freddie have released their public plans 
aimed at helping rural, and underserved markets get more access 
to the secondary market. And this is for everyone, and maybe 
just go through it quickly. Do you think that the new 
underserved market plans will be effective tools in helping 
small lenders in rural areas? I will start with you, Ms. 
Hughes.
    Ms. Hughes. Yes.
    Senator Heitkamp. Yes?
    Mr. Mislansky. I am not substantially familiar with the 
plans, but from what I have read, yes.
    Senator Heitkamp. OK.
    Mr. Hopkins. I think it goes part way, but as your neighbor 
to the south, there is a lot of work to be done.
    Mr. Purvis. Yeah, I am not familiar with that plan.
    Senator Heitkamp. OK.
    Mr. Hunt. I am not familiar with the plan either.
    Mr. Giambrone. Yeah, I think it is a good start, and I 
think it will help. It will need some tweaking as it evolves, 
but I think it is a good plan.
    Senator Heitkamp. It is critically important that we 
understand how this will operate, because as we are looking at 
legislating in this space, things that have been done in the 
regulatory sphere or in the implementation, if they are 
working, then we need to make sure that we do not take a step 
backwards.
    How could housing finance systems increase accountability 
for helping small lenders in the rural part of our country? And 
maybe we will stick to the folks who actually have focused on 
rural lending, and we will start with you, Ms. Hughes.
    Ms. Hughes. You know, we are a rural area, but we really 
have not had an issue with affordability. Our issues do 
surround around appraisals, making sure we have timely 
appraisals coming in, making sure we have qualified appraisers, 
making sure we have appraisers who are not afraid to deal with 
the Freddie Mac and Fannie Mae rules. But as far as access to 
customers, we have not had a huge issue with that.
    Mr. Mislansky. So at our institution that is the 
subsidiary, we use the USDA's Rural Development Program quite a 
bit, and we are one of the larger lenders, at least in the 
State of Ohio, in terms of making that product available to 
help people become homeowners. So maintaining that sort of 
product would be critical for us to continue serving members in 
the rural areas.
    Mr. Hopkins. We have a few counties within our State where 
we are the only mortgage lender, and I think some of the 
complexities and the compliance laws have driven many of the 
lenders out of the market. And I think that is part of the 
issue we are dealing with here, is it has just gotten to be a 
very, very complex market. Some of the appraisal rules and when 
appraisals are required have not been updated for decades, and 
we are dealing with that. Why does a refinance of a property 
really need an appraisal? I mean, some of these things need to 
be addressed.
    Mr. Purvis. We historically have served primarily members 
in Wake, Durham, and Orange Counties, Raleigh, Durham, Chapel 
Hill, in central North Carolina, which are urban markets. 
Through a merger last year and some other decisions we made 
about where we wanted to do business, we are now focused on 16 
counties in central North Carolina. Half of that is rural 
markets. We are kind of newbies beginning to look at what are 
the tools and programs available to help us do mortgage lending 
in those rural markets, and there are quite a number of those 
in that 16-county market.
    Senator Heitkamp. Comments?
    Mr. Hunt. As a company who actually is the largest rural 
housing lender in the State--and we have been for 6 or 7 
years--we certainly serve a number of rural markets throughout 
Georgia and into the surrounding States. It is extremely 
important that we keep community-based lending, whether that is 
a one-person office of an independent mortgage banker in that 
community to directly serve it or a community bank. Oftentimes 
in rural areas we see a lack of access to high-speed Internet, 
and with the current TRID regulations, that makes it more 
difficult on those borrowers when they do not have the proper 
Internet access to interact with their lender electronically. 
Keeping lenders in the communities so the borrower can easily 
drive to the actual location is very important, particularly 
for low- to moderate-income borrowers who do not have any extra 
money to spare.
    Senator Heitkamp. OK.
    Mr. Giambrone. Yeah, I would say, not to get too deep into 
the weeds, but Fannie and Freddie have come out with an 
appraisal standard, just to add to the panel, and it is called 
``Day 1 Certainty'' at Fannie, where they give you a grade on 
your appraisal. I can tell you, in the rural areas it just does 
not work. It is a lot bigger process, and you really cannot 
rely on it. So if there is a way to change that model, for 
example, that----
    Senator Heitkamp. We are working on it.
    Mr. Giambrone. OK.
    Senator Heitkamp. If I could have just a minute to make a 
comment, I come from a town of 90 people. I know what 
relationship banking is. And I know what it means to be able to 
just walk down or drive 10 miles to your banker. We are losing 
that in rural America, and we need to figure out how actions 
here are driving that.
    The other thing people ask me all the time, ``How come I 
can get a loan for a $70,000 pick-up but not a $20,000 house?'' 
It is an interesting--you explain that to people in my State 
with a lot of common sense, and you will be talking in circles 
by the time you are done. So we are with you. Thank you all for 
your input. Thank you for continuing to engage, hopefully, with 
this Committee, and we will hopefully get some results.
    Chairman Crapo. Thank you, Senator Heitkamp, and you make 
some very important points. I appreciate that.
    Senator Brown has one more question to ask.
    Senator Brown. Yes, thank you for your indulgence, Mr. 
Chairman.
    Senator Menendez asked you all a question that Mr. 
Giambrone gave a slightly different answer. He mentioned there 
should be no more than two guarantors in the market, and I 
would just like to hear thoughts from the rest of the panel--
and I will start with you, Mr. Hunt--on what you regard is the 
right number and why. At what point do multiple entities break 
the TBA? If you would give us your thoughts, starting with you, 
Mr. Hunt, and moving to your right.
    Mr. Hunt. Yes, Senator. So we support--and it is important 
that we do not have multiple GSEs that enter the market. It is 
already a complex market, and when we speak of the complexity 
of the market and you think of a small lender, the more complex 
it is, the more your legal costs rise. Your internal costs rise 
to try to keep up with all of the differences within the 
different GSEs. So as someone else on the panel alluded to 
earlier, consistency is extremely important, and the 
consistency that Fannie Mae and Freddie Mac provide to the 
industry today, the clear and concise underwriting guidelines 
that we see from Fannie and Freddie are important for smaller 
lenders to be able to operate.
    So the more GSEs that we have, the less clarity we are 
going to have in the marketplace, and the more complexity we 
are going to add to the marketplace. And all of that complexity 
is going to continue to be a barrier to entry for small 
lenders, and it is also going to increase the cost to the 
consumer.
    Senator Brown. Thank you.
    Mr. Purvis, briefly, if you can.
    Mr. Purvis. Yeah, we would expect the guarantors to be 
pretty tightly regulated, and unless there is a lot of 
flexibility within those regulations, why do you need two, 
three, four, five guarantors living with a fairly strict 
definition?
    Senator Brown. Mr. Hopkins.
    Mr. Hopkins. I would say that you had two that worked 
fairly well for 70 years until they started straying from their 
mission and the regulator allowed them to. We now have a strong 
regulator in place. Is it really necessary? They have $400 
billion into their common securitization platform and another 
$600 billion to go. Do we need to duplicate that cost? I do not 
think it is necessary.
    Senator Brown. Tim.
    Mr. Mislansky. I would agree with what others have said. I 
do not know that it is necessary to add and sometimes question 
whether it is necessary to have two. And do we need a signal--
if there is a catastrophic Government guarantee behind these, 
why do you need necessarily two separate companies doing the 
same work essentially?
    Senator Brown. Ms. Hughes.
    Ms. Hughes. I would agree that we probably do not need more 
than two. I do like the idea of two because it does help with 
innovation of the products. We know that with the current 
regulatory environment we are in, mortgage lending is very 
complex, and having partners in the industry who help us 
determine the best path to get that done is vital. And having 
two systems helps create that innovation.
    Senator Brown. Thank you, Mr. Chairman.
    Chairman Crapo. Thank you.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you. Thank you for your 
indulgence. And, excuse me, I have three Committee hearings 
going on at the same time, so I am trying to cover them and 
listen to some of the conversations that are taking place.
    Ms. Hughes, I would like to start with you. In your 
testimony you recommended that banks should get a safe harbor 
from consumer litigation or CFPB enforcement as it relates to 
mortgage underwriting, so long as the bank holds the loan in 
portfolio. And my understanding is the thinking behind this is 
that a bank would never make a bad mortgage loan if they held 
it on their books.
    However, the experience that I have seen, coming from 
Nevada, and particularly with Washington Mutual and Wachovia, 
suggests otherwise, at least for the largest banks. These 
failed banks were able to extract significant fee income up 
front, and then they would squeeze the borrower with fees if 
they fell behind on their payments. And then they could seize 
the home and resell it if the borrower went into foreclosure. 
We saw that in Nevada. I was the Attorney General there for 8 
years, and we saw how devastating it could be.
    So my question to you is: Would expanding the portfolio 
mortgage exemption to large Wall Street banks open the door to 
another Washington Mutual or Wachovia? Wouldn't you agree that 
the community financial institution relationship lending model 
is different than the model used by big banks?
    Ms. Hughes. Yes, I would agree with that. From our 
perspective, we--I personally struggle with qualified mortgage 
rules because if you are a partner in the industry and you want 
your consumers to be successful in home ownership, you have 
already underwritten them to a qualified standard. You have 
already worked with them. You know that they qualify. And as 
they go into--and the benefit of servicing locally is if they 
get into hard times, you know them at the consumer level, and 
you can work with them to work through the issues where they 
have some credit strain.
    So I would agree that the community model definitely works 
better, and in our case, the regulatory requirements are 
actually restrictive and inhibit our abilities to serve our 
customers.
    Senator Cortez Masto. OK. And so to some extent, you would 
agree that narrowly targeting a portfolio mortgage exemption to 
an institution like yours makes sense; I mean, if we are really 
looking out for those protections.
    Ms. Hughes. Absolutely.
    Senator Cortez Masto. OK. Thank you. I appreciate that.
    Let me move on to Mr. Giambrone. FHA loans are an important 
source of credit, particularly for first-time buyers seeking to 
enter home ownership. When the FHA Insurance Fund was not doing 
well in the aftermath of the Great Recession, the last 
administration made a series of changes to shore up its 
finances. One such change was requiring mortgage insurance to 
be paid over the life of the loan. Previously, borrowers could 
stop paying for this expensive insurance once they had 22 
percent equity in their house.
    Can you discuss the impact of this change in FHA policy? 
Has it impeded home ownership, particularly for first-time 
homebuyers? And should the FHA reconsider now that the 
Insurance Fund is in a much stronger position?
    Mr. Giambrone. Excellent question. Thanks for asking it. It 
should be reconsidered, yes. When it was done, I think it was 
done at a time when the fund was at a low point. That was in 
part because they put in the home equity portion. And at this 
point I think it actually hurts the fund because people would 
be more apt to refinance out of an FHA loan, which is actually 
taking funds away from the fund, because they have it for the 
life of their loan. So whether it would be back at 78 percent 
or 75 percent, it would be better to get rid of the life of the 
loan, and on the topic, we also think it is probably time to 
lower the monthly as well.
    Senator Cortez Masto. Thank you. And let me follow up also, 
which is an issue important for me, on affordable housing, 
affordable rental housing. In both northern and southern 
Nevada, we have an affordable housing crisis, and that includes 
rental. In fact, our State has the worst shortage of affordable 
and available rental homes in the Nation with only 15 units 
affordable for every 100 extremely low income households.
    And so let me ask, Mr. Giambrone and Mr. Hunt, your 
organization signed on to a letter advocating for policymakers 
to consider the affordable rental housing crisis in the context 
of GSE reform. Can you discuss the necessity of not only 
preserving but expanding our commitment to the National 
Affordable Housing Trust Fund in the context of reform?
    Mr. Hunt. Affordable housing, you know, is important across 
the Nation, so, you know, I believe that it is hard to 
determine exactly what the GSEs are going to do for affordable 
rental housing. You know, the multifamily side of things I am 
not really that familiar with, but that is very important, that 
we do provide avenues, you know, to stand up more affordable 
housing, and a lot of that actually speaks to some of the 
greater issues of the barrier entry to development at this 
point in time in the industry, takes much, much more capital. I 
am an independent mortgage banker, so I am not answering from 
the true banking side, but, you know, we all know it takes much 
more capital to enter those markets. And that is slowing the 
entry of continued development in the country.
    Senator Cortez Masto. I appreciate that.
    Mr. Giambrone, do you have any comments?
    Mr. Giambrone. Yeah, just briefly, we have supported both 
funds. It is our understanding they have done great work in the 
past. Rental is a pathway to get to home ownership, and so we 
support that. I know the funds--and I am no expert at either, 
but whether it be the counseling or the downpayment assistance, 
again, or the rental, they have done good work, so we are 
supportive.
    Senator Cortez Masto. Thank you. I notice my time is up. 
Thank you all. I appreciate the comments.
    Chairman Crapo. Thank you very much. And I again want to 
thank all of the witnesses for being here today and providing 
your testimony, both your oral and your written testimony. It 
is very helpful as we move forward.
    I do look forward to working with Senator Brown and the 
other Members of the Committee on this critically important 
issue.
    For Senators who wish to submit questions for the record, 
those questions are due on Thursday, July 27th, and I encourage 
the witnesses, as you receive questions from the Senators, to 
please respond as promptly as you can.
    With that, again, thank you very much, and this hearing is 
adjourned.
    [Whereupon, at 11:31 a.m., the hearing was adjourned.]
    [Prepared statements, responses to written questions, and 
additional material supplied for the record follow:]
                  PREPARED STATEMENT OF BRENDA HUGHES
  Senior Vice President and Director of Mortgage and Retail Lending, 
   First Federal Savings Bank of Twin Falls, Idaho, on behalf of the 
                      American Bankers Association
                             July 20, 2017
    Chairman Crapo, Ranking Member Brown, and Members of the Committee, 
my name is Brenda Hughes. I serve as Senior Vice President and Director 
of Mortgage and Retail Lending for First Federal Savings of Twin Falls, 
Idaho. I have been with First Federal for over 20 years. First Federal 
is a $607 million asset bank which was established in 1915. We 
currently have 11 branches and one production office and have 247 
employees. We are the largest lender in our assigned lending area and 
have originated over $1 billion in mortgage loans in the last 10 years.
    I am pleased to be testifying on behalf of the American Bankers 
Association on the important topic of GSE reform and community bank 
access. The ABA is the voice of the Nation's $17 trillion banking 
industry, which is composed of small, midsize, regional, and large 
banks that together employ more than 2 million people, safeguard $13 
trillion in deposits and extend more than $9 trillion in loans.
    In addition to my role at First Federal Bank, I served on Freddie 
Mac's Community Advisory Board from 2005 to 2016, serve on ABA's GSE 
Policy and Mortgage Markets Committees, chaired the ABA's Mortgage 
Markets committee from October of 2012 until September of 2014, and am 
the incoming vice chair of the ABA's GSE Policy Committee. I also 
currently serve on the CFPB's Community Bank Advisory Council.
    First Federal actively delivers loans directly to Freddie Mac and 
to the Federal Home Loan Bank of Des Moines and we retain servicing on 
these loans. We also work with a handful of other market investors to 
whom we sell loans with servicing released. We currently service 
approximately 5,000 loans. Like so many banks, both large and small, 
access to the secondary market in general, and through the federally 
guaranteed secondary market enterprises (GSEs) in particular, is 
essential to our ability to meet the mortgage needs of our customers.
    The American Bankers Association, through input and deliberation 
from banks of all sizes and from all parts of the country, has 
developed a set of principles to guide the reform of Fannie Mae and 
Freddie Mac, which, as you know, have been in conservatorship since 
2008. We appreciate the work this Committee has done thus far, as well 
as the opportunity to share our views with you today.
    On GSE reform, and on the importance of preserving access for 
lenders of all sizes and in all regions of the country, ABA believes 
that:

  <bullet>  Key shared principles should guide reform efforts;

  <bullet>  Without legislative reform, past abuses may be repeated, or 
        new ones may arise which imperil the mortgage markets and put 
        taxpayers at risk; and

  <bullet>  Reform need not be radical or extreme, but should be 
        targeted and surgical.

    I will elaborate on each of these in turn.
I. Key Shared Principles Should Guide Reform Efforts
    ABA has (during the many years that Fannie Mae and Freddie Mac have 
been in conservatorship) worked with bankers from institutions of all 
sizes and from all parts of the country to develop principles which 
should guide reform of the GSEs. For the purposes of this testimony, we 
highlight the following principles, and note that many of these are 
widely shared among various other trade and industry associations.
    We believe that these principles should form the basis for 
legislative reform efforts.
1. The GSEs must be strictly confined to a secondary market role of 
        providing stability and liquidity to the primary mortgage 
        market for low- and moderate-income borrowers and must be 
        strongly regulated, thoroughly examined and subject to 
        immediate corrective action for any violation.
    A reformed system must ensure that the GSEs or their successors 
stay focused purely on advancing stable, affordable and readily 
available secondary market access to the primary market. Shareholder 
returns or other investment goals cannot be allowed to drive their 
behavior. While a certain level of competition is desirable to ensure 
innovation and responsiveness to the market, competition cannot be 
allowed to spin out of control and take the GSEs into other businesses 
or investment areas. For this reason some have suggested that a public 
utility or member-owned cooperative model may be a desirable evolution 
for the GSEs. We note only that while ownership structure is one way to 
limit and direct activities, strong regulation will also be necessary 
to keep GSEs or their successors focused on their defined role, 
regardless of what ownership structure is ultimately chosen.
2. In return for the GSE status and any benefits conveyed by that 
        status, these entities must agree to support all segments of 
        the primary market, as needed, in all economic environments and 
        to provide equitable access to all primary market lenders.
    The GSEs or their successors, including any potential new 
competitors that may be chartered, will benefit from a defined market 
available only to them and with a Government guarantee on the 
securities that are issued. To ensure that those benefits are available 
to all, GSEs must be required to provide access to all primary market 
lenders on an equitable basis.
3. Access must also include preservation of the ``To Be Announced'' 
        (TBA) market and both servicing retained and sold options.
    The To Be Announced market, also known as the Cash Window, allows 
originators to sell loans on an individual basis to the GSEs. This 
option must be preserved to ensure access to the secondary market for 
lower volume lenders or those who choose for business purposes to sell 
individual loans. Similarly, to ensure that originators may continue to 
service loans consistent with their chosen business model, flexibility 
to sell loans servicing retained or servicing released must be 
preserved in any reformed system.
4. Mortgage Backed Securities issued by the GSEs should carry an 
        explicit, fully priced and fully transparent guarantee from the 
        Federal Government.
    The key benefit conveyed by the GSEs to the primary market is 
access to long-term affordable liquidity for mortgage lending. To 
preserve that liquidity, the Government guarantee is necessary, but 
taxpayers need to be fully compensated for the risks they bear in 
providing that guarantee. Fees necessary to support the guarantee must 
be charged, and must be transparent so that they reflect the true cost 
of the guarantee, and only that cost. Fees should not be assessed to 
offset other Government spending or priorities. It may be desirable to 
establish a segregated insurance fund to cover potential losses in the 
event that the guarantee is tapped in a crisis. Further, to ensure 
equitable access, the fees must be assessed equally on all lenders on a 
cost averaging basis.
5. The GSEs or their successors must be capitalized appropriately to 
        the risks borne and regulated to ensure that they remain so in 
        all market conditions.
    Currently, Fannie Mae and Freddie Mac are operating under 
conservatorship, with little capital and with all profits being swept 
to the U.S. Treasury as compensation for the Federal investment and 
risks borne of behalf of taxpayers. It will be essential that going 
forward the GSEs or their successors have adequate capital to withstand 
market downturns, especially as they will be monoline businesses 
subject to regional and national downturns. Capital support for the 
guaranteed secondary market can come from a variety of sources, 
including indirectly from credit risk transfers, and injections of new 
capital from new member/owners/users of the GSEs or their successors 
(depending upon the model ultimately chosen by Congress).
6. Regulation of the GSEs must include establishment of sound and fair 
        underwriting standards for the loans they purchase, and must be 
        based upon and coordinated with underwriting standards 
        applicable to the primary market.
    Significant underwriting requirements imposed under the Dodd-Frank 
Act, most notably Ability to Repay (ATR) and Qualified Mortgage (QM) 
rules, while less than perfect, have significantly strengthened 
mortgage underwriting in the primary market. Going forward we believe 
it desirable that these primary market underwriting requirements serve 
as a basis that supports all secondary market activity, regardless of 
whether residential mortgages are sold to the GSEs or their successors 
or to private label purchasers. As a general matter, mortgages sold 
into the secondary market with Government guarantees should meet QM 
standards, whereas private label securitizations will only require the 
less stringent ATR standard as a baseline, although investors may 
establish additional standards at their discretion.
    For the primary market, loans originated and held in portfolio 
should automatically be granted QM status so long as they meet basic 
Ability to Repay requirements and do not run afoul of safety and 
soundness regulations. Such loans are inherently conservatively 
underwritten as portfolio lenders hold 100 percent of credit risk and 
thus will only make loans that have a high degree of ability to be 
repaid.
    For the secondary market, the so-called QM Patch currently in place 
effectively allows Fannie Mae and Freddie Mac to confer Qualified 
Mortgage status to any loan they are willing to purchase. As a result, 
Fannie Mae and Freddie Mac define the nature and extent of risks to 
which taxpayers are exposed. This was a necessary but flawed mechanism 
to ensure that the new rules did not overly restrict mortgage credit 
when regulations in 2014 subdivided ATR mortgages into QM and non-QM 
categories, and was deemed to be manageable as long as the GSEs were in 
conservatorship. However, the QM Patch is designated to expire when 
conservatorship of the GSEs ends, creating the necessity and 
opportunity to revise the QM/ATR rules so that the GSEs or their 
successors are not permitted to define what is QM without restriction. 
Whatever regulatory definition replaces the open-ended QM patch, GSE 
guarantees should be limited to loans that have well-defined and fixed 
criteria, and transition to a revised QM designation should be managed 
to avoid constricting credit availability. A properly QM requirement to 
``earn'' a Federal guarantee is essential to protect taxpayers, and 
will help to guide non-QM mortgages to a private label secondary market 
without taxpayer exposure.
7. Credit Risk Transfers required by FHFA should be continued and 
        expanded. Credit risk transfer must be a real transfer of risk 
        and must be economically viable for the GSEs and the lenders 
        they serve.
    Several mechanisms for credit risk transfers have been critically 
important innovations introduced to the GSE model in recent years. They 
have helped to bring private market participation back to the mortgage 
markets, and have had a real impact on reducing taxpayer exposure to 
GSE risks. They should become a permanent feature of secondary market 
financing. However, they must continue to be developed in ways that 
make economic sense for the GSEs, investors, primary market lenders, 
and for the borrowers they serve. They must also truly transfer credit 
risk in a permanent fashion to ensure taxpayer protection. To that end, 
FHFA (or its successor) must vigorously regulate, examine, and enforce 
credit risk transfer requirements.
8. Any reform of the secondary mortgage market must consider the vital 
        role played by the Federal Home Loan Banks and must in no way 
        harm the traditional advance businesses of Federal Home Loan 
        Banks or access to advances by their members.
    The Federal Home Loan Banks (FHLBs) have provided mortgage 
financing in the form of collateralized advances to their member/owners 
for over 80 years. They have performed as intended, ensuring liquidity 
even in times of market crisis. Their crisis performance is traceable 
in part to mutual ownership status, relatively high statutory capital 
requirements and fully collateralized lending. Changes to Fannie and 
Freddie may affect the FHLBs, even if unintended or indirect, and 
potential effects must be considered, accounted for, and preferably 
avoided. Additionally, the FHLBs may have the potential to play an 
expanded role in a revised secondary market system, but any expanded 
role must be separately capitalized and regulated in such a manner that 
it does not put at risk the traditional advance business of the FHLBs.
9. Affordable housing goals or efforts undertaken by the GSEs to expand 
        the supply of affordable rental housing should be delivered 
        through and driven by the primary market, and should be 
        structured in the form of affordable housing funds available to 
        provide subsidies for affordable projects.
    The bright line between the primary and secondary market in the 
single family housing finance area should also broadly apply to the 
affordable housing and multifamily market. Primary market lenders 
should be the originators of these loans supported by access to stable, 
long term liquidity from the GSEs. Only in complex originations where 
the primary market lacks capacity should the GSEs be involved in direct 
financing, and strong regulation and oversight should be employed to 
ensure that there is no ``cherry picking'' of deals by the GSEs from 
the primary market.
II. Without Legislative Reform, Past Abuses May Be Repeated
    Prior to conservatorship, Fannie Mae and Freddie Mac existed as 
hybrid companies, in a duopolistic system. They had private 
shareholders who profited from risks taken with the implied guarantee 
of the Federal Government. Changes to the charters of the institutions 
must be undertaken in legislation to remove this private profit/public 
risk model. The GSEs should be transformed into cooperatively owned 
public utilities or other similar limited purpose, well-regulated 
entities.
    Early in the conservatorship, Fannie Mae and Freddie Mac were 
unable to pay the 10 percent required interest rate on over $180 
billion injected by U.S. taxpayers to prevent their collapse. As a 
result, the two were de facto nationalized with profits, if any, being 
swept to the U.S. Treasury. Under this arrangement, the interest 
payments on Government bailout funds has been waived. The GSEs operate 
with little and shrinking capital and are, under terms of the 
conservatorship, expected to go to zero capital by 2018.
    Since returning to a positive cash flow in recent years, the terms 
of the conservatorship as amended have remained in place. Though funds 
swept to Treasury have been substantial, the amount falls substantially 
short of the taxpayers' direct investment plus the waived interest 
obligations on that investment. The terms of the conservatorship do not 
provide for a cutoff of payments (or for the debt incurred to be 
considered repaid) and do not allow for the GSEs to retain earnings to 
build capital.
    Some have suggested that the GSEs simply be recapitalized and 
released back to the private market, with limited changes to their 
charters, noting that reforms to the entire mortgage market have 
addressed many of the problems that lead to the financial crisis and 
the insolvency of the GSEs.
    We reject that approach, as it would return us to the untenable 
situation of public risk-taking to the benefit of private investors. 
Even with current reforms in place it would encourage future abuses and 
undue risks to U.S. taxpayers. Instead, legislation should establish 
directed and limited activities, strong capital standards and a clear 
set of benchmarks for implementing and meeting those standards.
    It will also be essential for legislation to firmly establish a 
mandate that the GSEs provide equitable access to all primary market 
participants, regardless of size or geographic location. As cited in 
principle 2 above, in return for the GSE status, these entities must be 
willing to serve all primary market participants on an equitable basis 
in all market conditions. That includes access to the To Be Announced 
market (also known as the ``Cash Window'') with the ability to sell 
individual or groups of loans.
    In recent years, and primarily as a result of a mandate by the 
FHFA, the GSEs have moved to standardized Guarantee fees (G-fees) for 
all primary market originators selling to the GSEs. Going back to the 
early 2000s, however, great pricing differentials existed, with the 
GSEs giving large volume discounts and other preferential pricing to 
some institutions. This un-level playing field severely hampered 
community banks' ability to compete and serve their communities.
    Going even further back, some community banks found it difficult to 
do business with the GSEs at all, as their pricing and other policies 
were geared toward higher volume lenders and the GSEs showed little 
interest in working with smaller, lower volume banks.
    It will be necessary to incorporate into statute the mandate that 
the GSEs serve all primary market participants equitably in order to 
avoid the potential for backsliding.
    Some will argue that this can be accomplished via regulation, and 
indeed, FHFA has done an admirable job in recent years ensuring 
equitable treatment. However, regulators and regulatory approaches can 
change over time. While a strong regulator must be part of reform, so 
too must be clear statutory guidance in this area.
III. Reform Need Not Be Radical or Extreme, But Targeted and Surgical
    Legislation considered by the Senate Banking Committee in the last 
Congress envisioned a complete restructuring of the secondary mortgage 
market system. That legislative approach was ultimately not able to 
gain approval at least in part over concerns that it was too complex 
and untested, and that the transition from the current system to a new 
one envisioned in the legislation would be too disruptive to the 
housing finance system.
    Still, the legislative efforts undertaken by the Senate were 
helpful in focusing attention on the key services provided by the GSEs 
in the past, and in delineating how some of those services could be 
separated into component parts, and reassigned in a new system to 
reduce risk and create opportunity for greater competition.
    Consensus is forming around the view that a limited and controlled 
Government involvement in the secondary mortgage market is needed to 
ensure the availability of stable, affordable long term financing for 
mortgage finance.
    Legislation need not recreate the entire secondary market 
structure. In fact, guided by the principles detailed above, and 
incorporating key elements laid out here, we believe that relatively 
tailored legislation that takes a surgical approach to making necessary 
alterations to the current system is both desirable and achievable.
    In addition to changes to the charters and ownership structure of 
the GSEs, the creation of clear, achievable and strict capital 
requirements, and the mandate to serve all primary market participants 
equitably, these surgical alterations should also include creation of 
an insurance fund to backstop the GSEs capital to protect taxpayers 
further from again having to bailout the GSEs. While the Government 
should stand behind the securities issued by the GSEs, the insurance 
fund should stand in front of the explicit Government guarantee to 
repay taxpayers to reduce the likelihood that the Government guarantee 
is ever drawn upon. The fund should be actuarially sound and modeled on 
the FDIC insurance fund.
Conclusion
    Americans have relied on long-term, fixed-rate mortgages for 
affordable mortgage finance for 70 years. Fannie Mae and Freddie Mac 
have facilitated access to this product by providing access to the 
capital markets for primary market lenders. Absent aggregation and 
securitization provided through the To Be Announced (TBA) market, 
access to long-term, lower-rate funding would be far more difficult to 
come by for most primary lenders. The Government guarantee provided to 
mortgage backed securities issued by the GSEs makes them attractive to 
the capital markets ensuring liquidity. All of these elements must be 
preserved and remain available to all primary market participants 
regardless of size or geographic location.
    Congress has an essential role in providing the certainty necessary 
to ensure long-term stability of the housing finance system. Just as 
the Federal debt market provides the bellwether that makes all private 
debt markets more efficient and liquid, an explicit, fully priced, 
fully paid-for Federal guarantee for a targeted portion of the mortgage 
market will be a catalyst for broader market growth and development. 
Congress should not defer action any longer. Nine years of 
conservatorship is more than enough.
    Thank you for the opportunity to share our views with the 
Committee. The American Bankers Association stands ready to work with 
Members of the Committee to advance this important set of issues.
                                 ______
                                 
                  PREPARED STATEMENT OF TIM MISLANSKY
  Senior Vice President and Chief Lending Officer, Wright-Patt Credit 
Union, and President, myCUmortgage, LLC, on behalf of the Credit Union 
                          National Association
                             July 20, 2017
    Chairman Crapo, Ranking Member Brown, Members of the Committee: 
Thank you for the opportunity to testify on this important topic. My 
name is Tim Mislansky, and I am the Chief Lending Officer for Wright-
Patt Credit Union, headquartered in Beavercreek, Ohio, as well as the 
President of its wholly-owned Credit Union Service Organization (CUSO), 
myCUmortgage. I am also Chair of the Housing Subcommittee of the Credit 
Union National Association (CUNA), \1\ on whose behalf I testify today.
---------------------------------------------------------------------------
     \1\ Credit Union National Association represents America's credit 
unions and their 110 million members.
---------------------------------------------------------------------------
    Wright-Patt Credit Union has approximately $3.6 billion in assets, 
and proudly serves over 337,000 members. We are located primarily in 
the Dayton and Columbus, Ohio markets. This gives us a unique 
perspective on the marketplace as we make home loans available in the 
urban core, the suburbs and the rural areas of our markets. We are a 
relatively large credit union mortgage lender, and helped 4,631 
families in 2015 with $616 million in balances, of which 3,072 were 
originated to Wright-Patt Credit Union members, and an additional 1,340 
families with second mortgages, totaling $55 million.
    In addition to my role at Wright-Patt, I serve as president of our 
wholly-owned CUSO myCUmortgage, which provides a variety of mortgage 
related services to nearly 200 credit unions. These credit unions range 
in asset size from $6 million to $1 billion and are located in 25 
different States. Through the CUSO, we facilitated nearly 9,000 
closings for $1.2 billion making myCUmortgage one of the largest 
aggregators of credit union mortgage loans in the country. These 
responsibilities give me a unique perspective of the mortgage lending 
needs of small lenders and their members.
    As member-owned, not for profit financial cooperatives, many credit 
unions offer mortgages to satisfy member demand, and credit unions 
represent an increasingly significant source of mortgage credit 
nationally. In 2016, more than two-thirds of credit unions were active 
in the first mortgage arena, collectively originating over $143 billion 
worth of these loans--an amount equal to 7.5 percent of the total 
market. By comparison, in 1996 only 43 percent of credit unions were 
active and originated a total of less than $20 billion in first 
mortgages.
    And third party data supports credit unions' growing presence as a 
mortgage lender. Most recently, Experian, one of the major credit 
reporting bureaus, indicated in a report that in the first quarter of 
2017, credit unions accounted for 13 percent of the first mortgages 
originated, representing an increase for its 7 percent market share in 
the first quarter of 2015. \2\
---------------------------------------------------------------------------
     \2\ http://www.experian.com/assets/credit-unions/reports/cu-state-
of-credit-report.pdf
---------------------------------------------------------------------------
    It is clear that consumers are choosing credit unions more and more 
to be their mortgage lenders, and as Congress considers housing finance 
reform, it is critical that credit unions have equitable and readily 
available access to a functioning, well-regulated secondary market and 
a system that will accommodate member demand for long-term fixed-rate 
mortgage products in order to ensure they can continue meeting their 
members' mortgage needs.
    Historically, credit unions have been largely portfolio lenders. 
From 2000 to 2008, credit unions sold only a third of first mortgage 
originations, ranging from a low of 26 percent in 2007 to a high of 43 
percent in 2003. The decision of whether to hold or sell a loan depends 
primarily on asset-liability-management issues, essentially the need to 
manage interest rate risk, but also at times, depends on the 
availability of liquidity in the credit union. Asset liability 
management hinges on such factors as the level of interest rates, the 
relative demand for fixed versus adjustable loans from members, the 
amount of fixed-rate loans and other longer-term assets already on a 
credit union's books and the maturity of the credit unions funding 
sources. Managing credit risk is a primary concern of the credit union 
prudential regulator. Without a functioning secondary market, credit 
unions would most likely severely limit the amount of first mortgage 
lending conducted on behalf of their members as they simply would not 
have the liquidity to fund and hold the loans.
    As long-term interest rates plunged in 2009 and again in 2011, 
credit unions found it increasingly important to sell longer-term, 
fixed-rate mortgages to avoid locking in very low earning assets for 
the long term. As a result, whereas in 1996 only about 16 percent of 
mortgage lending credit unions sold loans into the secondary market, by 
2016, nearly 30 percent of mortgage lending credit unions sold $56 
billion into the secondary market, or 40 percent of total first 
mortgages originated by credit unions.
    Servicing member loans is very important to credit unions, for a 
number of reasons. As member-owned cooperatives, credit unions are 
driven by a desire to provide high quality member service. Many credit 
unions are reluctant to sell the core function of serving members to 
others. Credit unions may service loans in-house or outsource to a 
trusted third-party, but in doing so they maintain a say in how the 
loans are serviced. This is especially important when borrowers run 
into financial challenges so that the credit union may work to keep the 
borrower in their home. Credit unions are also concerned that if they 
sell the servicing of the mortgage loan, that the third-party servicers 
will use the data they gather about credit union members to market 
competing products or services. In addition, credit unions benefit from 
the steady servicing income stream. As such, many credit unions service 
both the substantial portfolios of loans they hold on their own balance 
sheets, and the loans they have sold to the secondary market. 
Currently, in addition to the $366 billion of first mortgages that 
credit unions hold in portfolio, they also service $198 billion of 
loans they have sold.
    The credit quality of credit union first mortgages held up 
remarkably well during the recent financial crisis, especially when 
compared to the experience of other lenders. Other lenders experienced 
net charge-off rates four times higher than those at credit unions. 
Prior to the Great Recession, annual net charge-off rates on 
residential mortgage loans at both banks and credit unions were 
negligible, less than 0.1 percent. However, as the recession took hold, 
losses mounted. At credit unions, the highest annual loss rate on 
residential mortgages was 0.4 percent. At commercial banks, the 
similarly calculated loss rate exceeded 1 percent of loans for 3 years, 
reaching as high as 1.58 percent in 2009.
    There are two reasons for this remarkable record at credit unions. 
First, as cooperatives, credit unions are generally locally owned, 
community based institutions and tend to be more borrower-centric than 
other lenders. This equates to credit unions generally being more risk-
averse than stock-owned or privately owned institutions. The 
environment faced by credit union management (generally uncompensated 
volunteer boards, the absence of stock options for senior management 
and board members, the absence of pressure from stockholders to 
maximize profits) discourage management from adopting high-risk, 
higher-return strategies in pursuit of high profits. As a result, 
credit union operations are more consumer-friendly, less risky and 
subject to less volatility over the business cycle. This largely 
explains why credit unions were able to increase lending as the 
financial crisis deepened.
    Second, credit unions are member-owned cooperatives and the 
financial transactions involving a member's home are typically the 
biggest of their lives, credit unions tend to be concerned with not 
only the member's ability to obtain the home loan, but also to maintain 
the home loan. This leads credit unions to pay particular attention to 
such factors as a member's ability to repay a loan, proper 
documentation and due diligence, and collateral value before granting 
loans.
Credit Union Principles for Housing Finance Reform
    As we have testified in the past, CUNA supports the creation of an 
efficient, effective, and fair secondary market with equal access for 
lenders of all sizes. To this end, CUNA supports housing finance reform 
proposals that are consistent with the following principles, and have 
been subject to full and fair consideration with respect to potential 
impact as well as unintended consequences on all market participants:
Neutral Third Party
    There must be a neutral third party or parties in the secondary 
market, with the sole role as a conduit to the secondary market. This 
entity must be independent of any firm that has any other role or 
business relationship in the mortgage origination and securitization 
process, to ensure that no market participant or class of participants 
enjoys an unfair advantage in the system. In addition, this party must 
be prohibited from holding mortgage loans as individual loans or 
mortgage backed securities to avoid additional interest rate risk being 
held and managed by the entity. Some proposals have suggested that the 
new solution would allow financial companies to own up to 10 percent of 
an entity. This idea is troublesome as it could create potential 
conflicts of interest and increases the likelihood that larger lenders 
could band together to create and own a secondary market entity, 
thereby controlling the market and forcing their financial will on 
smaller lenders.
Equal Access
    The secondary market must be open to lenders of all sizes on an 
equitable basis. Access should not only be provided to individual 
lenders, but to companies that act as loan aggregators. Despite today's 
relatively equal access to the GSEs, some lenders choose to work with 
an aggregator, such as a company like myCUmortgage, which buys loans to 
pool and sell to the GSEs. These institutions find it a better 
financial and operational alternative to partner with an aggregator 
than to sell directly to the GSEs. The secondary market must remain 
open to both direct lenders and aggregators to allow small lenders to 
continue making mortgage loans in the manner they choose to help 
consumers with home ownership.
    CUNA understands that the users (lenders, borrowers, etc.) of a 
secondary market will be required to pay for the use of such market 
through fees, appropriate risk premiums and other means. However, 
guarantee fees or other fees/premiums should not have any relationship 
to lender volume. The fees must be tied to the risk of the individual 
loan or pools of loans.
    Additionally, CUNA cautions strongly against regimes that require 
lenders to retain significant amounts of risk beyond that represented 
by actuarially appropriate guarantee fees, as these risk retention 
arrangements may have a disproportionately negative impact on small 
lenders that are less able to manage such risk or who have the balance 
sheet capacity to hold such risk, and could therefore result in less 
consumer choice.
    One such example is a client of myCUmortgage, TopMark Federal 
Credit Union in Lima, Ohio is on pace to help their members with over 
$16 million in mortgage loans this year. TopMark is a $30 million 
depository, yet manages to generate nearly half its assets per year in 
mortgage loans. Without a functioning secondary market, or if onerous 
risk retention arrangements were imposed, TopMark may have to stop 
helping its members with home financing in just a few short years.
Strong Oversight and Supervision
    The entities providing secondary market services must be subject to 
appropriate regulatory and supervisory oversight to ensure safety and 
soundness by ensuring accountability, effective corporate governance 
and preventing future fraud; they should also be subjected to strong 
capital requirements and have flexibility to operate transparently and 
develop new programs in response to marketplace demands.
Durability
    Any new system must ensure mortgage loans will continue to be made 
to qualified borrowers even in troubled economic times. Without the 
backstop of an explicit federally insured or guaranteed component of 
any revised system, CUNA is concerned that private capital could 
quickly dry up during difficult economic times, as it did during the 
financial crisis, effectively halting mortgage lending altogether. In 
addition, the introduction of private capital, in a highly regulated 
industry, such as mortgage lending, will be discouraged without the 
explicit Federal guarantee. The costs and barriers to entry for other 
entities will most likely be high and the potential returns may not 
justify entry with the guarantee. This could lead to higher risk 
lending in order to gain short-term larger profits at great potential 
long-term risk as we saw during the financial crisis with exotic 
mortgage products and tremendously relaxed underwriting standards.
Financial Education
    Credit unions have a noble history of offering a wide variety of 
financial counseling and other educational services to their members, 
and numerous studies, including an analysis from HUD in 2016, \3\ have 
shown that first time home buyers who complete pre-ownership home 
buying courses perform statistically better in terms of default risk 
and repayment than those who do not. In one case, a study cited by HUD 
indicated that those who took pre-purchase education had a \1/3\ less 
chance of ending up in default. Any new housing finance system should 
emphasize consumer education and counseling as a means to ensure that 
borrowers receive appropriate mortgage loans.
---------------------------------------------------------------------------
     \3\ The Evidence of Homeownership Education and Counseling https:/
/www.huduser.gov/portal/periodicals/em/spring16/highlight2.html.
---------------------------------------------------------------------------
Predictable and Affordable Payments
    Any new system must include consumer access to a variety of 
products that provide for predictable, affordable mortgage payments to 
qualified borrowers. Traditionally this has been through fixed-rate 
mortgages (such as the 30-year fixed-rate mortgage), but other products 
that may be more appropriately tailored to a borrower's specific 
circumstances, such as certain borrower-friendly, standardized 
adjustable rate mortgages, should also be available.
    We believe that in addition to ensuring access to the secondary 
market for credit unions, it is also important that the housing finance 
system Congress puts in place accommodates the demand of credit union 
members and other consumers for long term, fixed-rate mortgage 
products. The data suggest that credit union members overwhelmingly 
prefer fixed-rate mortgages. Over the past 10 years, our members have 
chosen a fixed-rate mortgage about 80 percent of the time. Congress 
should acknowledge that the American homebuyer prefers fixed-rate 
mortgages and do everything in its power to ensure this important 
mortgage product remains a valuable part of housing finance.
Loan Limits
    Our Nation's housing market is diverse, with wide variation 
geographically and between rural and urban communities. Any new housing 
finance system should apply reasonable conforming loan limits that 
adequately take into consideration local real estate prices in higher 
cost areas. It should also ensure that lower balance mortgage lending 
is not discouraged. Many lenders have established minimum loan amounts 
as the profitability of a mortgage loan is impacted by loan size. These 
smaller loan amounts can be typical in urban areas where the cost of a 
home is significantly less. For example, in Dayton, Ohio, a member can 
buy a home for less than $50,000 but often cannot find a lender 
available to them. Wright-Patt Credit Union does not have minimum loan 
amounts as we believe, as a financial cooperative, that we should help 
every qualified member buy a home regardless of the size of the home or 
the mortgage loan.
Affordable Housing
    The important role of Government support for affordable housing 
(defined as housing for lower income borrowers but not necessarily high 
risk borrowers) should be considered a function separate from the 
responsibilities of the secondary market entities. The requirements for 
a program to stimulate the supply of credit to lower income borrowers 
are not the same as those for the more general mortgage market. We 
believe that a connection between these two goals could be accomplished 
by either appropriately pricing guarantee fees to minimize the chance 
of taxpayer expense, and/or adding a small supplement to guarantee 
fees, the proceeds of which could be used by some other Federal agency 
in a more targeted fashion in furtherance of affordable housing goals.
    Credit unions historically have played an important part in low and 
moderate income mortgage lending. An analysis of publicly available 
HMDA data from 2013 to 2015 shows that 25 percent of credit union 
lending is considered ``CRA'' lending. This compares to 23 percent for 
non-credit union institutions. While the difference is a relatively 
minor 2 percent, it must be remembered that credit unions are not 
subject to the Community Reinvestment Act, yet a larger percentage of 
our loans are CRA equivalent compared to those lenders that are 
primarily subject to CRA.
Mortgage Servicing
    In order to ensure a completely integrated mortgage experience for 
member-borrowers, credit unions should continue to be afforded the 
opportunity to retain or sell the right to service their members' 
mortgages, at the sole discretion of the credit union, regardless of 
whether that member's loan is held in portfolio or sold into the 
secondary market. Consumers align the mortgage loan with where they 
make their payment and this impacts their choices in selecting a 
mortgage lender. To lose control over this servicing relationship would 
be detrimental not only to a large majority of credit union member-
borrowers, but could also result in fewer mortgage choices available to 
credit unions and their members, with higher interest rates and fees 
alike. Moreover, to the extent national mortgage servicing standards 
are developed, such servicing standards should be applied uniformly and 
not result in the imposition of any additional or new regulatory 
burdens upon credit unions.
Reasonable and Orderly Transition
    Whatever the outcome of the debate over the housing finance system 
in this country, the transition from the current system to any 
potential new housing finance system must be reasonable and orderly, in 
order to prevent significant disruption to the housing market which 
would harm homeowners, potential homebuyers, the credit unions who 
serve them, and the Nation's housing market as a whole.
Small Lender Access to the Secondary Market
    The secondary market must be open to lenders of all sizes on an 
equitable basis. Credit unions need to know that as long as they 
produce even a single eligible mortgage, they will be able to sell it 
to an issuer of Government-backed securities, directly or through an 
aggregator, at market prices, for cash, without low-volume penalty, or 
through the TBA market, and with the option to retain servicing on the 
loans. In addition, standardization of all steps of the process is very 
important to credit unions.
    Some form of issuer should be established so that small lenders, 
including credit unions, will have unfettered access to the secondary 
market. This entity should be independent of any firm that has any 
other role or business relationship in the mortgage lending process.
Government Guarantee
    The new system must include consumer access to products that 
provide for predictable, affordable mortgage payments to qualified 
borrowers. Traditionally this has been provided through fixed-rate 
mortgages (such as the 30-year fixed-rate mortgage), and it is 
important that qualified borrowers continue to have access to products 
that provide for predictable and affordable mortgage payments.
    In order to facilitate the continued availability of affordable, 
long-term, fixed-rate mortgages for American homeowners, some form of 
ultimate Government guarantee should be available for qualifying 
mortgage-backed securities. However, the taxpayer must be protected 
from the unnecessary exercise of this guarantee by appropriate 
standards in mortgage lending, and by layers of sufficient private 
capital for loss absorption. The Government guarantee should be the 
last, not the first line of defense.
    In addition to an 80 percent maximum loan-to-value for each 
mortgage in a covered security (provided by downpayment, private 
mortgage insurance or a combination of the two), sufficient private 
capital should be available to absorb the first loss on any mortgage in 
a covered security. The amount of private capital necessary to protect 
the taxpayer is of course important. Too little capital places the 
taxpayer at risk. Too great a capital requirement unnecessarily raises 
the cost of mortgages to borrowers. The appropriate amount depends on: 
the amount of capital held by the ultimate Government guarantor, the 
amount of loss on any security that the private capital will be 
responsible for (the attachment point), and the maximum loan-to-value 
of mortgages in covered securities and required underwriting standards 
for eligible mortgages. Assuming an attachment point of 10 percent, the 
amount of private capital necessary to cover a maximum 10 percent loss 
on any covered security will be substantially less than the amount 
necessary to cover a maximum 10 percent on all covered securities. So 
long as eligible mortgages must have maximum loan-to-value ratios of 80 
percent, or private loan-level mortgage insurance and must comply with 
the Qualified Mortgage (QM) rule, the likelihood that all covered 
mortgage backed securities would simultaneously suffer losses of at 
least 10 percent during anything short of a total economic and 
financial collapse (such as the Great Depression of the 1930s) is 
negligible. Further, the required amount of capital or reserve funds 
should depend on the seasoning of the securities on which a bond 
guarantor provides first loss coverage. Older securities should require 
lower (not zero) reserve funds.
    For all the reasons just listed, substantially less than 10 percent 
of the total exposure of private bond guarantors would be necessary to 
provide the 10 percent first loss coverage. Legislation should require 
the 10 percent first loss coverage, but leave it to the Federal 
guarantor to determine the amount of private capital or reserve funds 
necessary to provide that 10 percent first loss coverage under 
conditions no less severe than the recent Great Recession.
    In the event of the failure of a mortgage in a covered security, 
the Federal guarantor should ensure timely payment of principle and 
interest to investors in covered securities, and immediately demand 
payment from the bond guarantor. The fact that investors could look to 
the Federal guarantor rather than a collection of private bond 
guarantors for payment would contribute to the homogeneity of covered 
securities, increasing the liquidity of the securities. Payment from 
the private guarantor to the Federal guarantor would be required so 
long as total losses on a security (or a defined group of securities, 
such as a vintage) had reached 10 percent of the value of the security. 
In the event total losses on mortgages in a security or group exceed 10 
percent of the value of the security or group, the Government backup 
fund should cover losses in excess of 10 percent.
    It is likely that under this arrangement there could actually be 
instances when the Government backup fund covered losses on covered 
securities without the bond guarantor itself having to fail, i.e., if 
one or more but not all of the securities covered by a private bond 
guarantor experienced losses of greater than 10 percent, but the 
private guarantor's capital was not depleted. Indeed, a properly 
reserved guarantee fund should be able to cover losses up to 10 percent 
of the balance of covered securities and still remain in business. In 
other words, the payment of losses by Federal guarantor after the 10 
percent first loss coverage should not require a catastrophic event, 
i.e., the exhaustion of a pool of private capital.
    A 10 percent attachment point would likely make recourse to the 
Government backup fund extremely rare, but not unheard of. A reformed 
housing finance system that envisages no payments out of the privately 
funded reserve balance of the Government guarantor would be erring on 
the side of being too conservative. The goal should be absolute 
protection of taxpayers, and that should allow the Federal guarantor to 
occasionally operate as a shock absorber, using funds it has collected 
from market participants. This would be similar to the way the National 
Credit Union Share Insurance Fund (NCUSIF) and the Federal Deposit 
Insurance Company (FDIC) pay depositors in failed federally insured 
credit unions and banks, not with taxpayer funds, but with reserves 
paid for by insured institutions.
    The Government should be prohibited from assisting private 
guarantors. In other words, the Government should insure the mortgage 
bonds but not the mortgage bond issuer. Instead, the Government should 
be prepared to quickly pay all legitimate claims not covered by a 
private guarantor, and to resolve the private guarantor if the 
Government is not reimbursed for such claims in a timely fashion. The 
Government should also be prepared to temporarily sell first loss 
coverage to issuers in times of market stress.
    The entity that provides the Government guarantee should also have 
regulatory responsibility. Since the entity that provides the 
Government guarantee will be responsible for protecting the taxpayer 
from losses resulting from that guarantee, that entity must have the 
authority to establish regulations to ensure that all of the many 
players in the complex housing finance system act in a fashion that 
does not expose the taxpayer to any losses.
Underwriting and Other Mortgage Standards
    Ultimately, the underwriting standards for a loan to qualify for 
inclusion in a covered security should be controlled by the Government 
entity responsible for covering losses on such securities. A similar 
system has worked fairly well for the FDIC and NCUSIF in establishing 
prudential standards for bank and credit union operation. Therefore, 
the less explicitly underwriting standards are prescribed in 
legislation, the better. Whereas QM standards could serve as a starting 
point for standards established by the Federal issuer, the law should 
not explicitly require that only QM loans could be eligible mortgages. 
The ability of a borrower to repay a loan depends on a number of 
characteristics; not just the absolute level of each characteristic, 
but also the interplay among those characteristics. Many of the 
underwriting standards of the QM rule are appropriate for an eligible 
mortgage: documentation requirements, payment and debt ratio 
calculation methods, prohibition of harmful loan features such as 
negative amortization, etc. But a bright line ceiling of 43 percent on 
the debt-to-income ratio, without any ability to consider other 
factors, would exclude too many qualified borrowers from enjoying the 
benefits of covered mortgages. For example, consider a borrower 
applying for an adjustable rate mortgage with annual adjustments after 
1 year, a low downpayment and a barely prime credit score. For such a 
borrower, even a 43 percent debt ratio could be far too high. However, 
for another borrower applying for a 30-year, fixed-rate loan with a 
large downpayment, an active and pristine credit record and other 
positive characteristics, a 50 percent debt ratio could be completely 
acceptable.
    The Federal issuer should be instructed by Congress to create 
standards that facilitate consumer access to mortgage credit consistent 
with the overriding goal of minimizing risk to the taxpayer of paying 
for losses on covered securities, recognizing that those standards 
should evolve through time. Those standards may be similar to QM 
standards, but should not be required to be the same as QM standards.
    This system currently exists with Fannie Mae and Freddie Mac. Their 
underwriting standards are the standards of the mortgage industry. A 
new or revised system should build upon these standards rather than 
start from scratch. In addition, the current GSE system has developed 
standardization across the mortgage industry in the Uniform Residential 
Loan Application, loan documents, appraisal standards, income 
calculation and many other areas. These standardizations have benefited 
consumers and lenders by creating consistency and efficiency in the 
marketplace and contribute to a well-functioning secondary market. As a 
new secondary market is envisioned, these standardizations must be 
considered so that standardization in mortgage lending remains. The 
unintended consequences of a failure to continue the standardization 
would be higher costs to borrowers and a sort of Wild West of mortgage 
lending in relation to a secondary market.
Regulatory Structure
    The entities providing secondary market services must be subject to 
appropriate regulatory and supervisory oversight to ensure safety and 
soundness, for example by ensuring accountability, effective corporate 
governance and preventing future fraud; they should also be subjected 
to strong capital requirements and have flexibility to operate well and 
develop new programs in response to marketplace demands.
    The regulator created through any reform of the housing finance 
system must have a role centered on supporting securitization that does 
not duplicate the role of other regulators in the process. Both issuers 
and servicers are heavily regulated by a myriad of Federal agencies, 
including the Bureau of Consumer Financial Protection (CFPB), 
Department of Housing and Urban Development, Department of Veteran 
Affairs and Department of Agriculture, in addition to the supervision 
performed by prudential regulators. Credit unions and other small 
lenders are drowning in regulation in the mortgage area, and we fear 
curtailing products and services as a result. Credit union members, and 
our housing recovery, lose as a result of regulatory burden. It is 
essential that any housing finance reform not create additional 
regulatory burden at the originator or servicer level; in fact, if done 
properly, the implementation of a new housing finance system could 
provide an opportunity to reduce credit unions' and other small 
lenders' regulatory burden, as we discuss later in this testimony.
    That said, the secondary market needs strong regulatory oversight 
to ensure equal access for small institutions and an orderly 
functioning of the system. At a high level, the regulator should be a 
neutral third party that would ensure the secondary market is open to 
lenders of all sizes on an equitable basis, with equal pricing 
regardless of lender volume. Ideally, the regulator would provide 
issuers who feel they are not receiving equal treatment in the 
secondary market with an administrative process to protest. In turn, 
the regulator should have substantial authority to order a remedy, 
including banning a violating secondary market participant from 
accessing the Federal issuer.
    We envision a regulator in the mold of the National Credit Union 
Administration (NCUA) or the Federal Deposit Insurance Corporation 
(FDIC), with direct examination and supervisory authority, given that 
the full faith and credit of the United States stands behind the 
Federal backstop, as it does with NCUA or FDIC insurance. The entities 
providing secondary market services must be subject to appropriate 
supervisory oversight to ensure safety and soundness, for example by 
ensuring accountability, effective corporate governance and preventing 
future fraud; they should also be subjected to strong capital 
requirements and have flexibility to operate well and develop new 
programs in response to marketplace demands. In terms of specific 
powers, at a minimum, the regulator should have the authority to make 
rules, examine and supervise secondary market participants, suspend or 
revoke the power of any secondary market participant to enjoy a Federal 
backstop, place any secondary market participant into conservatorship 
or involuntary liquidation and study the operation of the secondary 
mortgage market to determine if its regulations are leading to the most 
efficient operation.
    In terms of the regulator's governance structure, we recommend a 
board appointed by the President with the advice and consent of the 
Senate that would serve for fixed terms of 5 or more years (so as to be 
longer than the term of any one President). It is important for credit 
unions that, by statute, the board be required to include credit union 
representation. The board members should have minimum qualifications 
set by statute and come from the private marketplace, not be 
representatives of another regulatory agency. We leave it to Congress 
to set the minimum criteria for service on the board, but note that a 
minimum of 10 years of mortgage lending experience should provide the 
operational knowledge necessary to understand issuer concerns. 
Staggering terms of service makes sense to ensure continuity of the 
board.
    The regulator could be funded by a small portion of the guarantee 
fee. We believe the regulator should have an Office of Small Lender 
Access and Equality, dedicated to the concerns of credit unions and 
banks under a certain threshold in assets. That office should have the 
authority to study the pricing small institutions receive in the 
secondary market to determine if small institutions receive fair 
pricing.
    In terms of the regulatory issues surrounding ``too big to fail'' 
and the housing regulator's interaction with other regulators, the new 
housing regulator should have a seat on Financial Stability Oversight 
Council (FSOC) and generally should be given similar authority as the 
FDIC and Federal Reserve over systemically important entities under the 
Dodd-Frank Act. The regulator should be required to consult with FSOC 
before placing a systemically important secondary market participant 
into conservatorship. To the extent not already the case under current 
law, any nonbank that is a participant in the secondary market should 
be subject to a possible systemically important designation, and should 
have to draft a ``living will'' if so designated. The new regulator 
should have a direct role in reviewing the living wills of any 
secondary market entity, as is the case with the FDIC and Federal 
Reserve. Where State-chartered entities, including insurance companies, 
are concerned, the company would be resolved under State law, but the 
Federal housing regulator would have the authority to step in to handle 
that resolution if the appropriate State authority did not take what 
the regulator deemed to be the necessary action, as is true of the 
FDIC's similar authority under the Dodd-Frank Act.
Servicing Standards
    Credit unions should continue to be afforded the opportunity to 
provide mortgage servicing to their members in a cost-effective and 
member-service oriented manner, in order to ensure a completely 
integrated mortgage experience for credit union members. To lose this 
servicing relationship would be detrimental not only to a vast majority 
of credit union members, but could also result in fewer mortgage 
choices available to credit unions and their members, with higher 
interest rates and fees being imposed on both.
    Initial national mortgage servicing standards will likely be part 
of the common securitization platform being developed under the 
auspices of FHFA. They should be applied uniformly and not result in 
the imposition of any additional or new regulatory burdens upon credit 
unions. Going forward, private market participants should be able to 
revise servicing standards subject to oversight by the successor 
issuer(s), which should also have legal authority to ensure that the 
development and implementation of all servicing standards are 
reasonable and fairly applied for all servicers; legislation should 
ensure that eligibility requirements, compensation to or fees collected 
from servicers are not strictly based on volume but also reflect other 
reasonable factors such as in the case of compensation, the performance 
of the loans serviced.
    To ensure that all servicers are treated fairly and appropriately 
by the mutual securitization company, the legislation should establish 
an ombudsman to interact with servicers and create a review process 
under which complaints raised by servicers will be investigated and 
resolved in a timely manner.
    The regulation of servicing should be bifurcated with the successor 
Federal issuer(s) overseeing how standards for servicing necessary to 
support securitization are developed while the protection of consumers 
in the servicing process should be left to the CFPB. In other words, no 
entity should be granted authority to impose any additional consumer 
protection servicing requirements on regulated financial institutions 
that service mortgage loans. Such protections have already been 
established under a statutory and regulatory framework under the 
purview of the CFPB. While improvements to the current framework, such 
as changes to the servicers' exemption levels to ensure regulatory 
burdens on smaller servicers are minimized, should be considered, the 
regulation and oversight of the servicing process, including standards, 
should be left to the CFPB.
Transition Issues
    The transition from the current system to any new housing finance 
system must be reasonable and orderly. The transition should end when 
the new system is fully functional, rather than after any specified 
period. Further, we recommend that the common securitization platform 
now being developed under the direction of the FHFA should be available 
to all market participants. Finally, once the earnings of the GSEs have 
fully paid back all Government costs of their conservatorship, any 
further GSE earnings during the transition should be available to cover 
costs of standing up the new system, and beginning the funding of the 
reserve balance of the successor issuer(s).
    The Federal Credit Union Act limits the types of investments that 
credit unions can hold. Since Government agency securities are one of 
the few investments allowed, they tend to purchase and hold many of 
these securities. Therefore, in order to ensure the safety and 
soundness of credit unions, and to ensure the new securities perform on 
par as the current GSE securities we suggest a phased in approach to 
issuing the new security that would be blended with the Fannie and 
Freddie issued securities to ensure the investments hold their value 
and market stability is maintained.
    To minimize market disruption, we would suggest that Fannie Mae, 
Freddie Mac, and the new issuer be allowed to operate simultaneously so 
that all parties can get acquainted with the new system. In addition to 
gaining familiarity with the new system, it would be appropriate for 
both the GSE's and the new issuer to start issuing securities with each 
trying to mirror or have very similar characteristics of the other. As 
the last step in the process before Fannie Mae and Freddie Mac are 
wound down, blending the two securities together and selling them for a 
period of time under the new issuer name may provide the market the 
necessary time to become comfortable with the new security. Ideally, 
market participants will not notice any sudden changes on the day that 
the GSEs are shuttered and the new system takes over. The many changes 
necessary to move from the old to the new system would already have 
happened gradually during the transition.
    Finally, the common securitization platform now being developed 
under the direction of the FHFA should be available to all market 
participants. It could be ``owned'' and controlled by the new issuer, 
or a separate entity made up of all issuers of covered securities. Its 
use should be required for all covered securities, which would likely 
make it the default for private label securities. Regardless of who 
owns it, if its use were required for all covered securities, the new 
issuer would have de facto regulatory control over it.
Additional Concerns Specific to Credit Unions
    Statutory limitations restrict the ability of credit unions to more 
fully serve their members and may inhibit their ability to be complete 
participants in the reformed housing finance system. Therefore, we 
would strongly encourage the Committee to consider the following 
statutory changes specific to credit unions as part of the reform of 
the housing finance system.
Investment Authority
    Section 107(7) of the Federal Credit Union Act (12 U.S.C. 1757(7)) 
limits the types of investment that Federal Credit Unions may make to 
loans, Government securities, deposits in other financial institutions, 
and certain other limited investments. We believe that depending on the 
nature of the entity created as a successor to the GSEs, credit unions 
may need additional investment authority in order to capitalize that 
entity, and we encourage the Committee to provide that authority.
Multifamily Housing
    Credit unions are not significant participants in the multifamily 
mortgage market primarily because of the statutory cap on business 
lending imposed in 1998. This cap limits credit unions business loan 
portfolio to essentially 12.25 percent of the credit unions assets. 
Compounding the matter, the Federal Credit Union Act considers a loan 
made on a 1-4 family non-owner occupied residence a business loan; 
whereas the same loan made by a bank would be considered a residential 
loan. Comprehensive housing finance reform legislation may provide the 
opportunity to correct this disparity in the statute. We encourage the 
Committee to include language that would amend the Federal Credit Union 
Act and consider loans made on 1-4 family residential properties as 
residential loans.
Relief From Dodd-Frank Act Mortgage Regulations
    As Congress considers comprehensive housing finance reform 
legislation, it also may be prudent to consider changes to Dodd-Frank 
Act related mortgage regulations. The CFPB has finalized many thousands 
of pages of regulations with which credit unions and other community-
based financial institutions must comply, despite the fact that they 
did not cause the mortgage crisis and have, throughout history, 
employed the strong underwriting principles the rules are designed to 
require.
    The compliance obligations imposed by these rules--some of which 
were finalized in September and are effective in January--are simply 
overwhelming to many credit unions, and the tight timeframe for 
compliance puts the availability of mortgage credit at risk. While 
there has been suggestion by the CFPB and other regulators that they 
may not cite financial institutions for noncompliance for a period of 
time after the compliance date, the law carries a private right of 
action which would make credit unions and others vulnerable to lawsuits 
for noncompliance even as they work in good faith toward compliance. 
Another year would ensure that mortgage credit remains available to 
millions of credit union members while credit unions all over the 
country continue to understand how to implement the most sweeping 
regulatory changes to mortgage lending in U.S. history, and would be 
welcome relief to credit unions. We encourage Congress either through 
this legislation or as a separate bill to address this issue.
    In addition to addressing the compliance dates of the mortgage 
regulations, we encourage the Committee to address several other areas 
of the mortgage regulations, including the definition of points and 
fees for the purposes of the CFPB's ability-to-repay rule, the credit 
risk retention requirements for the ``qualified residential mortgage'' 
rule and changes to the qualified mortgage rule.
    We note that legislation has been considered which would exclude 
from the definition ``all title charges, regardless of whether they are 
charged by an affiliated company, provided they are bona fide and 
reasonable.'' Defining points and fees in this way will maintain a 
competitive marketplace, prevent over-pricing or limited choice in low-
moderate income areas and allow consumers to enjoy the existing benefit 
of working through one entity for their new mortgage or refinance. A 
statutory revision would make this definition clearer and stronger than 
the CFPB's amended rule.
    We hope the Committee will also consider including language in the 
housing finance reform bill to repeal the credit risk retention 
requirement in the ``qualified residential mortgage'' rule, and to 
allow the consumer to waive the requirement that mortgage disclosures 
be provided to the consumer three business days before closing.
    Finally, we encourage the Committee to consider language to repeal 
the defense to foreclosure provision of the Dodd-Frank Act. The 
litigation risk created by the defense to foreclosure provision has 
caused many credit unions to worry that prudential examiners will 
severely restrict the ability of credit unions to keep non-QM loans 
that do not enjoy the QM rule's safe harbor in their portfolio after 
the rule goes into effect. This would make QM the effective requirement 
for safety and soundness and risk mitigation purposes. These changes 
would do a great deal to alleviate the very real concern of credit 
unions that they will not be able to offer mortgages to their members 
who do not meet all of the QM standards but who nevertheless have the 
ability to repay a mortgage loan. These changes will also help 
facilitate the kind of creative products that are possible through 
portfolio lending that individualize the process of getting a mortgage 
based on the individual circumstances of each member.
Conclusion
    We are encouraged that the Committee has engaged in a process to 
consider comprehensive housing finance reform. Unquestionably, the 
housing finance system is in need of repair. A conservatorship is not 
meant to last nearly a decade. It is critical that Congress get reform 
legislation right as it impacts the overall economy and perhaps more 
importantly, the housing needs of Americans. We appreciate that the 
Committee has sought our views on this legislation and look forward to 
providing continued assistance as the legislation moves through the 
process. On behalf of America's credit unions and their 110 million 
members, thank you for your consideration of our views.
                                 ______
                                 
                 PREPARED STATEMENT OF JACK E. HOPKINS
 President and Chief Executive Officer, CorTrust Bank, N.A., Mitchell, 
South Dakota, on behalf of the Independent Community Bankers of America
                             July 20, 2017
    Chairman Crapo, Ranking Member Brown, Members of the Committee, my 
name is Jack E. Hopkins and I am President and CEO of CorTrust Bank in 
Sioux Falls, South Dakota. CorTrust is a national bank with more than 
$780 million in assets. As a third-generation community banker, I am 
pleased to testify today on behalf of the Independent Community Bankers 
of America and nearly 5,000 community banks nationwide at this 
important hearing on ``Housing Finance Reform: Maintaining Access for 
Small Lenders''. We are grateful for your recognition of the critical 
importance of preserving community bank access in any reforms to the 
housing finance system. ICBA strongly supports reform, but it is 
essential to borrowers and the broader economy that the details of 
reform are done right. ICBA looks forward to providing ongoing input on 
the impact of reform on community banks and their customers.
Community Banks and the Mortgage Market
    Community bank mortgage lending is vital to the strength and 
breadth of America's housing market. Community banks represent 
approximately 20 percent of the mortgage market, but more importantly, 
our mortgage lending is often concentrated in the rural areas and small 
towns of this country, which are not effectively served by large banks. 
For many rural and small-town borrowers, a community bank loan is the 
only option to help families buy a home.
    A vibrant community banking sector makes mortgage markets 
everywhere more competitive, and fosters affordable and competitive 
interest rates and fees, better customer service, and more product 
choice. The housing market is best served by a diverse group of lenders 
of all sizes and charter types. Nearly 8 years after the financial 
crisis, an already concentrated mortgage market has become yet more 
dangerously concentrated. We must promote beneficial competition and 
avoid further consolidation and concentration of the mortgage lending 
industry.
    CorTrust Bank was founded in 1930, at the outset of the Great 
Depression, and was built, tested and proven under historically 
challenging economic conditions. We survived the Great Depression and 
numerous recessions since that time, including the most recent 
financial crisis, by practicing conservative, commonsense lending and 
serving our community through good times and bad. We emerged from the 
crisis well-capitalized and our lending has supported the recovery. 
CorTrust Bank serves 19 communities in South Dakota and Minnesota, from 
Sioux Falls to rural communities with populations of less than 140, 
such as Artesian, where we were first chartered under the name Live 
Stock State Bank.
    Many American community banks have similar stories--some have been 
in business for more than 100 years. I fully expect the community bank 
business model will thrive in the future, to the benefit of consumers, 
communities, and the broader economy.
    Residential mortgage lending has been an important component of 
CorTrust's business since its founding and has grown more important 
over the years. In 1988, we first began to sell mortgages into the 
secondary market to access additional funding. Today, we have a $590 
million portfolio consisting of approximately 5,500 loans. About two 
thirds are held by Fannie Mae, and a smaller number are held by Freddie 
Mac and by the South Dakota Housing Authority. CorTrust bank and our 
customers depend on our access to Fannie Mae and Freddie Mac.
Fair Access to the Secondary Market
    Secondary market sales are a significant line of business for many 
community banks. According to an ICBA survey, nearly 30 percent of 
community bank respondents sell half or more of the mortgages they 
originate into the secondary market. \1\ When community banks sell 
their well-underwritten loans into the secondary market, they help to 
stabilize and support that market. Community bank loans sold to Fannie 
Mae, Freddie Mac, and the Federal Home Loan Banks (the GSEs) are 
underwritten as though they were to be held in the bank's portfolio. 
Selling loans to the GSEs allows the community bank to retain the 
servicing on those loans, thereby keeping their relationship with that 
borrower. Loans that are serviced by locally based institutions tend to 
lead to better outcomes for borrowers and their communities. Many non-
GSE secondary market investors require transfer of servicing when they 
purchase a loan.
---------------------------------------------------------------------------
     \1\ ICBA Mortgage Lending Survey. September 2012.
---------------------------------------------------------------------------
    While community banks choose to hold many of their loans in 
portfolio, it is critical for them to have robust secondary market 
access to support lending demand with their balance sheets. Selling 
mortgage loans into the secondary market frees up capital for more 
residential mortgages or other types of lending, such as commercial and 
small business lending, which support economic growth in our 
communities.
    Even those community banks that hold nearly all of their loans in 
portfolio need to have the option of selling loans in order to meet 
customer demand for long-term fixed-rate loans. Meeting this customer 
demand is vital to retaining other lending opportunities and preserving 
the relationship banking model. As a community bank, it is not feasible 
for me to use derivatives to offset the interest rate risk that comes 
with fixed-rate lending. Secondary market sales eliminate this risk. 
The ability to sell a single loan for cash, not securities, is critical 
to my bank because I don't have the lending volume to aggregate loans 
and create mortgage backed securities, before transferring them to 
Fannie Mae or Freddie Mac. In addition, I'm assured that the GSEs won't 
appropriate data from loans I've sold to solicit my customers with 
other banking products.
Recapitalization of the GSEs Cannot Wait
    Before discussing reforms to the secondary market, I would like to 
highlight for this committee an immediate risk facing the GSEs, the 
mortgage market, and taxpayers.
    Though Fannie Mae and Freddie Mac have returned to profitability 
and have resolved the majority of their defaulted loans, the quarterly 
sweep of their earnings to the Treasury--some $265 billion in 8 years--
has seriously depleted their capital buffers. In fact, Fannie Mae and 
Freddie Mac have less capital today than when they were placed in 
conservatorship 8 years ago and, absent a change in policy, are on 
track to fully deplete their capital by year end. When this happens, 
one or both companies are likely to require a draw from the Treasury. 
This in turn could trigger a market disruption that spikes interest 
rates and freezes home purchases and refinancing. This self-inflicted 
crisis can and must be avoided. FHFA and the Treasury should protect 
taxpayers from another bailout.
Key Features of a Successful Secondary Market
    The stakes involved in getting housing-finance market policies 
right have never been higher. Housing and household operations make up 
20 percent of our economy and thousands of jobs are at stake.
    ICBA's approach to GSE reform is simple: use what's in place today 
and is working and focus reform on aspects of the current system that 
are not working or that put taxpayers at risk. If reform is not done 
right, the secondary market could be an impractical or unattractive 
option for community banks. Proposals that would break up, wind down, 
sell or transfer parts of the GSEs' infrastructure to other entities 
would end up further concentrating the mortgage market in the hands of 
the too-big-to-fail players, putting taxpayers and the housing market 
at greater risk of failure. Further they run the risk of disrupting 
liquidity in the $5 trillion housing market that community banks and 
homebuyers depend on.
    Below are some of the key principles community banks require in a 
first-rate secondary market.

  <bullet>  The GSEs must be allowed to rebuild their capital buffers. 
        ICBA believes the first step in GSE reform must be restoring 
        the GSEs to a safe and sound condition. Regardless which 
        approach or structure reform takes, the existing system must be 
        well capitalized to prevent market disruption or additional 
        taxpayer support in the event of one or both GSEs requiring a 
        draw from the U.S. Treasury during what's likely to be a 
        lengthy debate and transition period to any new structure or 
        system.

  <bullet>  Lenders should have competitive, equal, direct access on a 
        single-loan basis. The GSE secondary market must continue to be 
        impartial and provide competitive, equitable, direct access for 
        all lenders on a single-loan basis that does not require the 
        lender to securitize its own loans. Pricing to all lenders 
        should be equal regardless of size or lending volume.

  <bullet>  An explicit Government guarantee on GSE MBS is needed. For 
        the market to remain deep and liquid, Government catastrophic 
        loss protection must be explicit and paid for through the GSE 
        guaranty fees, at market rates. This guarantee is needed to 
        provide credit assurances to investors, sustaining robust 
        liquidity even during periods of market stress.

  <bullet>  The TBA market for GSE MBS must be preserved. Most mortgage 
        lenders are dependent on a liquid to-be-announced (TBA) market 
        that allows them to offer interest rate locks while hedging 
        interest rate risk with GSE mortgage-backed securities (MBS) 
        that will be created and delivered at a later date. Creating 
        new GSE MBS structures, or using customized capital markets 
        structures that provide front end credit risk transfers, 
        generally makes the resulting MBS ``non-TBA.''

  <bullet>  Strong oversight from a single regulator will promote sound 
        operation. Weak and ineffective regulation of the GSEs enabled 
        them to stray from their primary mission as aggregators, 
        guarantors, and securitizers. As required by HERA, the FHFA 
        must ensure the secondary market operates in a safe and sound 
        manner so taxpayers are not put at risk. It is incumbent upon 
        FHFA to ensure the GSEs are adequately capitalized commensurate 
        with their risks and compliant with their primary mission.

  <bullet>  Originators must have the option to retain servicing, and 
        servicing fees must be reasonable. Originators must have the 
        option to retain servicing after the sale of a loan. In today's 
        market, the large aggregators insist that lenders release 
        servicing rights along with their loans. Transfer of servicing 
        entails transfer of customer data which can be used for cross-
        selling. While servicing is a low-margin business, it is a 
        crucial aspect of the relationship-lending business model, 
        giving originators the opportunity to meet the other lending or 
        financial services needs of their customers. Additionally, in 
        general, consumers receive better service when their loans are 
        serviced on a local level than when they are serviced by 
        entities that did not originate their loan and are located out 
        of their market area.

  <bullet>  Complexity should not force consolidation. Under the 
        current GSE model, selling loans is relatively simple. Sellers 
        take out commitments to sell loans on a single-loan basis and 
        are not required to obtain complex credit enhancements, except 
        for private mortgage insurance for loans exceeding 80 percent 
        loan-to-value or other guarantees. Any future secondary market/
        GSE structure must preserve this relatively simple process for 
        community banks and other small lenders that individually do 
        not have the scale or resources to obtain and manage complex 
        credit enhancements from multiple parties.

  <bullet>  GSE shareholder rights must be upheld. Any reform of the 
        housing finance system must address the claims of GSE 
        shareholders and respect the rule of law that governs the 
        rights of corporate shareholders.
ICBA's Way Forward
    ICBA's approach to GSE reform is simple: use what is in place today 
and is working, and address or change the parts that are not. Our 
approach has two parts: reforms that can be accomplished 
administratively by FHFA within HERA, and reforms that will require 
Congressional action.
Administrative Reforms
  <bullet>  FHFA should end the net worth sweep of revenues to Treasury 
        and, following HERA, require both GSEs to develop capital 
        restoration plans. These plans would include continued use of 
        credit risk transfers, provided they meet a targeted economic 
        return threshold that balances GSE revenue and capital building 
        needs with prudent credit risk management standards.

  <bullet>  FHFA should review and approve those capital plans, 
        establish prudent risk based capital levels as required by 
        HERA, and set reasonable timeframes and milestones for 
        achieving re-capitalization goals.

  <bullet>  FHFA should monitor the GSEs' performance against their 
        respective plans and release each GSE from conservatorship as 
        they become well-capitalized.

  <bullet>  The GSEs should complete construction of the Common 
        Securitization Platform and issue their respective MBS from the 
        platform. Ownership/management of the CSP should remain with 
        the GSEs through the current LLC structure. Expanding access to 
        the CSP to other entities should be up to Common Securitization 
        Solutions, LLC (CSS) board, with final approval by FHFA.

  <bullet>  Launch of the Uniform Mortgage Backed Security (UMBS) 
        should be deferred until both GSEs are recapitalized and 
        released from conservatorship.
Legislative Reforms
  <bullet>  Congress should create a catastrophic mortgage insurance 
        fund to be administered by the FHFA which would be funded 
        through GSE guaranty fees. The size of the fund should be 
        determined based on actuarial standards and should be similar 
        to the FDIC's deposit insurance fund. The fund would stand 
        behind the explicit U.S. Government guarantee of the GSE MBS.

  <bullet>  Congress should change the GSE corporate charters from the 
        current Government-chartered, shareholder-owned, publicly 
        traded companies, to regulated financial utilities that are 
        shareholder owned. All current shareholders should be able to 
        exchange common and junior preferred GSE shares for a like 
        amount of shares in the new structures. The Treasury should 
        exercise its warrants for senior preferred shares of GSE stock 
        and convert those shares to stock in the new structure. No 
        dividends should be paid to any shareholders until the company 
        is deemed well capitalized per its recapitalization plan by the 
        FHFA. The Treasury should be required to divest itself from its 
        shares once a company is well capitalized.

    The worst outcome in GSE reform would be to allow a small number of 
megafirms to mimic the size and scale of Fannie and Freddie under the 
pretense of creating a private sector solution strong enough to assure 
the markets in all economic conditions. Moral hazard derives from the 
concentration of risk, and especially risk in the housing market 
because it occupies a central place in our economy. Any solution that 
promotes consolidation is only setting up the financial system for an 
even bigger collapse than the one we've just been through.
    The GSEs must not be turned over to the firms that fueled the 
financial crisis with sloppy underwriting, abusive loan terms, and an 
endless stream of complex securitization products that disguised the 
true risk to investors while generating enormous profits for the 
issuers. These firms must not be allowed to reclaim a central role in 
our financial system.
    ICBA is pleased to see a robust debate emerging on housing finance 
reform. A number of serious proposals have been put forth to date--both 
from within Congress and from outside--all of which combine promising 
features with others that warrant additional consideration and 
reworking.
Closing
    Thank you again for the opportunity to testify today. It is 
critically important the details of reform are done right to ensure 
community banks and lenders of all sizes are equally represented and 
communities and customers of all varieties are served.
                                 ______
                                 
                   PREPARED STATEMENT OF CHUCK PURVIS
 President and Chief Executive Officer, Coastal Federal Credit Union, 
   Raleigh, North Carolina, on behalf of the National Association of 
                    Federally Insured Credit Unions
                             July 20, 2017
Introduction
    Good morning, Chairman Crapo, Ranking Member Brown, Senator Tillis, 
and Members of the Committee. My name is Chuck Purvis and I am 
testifying today on behalf of the National Association of Federally 
Insured Credit Unions (NAFCU). I appreciate the opportunity to share 
NAFCU's views on Housing Finance Reform and the importance of 
maintaining secondary market access for small lenders. NAFCU 
appreciates the bipartisan approach committee leadership and members 
have demonstrated on this critical issue. In addition to our testimony, 
NAFCU member credit unions look forward to continuing to work with you 
beyond today's hearing to ensure access to the secondary mortgage 
market for credit unions and their 110 million members.
    I currently serve as the President and CEO of Coastal Federal 
Credit Union in Raleigh, North Carolina. Coastal Federal Credit Union 
is a $2.9 billion institution serving 235,000 members with 22 branches 
in central North Carolina. Coastal was originally chartered in August 
of 1967 to serve employees of IBM in Raleigh. Today, we offer our 
employer groups a full range of financial products and services, 
including checking accounts, deposit accounts, credit cards, auto 
loans, mortgages and home equity loans. We also provide a suite of 
ancillary services, including wealth management and residential real 
estate brokerage services. In 2016, Coastal received a low income 
designation from NCUA, meaning at least 50 percent of our members live 
in census tracts that are identified as being low income by the Federal 
Government.
    I joined the team at Coastal in May of 2001 and became President/
CEO on July 1, 2012. I have 35 years of senior management experience 
with credit unions, including serving on the board and as chairman of 
the National Credit Union Foundation. I was also recently recognized by 
the Triangle Business Journal as the 2016 Business Person of the Year, 
the first time that a credit union executive has been honored with that 
award.
    I go to work every day with three things in mind:

  1.  How can I make Coastal a great place to work for our 475 
        employees? If they don't enjoy coming to work, find their work 
        rewarding, and love to serve, we will not succeed in providing 
        exceptional service and value to our members;

  2.  How do we best use our resources to put more money into the 
        pockets of our members every day? They are who we are here to 
        serve; and,

  3.  How do we help make the dreams of our members come true--whether 
        their first home, first car for a college graduate, or a basic 
        car to allow someone to work every day and support their 
        family? These dreams and aspirations are why we exist.
NAFCU's Perspective on Emerging Senate Debate
    NAFCU applauds Chairman Mike Crapo and Ranking Member Sherrod Brown 
for their continued bipartisan attention to housing policy as the 
Banking Committee agenda aggressively pursues housing finance reform 
ideas from the perspective of all stakeholders. NAFCU is the only 
national organization exclusively representing the interests of the 
Nation's federally insured credit unions. NAFCU-member credit unions 
collectively account for approximately 69 percent of the assets of all 
federally chartered credit unions. My testimony today will explore the 
longstanding and vital relationships credit unions have with the 
Government sponsored enterprises (GSEs) and how important it is for any 
housing finance reform package to ensure credit union access to the 
secondary market under fair pricing conditions.
    We appreciate the approach the committee has taken to not rush any 
efforts on housing finance reform, and to carefully consider the 
practical implications of any changes that may be made. Although we 
have not endorsed any particular plan at this time, we appreciate the 
stakeholder focused approach and the Committee holding this hearing. We 
do, however, have several housing finance reform principles that should 
be included in any reform effort to guarantee the continued safety and 
soundness of the credit union industry.
    We believe that efforts to fund a new system be done in a way as to 
limit the cost to smaller financial institutions as much as possible. 
High costs of entry into, or establishment of, a new system, could be a 
major barrier of access for small lenders. To date, we do not believe 
that any housing finance reform solution suggested in previous 
Congresses fully took into account the needs of small lender access. 
For instance, the legislation before the Committee in 2014, S. 1217, 
had a $15 billion cap for participation in a new mutual securitization 
company designed for smaller lenders. With that model, we remain 
concerned that institutions below that arbitrary asset size threshold 
would be unable to generate enough volume to ensure liquidity and that 
smaller lenders would have a difficult time capitalizing such an 
entity. If the Committee were to consider such an approach again, we 
believe it should be open to a full range of institutions to ensure 
that these concerns are addressed.
    We also want to stress that it is critical that large institutions 
not be given control of the market. Even though large institutions play 
an important role, including serving as a loan purchaser for small 
lenders, their market dominance would have negative consequences for 
smaller institutions. In many instances, they compete for mortgage 
business with small lenders. They may be willing to buy small lender 
loans to package them in good economic times, ensuring liquidity for 
small lenders. However, in an economic downturn, they may limit this 
activity, drying up liquidity for small lenders and reducing 
competition for them on the front-end. In that scenario, the consumers 
and communities small lenders serve lose access to mortgage credit. 
Congress must ensure that does not happen in a reformed system.
Credit Union Principles in Housing Finance Reform Efforts
    Recently, as the future of housing finance has become a focal point 
in Congress, with the Administration and among regulatory agencies, 
NAFCU established an updated set of principles that the association 
would like to see reflected in any reform efforts. The objective of 
these principles (listed below) is to help ensure that credit unions 
are treated fairly during any housing finance reform process. The 
principles are:

  <bullet>  A healthy, sustainable and viable secondary mortgage market 
        must be maintained. Credit unions must have unfettered, 
        legislatively guaranteed access to the secondary mortgage 
        market. In order to achieve a healthy, sustainable and viable 
        secondary market, there must be vibrant competition among 
        market participants in every aspect of the secondary market. 
        Market participants should include, at a minimum, at least one 
        GSE, the Federal Home Loan Banks (FHLBs), Ginnie Mae, and 
        private entities.

  <bullet>  The U.S. Government should issue an explicit Government 
        guarantee on the payment of principal and interest on mortgage-
        backed securities (MBS). The explicit guarantee will provide 
        certainty to the market, especially for investors who will need 
        to be enticed to invest in MBS, and facilitate the flow of 
        liquidity through the market.

  <bullet>  The GSEs should be self-funded, without any dedicated 
        Government appropriations. Although the U.S. Government should 
        be involved in the secondary mortgage market, the GSEs should 
        not be Government-funded mortgage programs. The GSEs' fees 
        should provide the revenue necessary for sustained independent 
        operation. Those fee structures should, in addition to size and 
        volume, place increased emphasis on the quality of loans. Risk-
        based pricing for loan purchases should reflect that quality 
        difference. Credit union loans provide the high quality 
        necessary to improve the salability of the GSEs' securities.

  <bullet>  Creation of a FHFA board of advisors. A board of advisors 
        made up of representatives from the mortgage lending industry 
        should be formed to advise the FHFA regarding the GSEs and the 
        state of the secondary mortgage market. Credit unions should be 
        represented in such a body.

  <bullet>  The GSEs should be allowed to rebuild their capital 
        buffers. Rebuilding capital buffers ensures the safety and 
        soundness of the GSEs, maintains investor confidence, prevents 
        market disruption, and reduces the likelihood of another 
        taxpayer bailout in the event of a future catastrophic market 
        downturn. The GSEs should be permitted to begin rebuilding 
        capital slowly over a period of several years.

  <bullet>  The GSEs should not be fully privatized at this time. There 
        continues to be serious concerns that in a fully privatized 
        system, in which the GSEs are sold off to the secondary market, 
        small, community-based financial institutions could be shut out 
        of the secondary market. Any privatization efforts should be 
        gradual and ensure that credit unions have continued access to 
        the GSEs and the secondary mortgage market.

  <bullet>  The FHLBs must remain a central part of the mortgage 
        market. The FHLBs serve an important function in the mortgage 
        market as they provide their credit union members with a 
        reliable source of funding and liquidity. Housing finance 
        reform must take into account the consequence of any 
        legislation on the health and reliability of the FHLBs.

  <bullet>  Credit risk transfer transactions should be expanded and 
        the Common Securitization Platform (CSP) and Single Security 
        retained. Although there are concerns regarding credit unions' 
        ability to participate in certain credit risk transfer (CRT) 
        transactions, the GSEs should continue to expand CRT as well as 
        initiatives to create deeper mortgage insurance to further 
        disperse risk among private investors. Credit unions should be 
        permitted to participate in transactions such as front-end CRTs 
        through a special purpose vehicle, such as a credit union 
        service organization or the FHLBs. The CSP and Single Security 
        have the potential to simplify the sale of loans to the GSEs 
        and allow greater, more affordable access to the secondary 
        mortgage market.

  <bullet>  The FHFA or its successor should continue to provide strong 
        oversight of the GSEs and the new system, whatever it may look 
        like. A strong, reliable single Federal regulator helps to 
        provide consistency and focus to the GSEs so they can stay on 
        track with their core missions and objectives. The FHFA helps 
        maintain safety and soundness in the secondary mortgage market. 
        A new system should also utilize the current regulatory 
        framework and GSE pricing and fee structures.

  <bullet>  The transition to a new system should be as seamless as 
        possible. Regardless of whether the GSEs in their current form 
        are part of a new housing finance system, credit unions should 
        have uninterrupted access to the GSEs or their successor(s) and 
        the secondary mortgage market as a whole, in particular through 
        the cash window and small pool options.
Background on Credit Unions and Credit Union Mortgage Lending
    Historically, credit unions have served a unique function in the 
delivery of necessary financial services to Americans. Established by 
an act of Congress in 1934, the Federal credit union system was 
created, and has been recognized, as a way to promote thrift and to 
make financial services available to all Americans, many of whom would 
otherwise have limited access to financial services. Every credit union 
is a cooperative institution organized ``for the purpose of promoting 
thrift among its members and creating a source of credit for provident 
or productive purposes.'' (12 U.S.C. 1752(1)). Congress established 
credit unions as an alternative to banks and to meet a precise public 
need-a niche credit unions fill today for nearly 110 million Americans. 
Despite the passage of over 80 years since the Federal Credit Union Act 
(FCUA) was signed into law, two fundamental principles regarding the 
operation of credit unions remain every bit as important today as in 
1934:

  <bullet>  Credit unions remain totally committed to providing their 
        members with efficient, low-cost, personal financial service; 
        and,

  <bullet>  Credit unions continue to emphasize traditional cooperative 
        values such as democracy and volunteerism. Credit unions are 
        not banks.

    The Nation's approximately 5,700 federally insured credit unions 
serve a different purpose and have a fundamentally different structure 
than banks. Credit unions exist solely for the purpose of providing 
financial services to their members, while banks aim to make a profit 
for a limited number of shareholders. As owners of cooperative 
financial institutions, united by a common bond, all credit union 
members have an equal say in the operation of their credit union--``one 
member, one vote''--regardless of the dollar amount they have on 
account. These singular rights extend all the way from making basic 
operating decisions to electing the board of directors--something 
unheard of among for-profit, stock-owned banks. Unlike their 
counterparts at banks and thrifts, Federal credit union directors 
generally serve without remuneration--a fact epitomizing the true 
``volunteer spirit'' permeating the credit union community.
    Credit unions continue to play a very important role in the lives 
of millions of Americans from all walks of life. Since the financial 
crisis of 2008, consolidation of the commercial banking sector has 
progressed at an increasingly rapid rate. With the resulting 
depersonalization in the delivery of financial services by banks, the 
emphasis in consumers' minds has begun to shift not only to services 
provided, but also--more importantly--to quality and cost of those 
services. Credit unions are second-to-none in providing their members 
with quality personal financial services at the lowest possible cost.
    As has been noted by members of Congress across the political 
spectrum, credit unions were not the cause of the economic crisis, and 
an examination of their lending data indicates that credit union 
mortgage lending outperformed bank mortgage lending during the recent 
downturn. This is partly because credit unions did not contribute to 
the proliferation of sub-prime loans. Before, during, and after the 
financial crisis, credit unions continued to make quality loans through 
sound underwriting practices focused on placing their members in solid 
products they could afford.
    While the housing market continues to recover from the financial 
crisis, and Congress works to put into place safeguards to ensure such 
a crisis never happens again, credit unions continue to focus on 
providing their member-owners with the basic financial products they 
need and demand. The graphs below highlight how credit union real 
estate loan growth has outpaced banks since the downturn and how credit 
unions have fared better with respect to real estate delinquencies and 
real estate charge-offs. It is with this data in mind that NAFCU urges 
members of the Committee to recognize the historical performance and 
high quality of credit union loans as housing finance reform moves 
forward.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    A primary concern of credit unions is continued unencumbered access 
to the secondary mortgage market. This includes adequate transition 
time to any new system. A second concern, equally as important, is 
recognizing the quality of credit union loans through a fair pricing 
structure. Because credit unions originate a relatively low number of 
loans compared to others in the marketplace--federally insured credit 
unions had just over 7 percent of the first mortgage originations in 
2016 (see chart below)--we do not support a pricing structure based on 
loan volume, institution asset size, or any other geopolitical issue 
that will lend itself to discrimination and disadvantage their member-
owners. As such, credit unions should have access to pricing that is 
focused on quality not quantity.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Recent trends in asset portfolios, coupled with the current 
interest rate environment, present a unique challenge to credit union 
management. Until recently, interest rates had fallen to record lows, 
credit unions experienced vigorous share growth, and credit union 
participation in the mortgage lending arena increased to historic 
heights. Even as interest rates have begun to rise again, credit union 
first mortgage originations have continued to grow. Between 2007 and 
2016, the credit union share of first mortgage originations expanded 
from 2.6 to 7.5 percent. The portion of first mortgage originations 
sold into the secondary market increased overall from 26 percent in 
2007 to 40 percent in 2016, according to National Credit Union 
Administration (NCUA) call report data (see chart below), although it 
has leveled off in recent years.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Credit unions hedge against interest rate risk in a number of ways, 
but selling products to be securitized and sold on the secondary market 
remains a key component of safety and soundness. Lenders must have 
guaranteed access to secondary market sources including Fannie Mae, 
Freddie Mac, Ginnie Mae, and the Federal Home Loan Banks (FHLBs) as 
they are valuable partners for credit unions who seek to hedge interest 
rate risks by selling their fixed-rate mortgages. Not only does this 
allow credit unions to better manage risk, but we are also able to 
reinvest those funds into their membership by offering new loan 
products or additional financial services. A 2015 NAFCU real estate 
survey highlights the growing use of GSEs among credit unions. More 
than three-quarters of respondents indicated that credit union board 
policy restricted the percentage of real estate loans that could be 
held on their balance sheet, with a median limitation of 40 percent of 
total loans. Without these critical relationships, credit unions would 
be unable to provide the services and financial products their 
memberships demand and expect.
    Home Mortgage Disclosure Act data shows how heavily credit unions 
have come to rely on the GSEs. Between 2007 and 2015, the portion of 
credit union first mortgages that were sold to Fannie Mae grew from 28 
percent to 49 percent. The portion sold to Freddie Mac fell slightly 
from 13 percent to 11 percent over the same period. Credit unions sold 
a total of 60 percent of their first mortgages sold to the secondary 
market to the GSEs in 2015. The total market for mortgage resales is 
also heavily dependent on the GSEs. The portion sold to Fannie Mae and 
Freddie Mac in 2007 was 43 percent in 2007 and 59 percent in 2015.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Finally, it should also be noted that the Government plays an 
important role in helping to set standards and bring conformity to the 
housing market. Any changes to these standards that result in decreased 
conformity could make it harder for credit unions to sell loans onto 
the secondary market as they do not have the economies of scale that 
larger market participants enjoy.
Mortgage Lending at Coastal
    Coastal has been offering mortgage loans for the past 40 years. 
Until 2008, Coastal held the majority of our mortgages in portfolio. As 
demand grew and long term interest rate risk came into play, we began 
to work with Fannie Mae to sell many of our loans into the secondary 
market. From 2008 to 2009, we experienced a 300 percent increase in the 
value of loans sold to Fannie Mae.
    It's important to note that Coastal never participated in the type 
of risky mortgage lending that contributed to the economic downfall of 
2008 and 2009. We did not get into negative amortizing ARMs, ALT-A 
loans, subprime loans, or ``no income, no job, no assets (NINJA)'' 
loans. The demand existed. We had members who asked for these types of 
loans, but we took our fiduciary responsibility to our members 
seriously and would not put them into a home they could not 
realistically afford. As a result, we only experienced 70 foreclosures 
over the past decade, including a period of time where other lenders 
saw double-digit percentages of their portfolio going bad.
    Since 2011, Coastal has made more than 11,700 mortgage loans, for a 
total $2.25 billion. During that same time period, we sold 72 percent 
of those loans directly to Fannie Mae, because they offer competitive 
pricing for affordable lending to our members, diverse mortgage 
products, and allow us to maintain the servicing relationship with our 
members.
    We currently service 10,738 mortgages valued at nearly $1.8 
billion. Of that, 7,310 loans valued at $1.2 billion are with Fannie 
Mae. To us, these are more than just loans. Each one represents a 
family in a home, and each mortgage application is a new opportunity to 
help make a family's dream of home ownership come true. Even though 
most of our mortgage business is within central North Carolina, we do 
have members in all 50 States.
    Within our primary 16-county market footprint, Coastal ranks 10th 
in market share out of 620 lenders. We achieve this, in part, because 
of the trust we've built with our membership and the value we return to 
them. We receive volumes of positive feedback from our members in 
regard to our mortgage process and our servicing.
    We firmly believe that access to affordable credit for homebuyers 
is essential to middle class financial well-being. Even people who rent 
can benefit. We represent a market that's home to some of the highest 
rents in the State, in part due to supply constraints in a high-demand 
market. By continuing to make home loans accessible and affordable, we 
can help do our part to relieve some of that market pressure.
    But, without the GSEs, our capacity to lend would be outstripped by 
demand. The GSEs benefit consumers because access to the secondary 
market and access to capital provides us with additional lending 
capacity. Our ability to sell loans, versus keeping them on our balance 
sheet, also mitigates our long term interest rate risk, reduces 
concentration risk, and keeps rates competitive. If not for access to 
the GSEs, our capacity to meet local demand would be greatly 
diminished, and local consumers would suffer from higher rates and 
fees, more stringent credit requirements and overall fewer options. I 
urge you to keep this in mind as you consider reform.
    Coastal serves many members who are seeking to buy their first 
home. We feel an obligation to help make that first mortgage 
affordable, and are committed to walking members through the home-
buying process. We offer a variety of seminars and educational 
resources for first-time homebuyers, including Fannie Mae's Framework.
    Coastal has been making special first-time homebuyer loans since 
the 1990s. We currently offer two first-time homebuyer mortgages, a 30-
year fixed-rate loan and a 7/1 adjustable rate loan. The program is 
available to home buyers who have not owned a home in the last 3 years. 
The product conforms to Fannie's standards, so only one spouse needs to 
be a first-time home buyer. Our first-time homebuyer mortgage is a 100 
percent loan with no mortgage insurance, no income or area limits and 
up to a $300,000 sale price. We currently service 787 first-time 
homebuyer loans, totaling $124 million. Our 60-day delinquency rate on 
those loans is below 1 percent.
    In 2016, due to the increasing number of extended and multi-
generational households in our market, we began offering the Fannie Mae 
HomeReady<SUP>'</SUP> loan. HomeReady<SUP>'</SUP> allows consideration 
of income from non-borrower household members (relatives or non-
relatives) as a compensating factor to allow for a debt-to-income (DTI) 
ratio above 45 percent and up to 50 percent. It also considers non-
occupant borrowers, such as parents.
    We are also a member of the Federal Home Loan Bank of Atlanta, and 
through them, we have access to additional funding to allow us to 
continue to make home loans at times where loan demand outstrips 
deposit growth. Currently, we have $110 million outstanding with the 
FHLB.
    Term advances from the FHLB are also a tool to help us manage 
interest rate risk created by longer term loans.
Key Elements of the Current System
    Our partnership with Fannie Mae is critical to Coastal's mortgage 
lending function. We use Fannie's Desktop Underwriter<SUP>'</SUP> 
platform to underwrite all mortgage loans that we originate. This 
ensures conformity and consistency across our portfolio, whether we 
sell the loan or not.
    Our reliance on Desktop Underwriter<SUP>'</SUP> provides Coastal 
with a level of efficiency that we might not otherwise have. 
Additionally, it enhances the member experience by automating and 
expediting parts of the loan process. If governmental reform creates 
any significant changes to the Desktop Underwriter<SUP>'</SUP> 
platform, it would have widespread effects on our operations.
    Fannie Mae has recently launched a new program, Day One 
Certainty<SUP>TM</SUP>, which automates and expedites income and 
employment verification as part of the application process. This speeds 
up the mortgage underwriting process by as much as ten business days, 
adds a level of data integrity, and greatly reduces the risk of fraud. 
Coastal participated in the pilot program for Collateral 
Underwriter<SUP>'</SUP> for property evaluations, one of four segments 
of the Day One Certainty<SUP>TM</SUP> program.
    As Congress considers reform, access to such technology must be 
preserved in any new model. The GSEs' tools provide critical benefits 
to small lenders. Desktop Underwriter<SUP>'</SUP> and Day One 
Certainty<SUP>TM</SUP> are important tools for Coastal and we want to 
ensure stability with these platforms. There are some opportunities for 
improvement, including updating the Agency's antiquated credit risk 
scoring platform, which would subsequently lessen some punitive results 
in loan level pricing adjustments borne by the consumer.
    The current aggregation model at the GSEs has also had benefits for 
credit unions. We do not want to see a regression to the previous 
aggregation model used before conservatorship--where market share 
agreements with the largest lenders created underwriting exceptions and 
lower guarantee fees based on volume, not on the underlying loan risk. 
This priced out smaller lenders and forced them to sell to larger 
lenders, instead of directly to Fannie Mae. These practices created 
huge volumes of underpriced risk that were a part of the culture and 
precipitated the financial crisis. We want a system that ensures equal 
market access for lenders of all sizes and business models and 
maintains a deep, liquid market for long-term options. Furthermore, 
even though Coastal is not currently using it, the function of the cash 
window at the GSEs as a single loan execution process is also vital to 
credit unions moving forward.
Transition to a New Housing Finance System
    Should Congress act to reform the Nation's housing finance system, 
getting the transition right will be critical. More than anything, to 
ensure a smooth transition to a reformed system, credit unions need 
certainty that changes outlined in legislation and accompanying 
regulation will function as intended. Credit unions must be kept up-to-
date during this transitional period and lawmakers should build 
flexibility into the transitional period to account for unforeseen 
implementation challenges. NAFCU believes that Congress should first 
agree on a set of reforms and then, based on the nature and complexity 
of such reforms, establish a timeframe for transition. Arbitrarily 
pledging to adhere to a transitional timeframe before a set of reforms 
are agreed upon could create otherwise avoidable issues for new 
entities created under any proposal and outside stakeholders.
    In an effort to ease the transition, Congress should consider 
moving currently approved Fannie and Freddie lenders into a new system 
en bloc and giving them an expedited certification. This could reduce 
confusion and, if executed properly, could make the process run more 
smoothly for all involved. It can take time for lenders to be certified 
with the GSEs, and this time to certify, whether to the GSEs or to a 
new system, should be factored in to the transition time.
    NAFCU also believes it is important that a new system be up and 
running before Fannie Mae and Freddie Mac's ability to securitize MBS 
is shut down. One way to accomplish this may be to have the two 
entities exist in a winding down capacity during the early stages of a 
new system.
The Importance of Servicing Rights to Credit Unions
    Any new housing finance system must contain provisions to ensure 
credit unions can retain servicing rights to loans they make to their 
members. Many consumers turn to credit unions for lower rates and more 
palatable fee structures, but they also want to work with a reputable 
organization they trust will provide them with high quality service. 
Because credit unions work so hard to build personal relationships with 
their members, relinquishing servicing rights has the potential to 
jeopardize that relationship in certain circumstances.
    At Coastal, we retain servicing rights on all of our loans. This 
was especially beneficial during the economic crisis, as it allowed our 
members to approach us when they got in trouble and allowed us to work 
with them on their loan and keep them in their home.
Underwriting Criteria in Any New System
    NAFCU has concerns about using the ``Qualified Mortgage'' (QM) 
standard as the standard for loans to be eligible for the Government 
guarantee, as was proposed in previous legislation before the 
Committee. We believe underwriting standards may be best left to the 
new regulator and do not think that they should be statutorily 
established. Doing so would allow the regulator to address varying 
market conditions and act in a countercyclical manner if needed.
    Furthermore, given the unique member-relationship credit unions 
have, many make good loans that work for their members that do not fit 
into all of the parameters of the QM box. Using the Consumer Financial 
Protection Bureau's (CFPB) QM standard for the guarantee would continue 
to discourage the making of non-QM loans.
    We would also like to caution against the perpetuation of the use 
of one brand of credit scoring model. Both Fannie Mae and Freddie Mac 
require loans that are underwritten using FICO scoring models. We 
believe any new system should be open to other possible credit scoring 
models as well.
Regulatory Relief and Mortgages
    NAFCU supports changes to QM standard to make it more amenable to 
the quality loans credit unions are already making. We would like to 
highlight two such changes:
Loans Held in Portfolio
    NAFCU supports exempting mortgage loans held in portfolio from the 
QM definition as the lender, via its balance sheet, already assumes 
risk associated with the borrower's ability-to-repay. The following is 
a real-life example of a loan we would approve to hold in portfolio 
that we would not approve now:

  <bullet>  Nonconforming loan (jumbo)

  <bullet>  53 percent LTV

  <bullet>  Existing long relationship

  <bullet>  Substantial deposit relationship

  <bullet>  810 FICO score

  <bullet>  DTI is above 43 percent creating a non-QM loan
Debt-to-Income Ratio
    NAFCU supports Congress directing the CFPB to revise aspects of the 
``ability-to-repay'' rule that dictates a consumer have a total debt-
to-income (DTI) ratio that is less than or equal to 43 percent in order 
for that loan to be considered a QM. This arbitrary threshold will 
prevent otherwise healthy borrowers from obtaining mortgage loans and 
will have a particularly serious impact in rural and underserved areas 
where consumers have a limited number of options. The CFPB should 
either remove or increase the DTI requirement on QMs.
    We would also support changes to the TILA/RESPA requirements, such 
as removing the requirement to deliver the Closing Disclosure (CD) 3 
business days prior to closing. There are myriad reasons why this issue 
creates hardship for all involved. A ``real-life'' situation includes a 
final property inspection triggering ``last minute'' changes to the 
contract that are in the best interest of the borrower. Because of the 
rigid, mandatory, no exception nature of the requirement, these 
examples ``re-start'' the timer and push back closing affecting moving 
schedules, utility setups, etc. There may also be examples where a 
borrower may be able to get better terms on rates, but cannot afford to 
move the closing and cannot waive this requirement.
    Another frustration relates to third party fees. The lender is 
required to know exactly what third parties will charge and if the 
actual invoice exceeds the tolerance, the lender must pay the 
difference. Situations arise where an inspection or appraisal may be 
more involved than originally thought and vendors may justifiably incur 
more expenses to perform the work. Again, the rigidity of the rules 
requires the lender to absorb these amounts.
Conclusion
    In conclusion, NAFCU appreciates the Banking Committee's bipartisan 
approach to housing finance reform and the inclusive nature of the 
process. As you consider reform, we urge you to adhere to the credit 
union principles outlined in my testimony. Whatever approach is taken 
to reform the system, it is vital that credit unions continue to have 
unfettered access to the secondary market and get fair pricing based on 
the quality of their loans. The Government must also continue to play a 
role by providing an explicit Government guarantee to help stabilize 
the market.
    Thank you for the opportunity to provide our input on this 
important issue. NAFCU and our member credit unions look forward to 
working with you and your staffs as housing finance reform legislation 
moves through the legislative process.
    I thank you for your time today and welcome any questions that you 
may have.
                                 ______
                                 
                     PREPARED STATEMENT OF WES HUNT
President and Chief Executive Officer, Homestar Financial Corporation, 
 Gainesville, Georgia, on behalf of the Community Mortgage Lenders of 
                                America
                             July 20, 2017
    On behalf of the Community Mortgage Lenders of America (CMLA) I am 
pleased to submit testimony to the Senate Committee on Banking, 
Housing, and Urban Affairs on Housing Finance Reform. CMLA is a trade 
group representing small lenders that serve the housing finance needs 
of their customers. CMLA's members, which include both mortgage 
companies and community banks, are active originators of loans that are 
sold to, and securitized by, both Fannie Mae and Freddie Mac 
(collectively the ``GSEs'').
    None of CMLA's members received TARP bailout money and among our 
members there were very few loans from either GSE or FHA that they were 
required to repurchase.
    CMLA is a member of the Main Street GSE Reform Coalition, which 
recently published a set of Common Principles for GSE reform. The 
Common Principles emphasize the need for strong capitalization of the 
GSEs, equal treatment and access for all lenders and fulfillment of the 
GSEs' affordable housing obligations.
Summary of CMLA Housing Finance Reform Recommendation
    We are pleased that the Committee is moving forward on the subject 
of housing finance reform. Since the depths of the 2008 financial 
crisis, the U.S. mortgage market has made great strides in addressing 
the issues that created and drove the crisis. The last significant 
piece of unfinished business from the crisis is to resolve the status 
of Fannie Mae and Freddie Mac. In order to best serve the home finance 
needs of American consumers we need to allow these two vital sources of 
liquidity for the home mortgage market to emerge from their nearly 9 
year-long conservatorships. Listed below are CMLA's recommendations of 
how to accomplish the final steps in housing finance reform:

  <bullet>  The Housing and Economic Recovery Act of 2008 (HERA) 
        addressed many of the shortcomings and lapses that led to the 
        financial failure of Fannie and Freddie, and the Qualified 
        Mortgage provision in Dodd-Frank successfully addressed lax 
        underwriting standards and poorly designed products. However, 
        there are a few important steps left to be accomplished;

  <bullet>  The completion of housing finance reform includes both 
        administrative actions and targeted, specific Congressional 
        legislation;

  <bullet>  The Federal Housing Finance Agency (FHFA) must exercise its 
        authority under HERA to set capital standards for the GSEs and 
        oversee and approve the GSEs creating and executing a 
        recapitalization plan to build a strong base of private capital 
        to provide financial stability and reduce taxpayer risk;

  <bullet>  Congress should make permanent the mandate of equal fees 
        for all lenders and the FHFA's authority to regulate the 
        guaranty fees charged by the GSEs as well as extending these 
        two safeguards to upfront risk sharing arrangements as well, in 
        order to ensure a level playing field for America's homebuyers 
        and all lenders, and

  <bullet>  Congress must also provide a Federal backstop for the GSEs, 
        so their MBS will continue to command strong prices in the 
        marketplace, which translate to affordable interest rates for 
        home buyers and continued availability of 30-year fixed-rate 
        loans
State of the Mortgage Market
    The state of the mortgage market in the U.S. in 2017 is good with 
some improvements definitely required. Lenders are projected to 
originate approximately $1.6 trillion in single family mortgages this 
year. Home values are on a steadily upward trajectory and many 
individuals and families are able to obtain financing to purchase their 
home of choice. Interest rates for a 30-year fixed-rate mortgage remain 
in the 4 percent range and the credit performance of existing loans is 
strong.
    According to Core Logic, a California-based real estate data and 
analytics firm, delinquency and foreclosure rates among existing home 
loans are at quite moderate levels, and down from a comparable period 
in 2016. Both early (30 day) and late stage delinquencies (120 days+) 
are down .5 percent since the comparable period in 2016, while loans in 
foreclosure have declined from 1.0 percent in 2016 to 0.7 percent in 
2017. All of these delinquency and foreclosure statistics are a 
fraction of the comparable numbers during the height of the financial 
crisis and its immediate aftermath in the 2008-2010 period.
    Credit parameters have loosened somewhat in the past year, but 
remain more stringent than they were early in the century prior to the 
relaxation that led to the financial crisis. Fannie Mae, for example, 
recently announced that the maximum debt to income ratio they would 
accept on loans they purchase, would be 50 percent. Previously the 
maximum was 45 percent, with 50 percent acceptable only under certain 
qualifying circumstances.
    However, there has been little to no increase in mortgage risk as a 
result of these modest loosening in credit parameters. As measured by 
Core Logic's Housing Credit Index, which tracks the risk inherent in 
mortgages being currently originated, the risk in mortgage being 
originated today is equivalent to the risk inherent in mortgages 
originated early in this century, which was a period of low risk and 
robust credit performance for single family mortgages in the U.S. By 
comparison the Housing Credit Index in the first quarter of 2007, at 
the height of the pre-crisis relaxation of underwriting standards and 
origination of exotic mortgage products, was more than double what it 
is today.
    To be sure, there are some issues in today's market that need to be 
addressed. Credit parameters, while having loosened somewhat, are still 
stricter than they were in the 2000-2003 time period. That early 21st 
century time period is seen as having had the optimum balance between 
ample credit availability and strong underwriting standards. In 
addition, the supply of homes, both existing and new, is quite 
restricted in many major markets. Overhanging all of this is the 
continued low rate of home ownership, which in turn has contributed to 
sharp increases in rents as potential buyers remain as tenants and 
compete for rental housing with new entrants.
    A significant, and from the standpoint of small lenders, beneficial 
change in the mortgage marketplace since the immediate aftermath of the 
financial crisis has been the lessening of market share concentration 
among the big bank lenders. In 2011 three big bank lenders accounted 
for 50 percent of all residential mortgages in the U.S. Today the 
market share held by those three same banks is just above 20 percent. 
What has changed is the market share of small and mid-sized independent 
lenders, which has grown to 40 percent plus in 2016 and the first half 
of 2017.
    The growth in the independent lender segment has translated into 
more choices for consumers and less risk concentration among a few 
large lenders, both positives for the marketplace and for borrowers.
State of Mortgage Market Reform
    The shortcomings that led to the GSEs' conservatorship are well 
known. Too little capital, a weak and ineffective regulator, executive 
compensation that encouraged excessive risk taking and discounted 
guaranty fees to large lenders that led to a concentration of risk, 
were the four primary causes. Fortunately, HERA corrected three of 
these issues and legislative action by Congress in 2011 corrected the 
fourth, at least temporarily.
    HERA created FHFA as a robust regulator, armed with sufficient 
authority to oversee the operations of the GSEs. The legislative change 
in 2011 authorized FHFA to regulate the guaranty fee charged by the 
GSEs and mandated equal guaranty fees for all lenders for a 10-year 
period ending in October, 2021.
    FHFA's actions, as both regulator and conservator we believe, have 
fulfilled the expectations of HERA's drafters. Under FHFA's direction 
and control Fannie Mae and Freddie Mac have been steady, dependable and 
significant sources of liquidity for the conventional mortgage market. 
The credit quality of the mortgages purchased and securitized by the 
duo have been outstanding, as has the performance of the mortgages 
backing the GSE-issued securities. Fannie Mae and Freddie Mac are once 
again the linchpins of the conventional mortgage market in the U.S.
    FHFA has also moved to address some issues that have made the 
mortgage market less efficient and more expensive for consumers--
notably the price difference between Freddie Mac and Fannie Mae 
securities. As noted recently by the Urban Institute, the price gap 
between the Freddie Mac and Fannie Mae mortgage backed securities has 
largely disappeared. This price gap, with Freddie Mac securities 
commanding a lower price in the capital markets, had persisted for many 
years, well prior to conservatorship. Now with the product uniformity 
and other operational efficiencies introduced by FHFA, as well as the 
promise of a common securitization platform and a single security, have 
led to the market pricing the securities on a relatively equal basis.
    The other major shortcoming that FHFA has not addressed, though 
HERA provided it with ample authority to do so, is the inadequate 
capitalization of Fannie Mae and Freddie Mac. HERA authorizes the FHFA 
Director to set both minimum capital standards and risk-based capital 
standards, ``to the extent needed to ensure that the regulated entities 
operate in a safe and sound manner.''
    Unfortunately, with Fannie Mae and Freddie Mac in conservatorship, 
FHFA has chosen to not exercise its capital authority under HERA. In 
fact, the Preferred Stock Purchase Agreements (PSPAs) between the U.S. 
Treasury and each GSE specifically ignore the capital provisions of 
HERA and require each entity to reduce its capital level each quarter 
until it reaches zero in January 2018. We find this to be a reckless 
and ill-advised action put in place by the former administration and we 
shall address this issue further, later in this testimony.
    FHFA has also acted to ensure that executive compensation provides 
the appropriate incentives to keep GSE management focused on fulfilling 
their mission of providing ample liquidity to the mortgage market and a 
flow of affordable housing finance for lenders to make available to 
consumers.
    The fourth shortcoming, the discounting of guaranty fees tied to 
lending volume, was a serious misstep by Fannie and Freddie. The 
combination of a 10-year grant of statutory authority to FHFA and 
strong, effective administrative action, have eliminated this issue.
    In the pre-crisis era both Fannie Mae and Freddie Mac utilized the 
technique of discounted guaranty fees in return for exclusive business 
arrangements with large lenders as a competitive tool to garner larger 
loan volumes.
    This discounting of guaranty fees to large lenders had several 
detrimental effects on the financial stability of the GSEs and the 
mortgage market. Through the discounts the large lender recipients were 
able to translate their favorable pricing into a competitive advantage 
in the primary mortgage market that allowed them to underprice small 
lenders and gain larger market share for themselves. As pointed out 
above these larger market shares led to a dangerous concentration of 
mortgage originations among a handful of lenders. As we pointed our 
earlier in the testimony, in 2011 three big bank lenders commanded a 
combined market share of 50 percent.
    Smaller lenders were not offered the same pricing by either Fannie 
Mae or Freddie Mac and thus could not offer these lower prices to the 
consumers whose financing needs they served. Small lenders could obtain 
not-quite-as-favorable pricing by agreeing to sell their closed loans 
to one of the large lenders who enjoyed the discounted guaranty fees. 
The downside for small lenders was that large lenders would only 
purchase loans from small lenders bundled with the loan servicing 
rights. So, small lenders forfeited the opportunity to establish a 
long-term customer relationship. Small lenders also were deprived of 
the opportunity to build additional financial stability for their 
companies through the ongoing income stream from loan servicing fees.
    The situation is very different today for small lenders. With the 
equal pricing policy mandated by Congress and implemented by FHFA, 
small lenders pay the same guaranty fees as large lenders. Small 
lenders can compete on an equal pricing basis with large lenders in the 
primary mortgage market with the option of selling the loan directly to 
Fannie Mae or Freddie Mac and retaining the servicing rights to the 
loan. Retaining the loan servicing rights allows small lenders to build 
a long-term relationship with their customers and to create greater 
financial stability for their company with the ongoing income from loan 
servicing fees.
    Since the major shortcomings that led to the GSEs' conservatorship 
have been addressed through legislative action by Congress and 
administrative action by FHFA, what remains to be done? What can be 
accomplished administratively, by FHFA and/or other agencies or 
departments in the executive branch and what further action do small 
lenders believe Congress needs to take?
Scope of GSE Reform That Remains To Be Accomplished
    There are several critical and specific actions that remain to be 
taken in order to complete housing finance reform. Some of these 
actions can be accomplished administratively and some require targeted, 
narrowly scoped Congressional legislation. Among the required actions 
are the following:

  <bullet>  Congress must make permanent FHFA's authority to regulate 
        the guaranty fees charged by Fannie Mae and Freddie Mac; 
        continue the prohibition on discriminatory or unequal pricing 
        and extend that administrative authority and prohibition to 
        upfront risk sharing transactions and all other actions that 
        may foster or encourage vertical integration of the primary and 
        secondary mortgage markets;

  <bullet>  Congress should make permanent the current PSPAs as an 
        explicit Federal backstop support for the GSEs with two 
        important changes--eliminate the capital reduction and profit 
        sweep provisions and mandate payment of an ongoing fee by the 
        GSEs for the backstop;

  <bullet>  FHFA must exercise their existing statutory authority to 
        draw up both minimum and risk-based capital standards for 
        Fannie Mae and Freddie Mac;

  <bullet>  FHFA must require Fannie Mae and Freddie Mac to draw up 
        plans to meet both the risk-based and minimum capital 
        standards. As mandated by HERA the GSE capital plans are then 
        subject to approval by FHFA

  <bullet>  Once each GSE has an approved plan to meet the risk-based 
        and minimum capital standards FHFA should oversee the 
        implementation of those plans by the GSEs; and

  <bullet>  Once the GSEs have met the capital standards FHFA should 
        release them from conservatorship.
Permanent FHFA Authority--Vertical Integration
    For small lenders, this is the paramount issue within housing 
finance reform. As detailed earlier in this testimony, discriminatory 
pricing of guaranty fees by Fannie Mae and Freddie Mac in favor of the 
large lenders in the pre-crisis era led to both market distortions as 
well as a concentration of risk for the GSEs. The statutory prohibition 
of such discriminatory pricing, and the authority of the regulator to 
oversee and control the GSEs' guaranty fees is an essential cornerstone 
of housing finance reform and must be made permanent by Congress.
    In addition, the extension of this prohibition to upfront risk 
sharing is equally essential, as is the authority for FHFA to regulate 
such activities. Our concern is that upfront risk sharing, while 
potentially an important technique for the GSEs to control their risk, 
also offers the same opportunities for discriminatory action favoring 
one group of lenders over another. So, an amendment to current law to 
accomplish these dual objectives is important.
    Finally, we also believe that an amendment should extend the 
prohibition, and grant of FHFA regulatory authority, to any and all 
other techniques, transactions or actions by the GSEs that could 
provide great marketplace leverage, or lead to vertical integration of 
the primary and secondary markets, to any group of lenders at the 
expense of all other lenders. Congressional policy should be a strong 
endorsement and affirmation of equal pricing and equal treatment for 
all lenders that do business with the GSEs.
Permanent Federal Backstop
    The national and international capital markets have accepted the 
PSPAs as proof of a Federal backstop to Fannie Mae and Freddie Mac, 
that has led to favorable pricing for both their debt and the mortgage-
backed securities that they issue. Such favorable pricing has led 
directly to benefits for home buyers, who continue to enjoy an adequate 
supply of conventional mortgage financing at affordable rates. In 
addition, this market acceptance of Fannie Mae and Freddie Mac 
mortgage-backed securities is directly linked to the continued 
availability of the 30-year fixed-rate mortgage for American home 
buyers.
    In the interests of keeping legislative action by Congress to 
complete housing finance reform as specific and targeted as possible, 
while preserving all the benefits to home buyers that flow from the 
current system, we believe the best course of action for Congress would 
be to make the PSPAs a permanent Federal backstop for the GSEs with a 
couple of important changes. The first would be to eliminate the 
capital reduction requirements currently built into the PSPAs.
    As referenced above, we believe it is a reckless and ill-advised 
policy to run two organizations that are so vital to the smooth 
functioning of the U.S. mortgage market on a thin and rapidly 
diminishing capital level, as required by the current provisions of the 
PSPAs. As we have stated publicly, FHFA has the authority, as 
conservator, to suspend the dividend payments under the PSPAs, to allow 
the GSEs to build a capital buffer. Such a capital buffer is important 
to reduce the possibility that either of the GSEs may experience a 
quarterly accounting-driven loss due to their hedging activities, which 
in turn could require another draw under the PSPA. Such a draw could 
lead to market disruption or turmoil, which is entirely avoidable if 
the GSEs have a capital buffer, rather than a thin to nonexistent 
capitalization as they have now.
    We would support administrative action now, or in the immediate 
future, by FHFA to address this situation, either through a suspension 
of the dividends or other means to allow the GSEs to build a capital 
buffer. The smooth functioning of the GSEs is too important to the 
housing finance needs of American consumers to allow an entirely 
avoidable quarterly fluctuation to disrupt their operations.
Capital Standards
    Under existing law (12 U.S.C. 4611 et. seq.) the FHFA Director is 
authorized by Congress to establish and enforce both risk-based and 
minimum capital standards for Fannie Mae and Freddie Mac. Regrettably 
FHFA has failed to exercise this authority while the GSEs have been in 
conservatorship.
    We believe a vital part of housing finance reform is for FHFA to 
immediately begin exercising its statutory authority to set both risk-
based and minimum capital standards that ``ensure that the enterprises 
operate in a safe and sound manner, maintaining sufficient capital and 
reserves to support the risks that arise in the operations and 
management of the enterprises.'' (12 U.S.C. 4611)
    The single more important lesson from the '08 financial crisis is 
that capital is key. Those institutions that were well capitalized 
survived, those that were not, failed, or were bailed out. There will 
inevitably be another financial crisis at some point in the future. How 
it will come about, and how it will either resemble, or be starkly 
different, from the 2008 financial crisis is impossible to know today. 
But what we do know is that strong capitalization will be a decisive 
factor, as it has been in every financial crisis in the past 100+ 
years.
Capital Plans
    Current law (12 U.S.C. 4622) grants the FHFA Director the authority 
to require a GSE that does not meet the minimum or risk-based capital 
standards to submit a capital restoration plan. Once FHFA has 
established minimum and risk-based capital standards for the GSEs, it 
should utilize this authority to require submission of capital 
restoration plans by Fannie Mae and Freddie Mac.
    These plans are subject to FHFA's approval and must meet the 
following standards:

        ``Each capital restoration plan submitted under this subchapter 
        shall set forth a feasible plan for restoring the core capital 
        of the regulated entity subject to the plan to an amount not 
        less than the minimum capital level for the regulated entity 
        and for restoring the total capital of the regulated entity to 
        an amount not less than the risk-based capital level for the 
        regulated entity. Each capital restoration plan shall

  1.  specify the level of capital the regulated entity will achieve 
        and maintain;

  2.  describe the actions that the regulated entity will take to 
        become classified as adequately capitalized;

  3.  establish a schedule for completing the actions set forth in the 
        plan;

  4.  specify the types and levels of activities (including existing 
        and new programs) in which the regulated entity will engage 
        during the term of the plan; and

  5.  describe the actions that the regulated entity will take to 
        comply with any mandatory and discretionary requirements 
        imposed under this subchapter.''
Release From Conservatorship
    Once FHFA approves these plans the GSEs should remain in 
conservatorship until they have met the minimum capital standards set 
by FHFA. Once they have met the minimum capital standards, and any 
other conditions set by FHFA, the GSE should be released from 
conservatorship.
What Small Lenders and Their Consumers Do Not Need From Housing Finance 
        Reform
    There are a number of items that small lenders and the consumers 
whose housing finance needs they serve, do not need or want from any 
housing finance reform effort. Chief among those are the following:

  <bullet>  Massive, complex legislation to create someone's vision of 
        what the U.S. housing finance system should look like if we 
        were designing it from scratch today;

  <bullet>  Creating avenues or loopholes that could be exploited by 
        the large banks and their Wall Street enablers to reestablish 
        the un-level, concentrated mortgage market that existed in the 
        pre-crisis era, with dominant positions for the large banks in 
        both the primary mortgage origination and secondary capital 
        markets;

  <bullet>  Examples of such avenues or loopholes would include--

    <bullet>  Advocacy of incomplete or limited prohibitions on unequal 
        pricing and risk sharing

    <bullet>  Proposals to either break up Fannie Mae and Freddie Mac, 
        remove the Common Securitization Platform (CPS) from GSE 
        ownership, or permitting the chartering of additional GSEs

    <bullet>  Permitting ownership of such ``new'' GSEs by large 
        lenders, consortiums of large lenders or Wall Street investment 
        banks; and

    <bullet>  Coupling such ownership with a proposal to establish a 
        Federal guaranty on the MBS issued by each chartered GSE.
Massive Complex Legislation
    As we have stated previously in this testimony--we know the causes 
of the GSEs financial failures in 2008 and we know how to remedy those 
failures. As we have demonstrated in this testimony, such remedies do 
not require broad, sweeping remakes of the entire housing finance 
system in this country.
    Such proposal for broad, sweeping remakes either from think tanks, 
consultants or financial trade associations representing large lender 
and/or Wall Street interests primarily exist for two reasons. They 
satisfy the ego needs of their author(s) and seek to advance the 
financial interests of those who funded the creation of the proposal. 
Neither reason is sufficient to justify the scrapping or replacement of 
a housing finance system that has provided affordable mortgage finance 
for millions of Americans and has worked reasonably well in the post-
crisis era.
    We know what went wrong and how to fix it. That is what we should 
do.
Avenues or Loopholes
    As small lenders, we have noted the consistent theme of the debate 
over housing finance reform and the various proposals that have been 
put forth to address the issue. Restoration of the primary role of the 
large lenders has been the overriding objective of most of the players, 
and many of the proposals, that have been put forth.
    Initially in the immediate wake of the crisis, with the GSE 
conservatorships in their infancy, the debate and proposals did little 
to cloak the primary objective of restoration of the large lender 
roles.
    As the debate has gone on the various players have perceived that 
many in Congress, as well as small lender, consumer and other interest 
groups are either unsupportive, or actively opposed, to the restoration 
of the large lenders in their pre-crisis dominant roles. In recognition 
of this development the large lender proponents have shifted their 
tactics.
    Their proposals now cloak their objective more carefully, but 
create avenues or loopholes that are designed to facilitate the efforts 
of the large lenders to regain their dominant role. Such avenues 
include a number of different items:
    Limited prohibitions on unequal pricing--Various proposals 
seemingly embrace the current prohibition on unequal pricing and 
requirement of equal pricing for all lenders, but do not advocate 
extending that pricing to unequal risk sharing terms, or other means to 
favor large lenders over small lenders.
    Proposals to break up the GSEs or Remove CSP--As currently 
constituted the GSEs are coherent, well-functioning entities that are 
serving the needs of the marketplace. As outlined previously in this 
testimony this current state of affairs can be transitioned to a post-
conservatorship era with modest legislative action and appropriate 
regulatory action by FHFA. Breaking up the GSEs and/or removing a vital 
component of their ability to create a mortgage-back security to access 
the capital markets (the Common Securitization Platform (CSP)), serves 
no good purpose except to create opportunities for Wall Street and the 
large banks to regain their dominant positions, which they previously 
demonstrated they use to favor their financial interests and 
disadvantage small lenders and the consumers they serve.
    Proposals to charter new GSEs--The U.S. housing finance system 
previously had hundreds of GSEs. They were called savings and loans 
(S&Ls) and either through direct experience, or by reading our history 
books, we all know how well that turned out for our country. In 
addition, these proposals to charter new GSEs do not contain an 
absolute prohibition on ownership of the newly chartered GSEs by 
consortiums of big banks and/or Wall Street investment banks. Thus, 
creating an avenue for attainment of the principal objective outlined 
above. The ability of small lenders to establish a mutually owned GSE 
is not an effective counter to this situation. The capital to establish 
a new GSE will be a large sum, well beyond the ability of small 
lenders, who constantly work to ensure the adequacy of their own 
capitalization, to free up cash to invest.
    Proposals to federally guarantee GSE-MBS--On the surface proposals 
to establish a Federal guarantee for MBS issued by the GSEs appear 
worth considering. With an explicit Federal guarantee investors could 
feel secure that principal and interest on their MBS would be paid no 
matter what turmoil engulfs the marketplace. However, a closer 
examination of the issue reveals several troubling facets:

  <bullet>  Securities carrying the full faith and credit guarantee of 
        the U.S. Government would permit banks, particularly large 
        banks, to own such securities without holding any capital 
        against them. The capital free nature of such securities would 
        give large banks an advantage not enjoyed by other investors, 
        which in turn could lead to ownership concentrations, that in 
        turn could grant undue leverage and influence to the large 
        banks.

  <bullet>  If this capital-free securities status for large banks were 
        coupled with the ability of large bank consortiums to establish 
        and own a GSE, you could easily see how this would facilitating 
        the reestablishment of the dominant role for large banks in the 
        mortgage marketplace and extend that dominant role to the 
        secondary market as well

  <bullet>  Currently the only mortgage security that has a full faith 
        and credit Federal guaranty is the Ginnie Mae mortgage-backed 
        security, which is the financing vehicle for FHA-insured, VA-
        guaranteed and Rural Housing loans. Each of these loan programs 
        serves groups for whom the lower interest rates afforded by the 
        Federal guaranty is critical: first time buyers, low and 
        moderate income buyers, veterans, and rural borrowers. What 
        impact will there be on the GNMA program and the borrowers it 
        serves, if GSE MBS received the same guaranty? We believe this 
        issue merits further exploration and discussion, at the very 
        least.
Conclusion
    We would ask members of the Senate Banking Committee to note the 
contrasts between the testimony you are hearing today, from groups 
whose membership consists solely of small lenders, and previous 
testimony from groups whose membership includes large lenders.
    Hopefully you have noted the consistent message from small lenders, 
simply asking Congress for limited action sufficient to address the 
well-known reasons why the GSEs entered conservatorship. Further that 
Congress should take legislative action that contains specific 
provisions to address those issues, without upending the current 
mortgage market. We would ask the Committee to remember that the 
organizations that have testified before you today do not need to take 
into account, or negotiate the views they have expressed to you today 
with the large lenders, many of whom were responsible for much of what 
led to the 2008 financial crisis. Our views are the distillation of the 
observations and beliefs of our members, small lenders all, who have 
faithfully served the mortgage finance needs of their communities 
through thick and thin and were not responsible for the actions and 
conditions that led to the 2008 financial crisis.
    Thank you for this opportunity to present out testimony. Please 
contact us with any questions and if you desire additional detail.
                                 ______
                                 
                PREPARED STATEMENT OF WILLIAM GIAMBRONE
President and Chief Executive Officer, Platinum Home Mortgage, Rolling 
  Meadows, Illinois, and President, Community Home Lenders Association
                             July 20, 2017
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        RESPONSES TO WRITTEN QUESTIONS OF SENATOR COTTON
                       FROM BRENDA HUGHES

Q.1. On Extending the Safe-Harbor for Qualified Mortgages to 
Portfolio Loans--A Qualified Mortgage (QM) is a designation 
created by the Dodd-Frank Act and is reserved for loans that 
meet certain requirements: i.e. if the lender obtained the 
required paperwork from the borrower and the borrower has thus 
demonstrated an ``ability to repay.'' Loans that meet the 
Qualified Mortgage standard are given a legal safe harbor from 
litigation regarding the borrower's true ability to repay.
    A key reason for the QM standards was to give those who 
bought these mortgages on the secondary market some assurance 
that borrower's ability to pay was properly assessed.
    But the loans that lenders keep in their own portfolio--
that they don't sell to anyone--don't have this safe-harbor 
protection afforded to them.
    Do you support expanding the definition of Qualified 
Mortgage to include all loans held in portfolio? Please explain 
your reasoning.

A.1. Yes. Specifically, as it relates to First Federal, we 
approve loans where we feel we have appropriately underwritten 
the borrower's ability to repay. This underwriting standard is 
not new to First Federal and is applied whether we originate a 
loan to be held on our books or sold in the secondary market. 
Additionally, if I were to look at a broader application, I 
cannot see where there would be a benefit to a financial 
institution to put a loan on their books where they do not have 
confidence in the borrower's ability to repay Portfolio lending 
is among the most traditional and lowest-risk lending in which 
a bank can engage. Loans held in a bank's portfolio are well 
underwritten because if a loan is to be held in the portfolio, 
the bank carries all of the credit and interest rate risk of 
that loan until it is repaid. Therefore, it must be 
sufficiently conservative to protect the safety and soundness 
of the bank. However, existing QM mortgage rules are too 
restrictive and have made it difficult, and in some cases 
impossible, for creditworthy borrowers--especially low-income 
families--to obtain safe and sound loans from portfolio 
lenders. I urge you to support legislation that, would treat 
any loan made by an insured depository and held in that 
lender's portfolio as compliant with the Ability to Repay and 
Qualified Mortgage requirements and would provide an important 
and much needed correction to the unnecessarily restrictive 
standards that now exist.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR COTTON
                      FROM JACK E. HOPKINS

Q.1. On 18-Month Exam Cycle--Currently credit unions and 
community banks with assets of less than $1 billion in assets 
can earn the right to move to an 18-month exam cycle instead of 
being examined every 12 months. They earn this only when 
regulators give them stellar results on their annual exams.
    To those of us who approve of this policy, the appeal of 
this incentive is 3-fold:

  <bullet>  Lenders that have earned the 18-month exam cycle 
        want to keep it and are thus incented to stay in 
        excellent shape.

  <bullet>  Lenders that are currently on a 12-month exam cycle 
        have an additional incentive to improve their 
        performance.

  <bullet>  Regulators can focus on the lenders that do in fact 
        have significant problems.

    What are the tangible benefits, both to customers and to 
the lender, when a lender moves to the 18-month exam cycle.

A.1. First, ICBA fully agrees with you that the 18-month exam 
cycle for well-rated banks creates positive incentives for 
performance that make the banking system safer and allows 
regulators to focus on the banks that pose the greatest risk. 
We appreciate your support for this policy.
    I would add to this that too frequent or intrusive exams 
create a significant distraction for community bankers that 
prevents them from serving their customers to their full 
potential. The examination process is lengthy and its 
repetition at too-frequent intervals leaves little time when a 
bank is free of examiners and management can give their full 
attention to its customers. Ultimately, the customer is 
adversely impacted.

Q.2. Should we extend this incentive to more lenders, for 
example by raising the asset threshold so that lenders with 
$2bn, $5bn, or perhaps $10bn of assets can earn 18-month exam 
cycles via stellar exam performance?

A.2. Following on the rationale set forth above regarding the 
positive performance incentives created by a longer exam cycle, 
ICBA advocates both a higher asset threshold and a longer exam 
cycle. ICBA's Plan for Prosperity recommends a 2-year exam 
cycle for well-rated banks with up to $5 billion in assets. A 
higher asset threshold would reflect recent and ongoing 
industry consolidation which has raised the average asset size 
of community banks. A longer exam cycle would strengthen 
performance incentives, better target exam resources, and allow 
bank management to better focus on their communities. A longer 
exam cycle for well-rated banks could be safely implemented 
because examiners would continue to monitor bank performance 
through quarterly call reports.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR COTTON
                       FROM CHUCK PURVIS

Q.1. On 18-Month Exam Cycle--Currently credit unions and 
community banks with assets of less than $1 billion in assets 
can earn the right to move to an 18-month exam cycle instead of 
being examined every 12 months. They earn this only when 
regulators give them stellar results on their annual exams.
    To those of us who approve of this policy, the appeal of 
this incentive is 3-fold:

  <bullet>  Lenders that have earned the 18-month exam cycle 
        want to keep it and are thus incented to stay in 
        excellent shape.

  <bullet>  Lenders that are currently on a 12-month exam cycle 
        have an additional incentive to improve their 
        performance.

  <bullet>  Regulators can focus on the lenders that do in fact 
        have significant problems.

    What are the tangible benefits, both to customers and to 
the lender, when a lender moves to the 18-month exam cycle?

A.1. An 18-month exam cycle would lower our exam preparation 
and support costs by one-third. We estimate our internal costs 
of preparing materials in advance and responding to examiner 
inquiries during the 2-3 week exam to be approximately 
$200,000. Many internal projects are suspended for 2-4 weeks 
during each exam cycle.
    These savings would be available to improve rates and lower 
fees for our members, or to enhance services used by members.

Q.2. Should we extend this incentive to more lenders, for 
example by raising the asset threshold so that lenders with 
$2bn, $5bn, or perhaps $10bn of assets can earn 18-month exam 
cycles via stellar exam performance?

A.2. Yes. NAFCU believes that all well-run credit unions should 
have access to an 18-month exam cycle. As a credit union, we 
provide an extensive set of management, financial, operational 
and risk reports to our Board every month. These are available 
online for our examiner to review each month. NCUA should look 
at ways of reducing examiner time in credit unions. This can be 
done be reviewing these financials remotely, or collecting more 
data remotely during this 18-month period. This could allow 
NCUA to follow what is going on at the credit union, while not 
adding the burden of more frequent examiner visits.




              Additional Material Supplied for the Record
              
              
              
            LETTER SUBMITTED BY CAPITAL MARKETS COOPERATIVE
            
            
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


             LETTER SUBMITTED BY THE MORTGAGE COLLABORATIVE



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        STATEMENT SUBMITTED BY THE MORTGAGE BANKERS ASSOCIATION


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


     JOINT LETTER SUBMITTED BY CONSUMER AND HOUSING INDUSTRY GROUPS



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



          LETTER SUBMITTED BY THE MORTGAGE BANKERS ASSOCIATION


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                JOINT LETTER SUBMITTED BY SENATOR SCOTT


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    JOINT LETTER SUBMITTED BY SMALL AND MID-SIZED TRADE ASSOCIATIONS


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
